<html>
<title> - EXTERNAL PERSPECTIVES ON THE FISCAL YEAR 2010 NASA BUDGET REQUEST AND RELATED ISSUES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      EXTERNAL PERSPECTIVES ON THE
                      FISCAL YEAR 2010 NASA BUDGET
                       REQUEST AND RELATED ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2009

                               __________

                           Serial No. 111-37

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science




                  U.S. GOVERNMENT PRINTING OFFICE
50-174                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. MCCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             June 18, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    16

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science and Technology, U.S. House of Representatives..........    17

                               Witnesses:

Mr. John C. Marshall, Member, Aerospace Safety Advisory Panel 
  (ASAP)
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    23

Dr. Kenneth M. Ford, Chair, National Aeronautics and Space 
  Administration Advisory Council (NAC)
    Oral Statement...............................................    24
    Written Statement............................................    25
    Biography....................................................    30

Mr. Robert M. Hanisee, Chair, Audit and Finance Committee, NASA 
  Advisory Council (NAC)
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    37

Dr. Raymond S. Colladay, Chair, National Academies' Aeronautics 
  and Space Engineering Board (ASEB)
    Oral Statement...............................................    38
    Written Statement............................................    39
    Biography....................................................    41

Dr. Berrien Moore III, Member, National Academies' Space Studies 
  Board (SSB)
    Oral Statement...............................................    42
    Written Statement............................................    43

Mr. J.P. Stevens, Vice President for Space Systems, Aerospace 
  Industries Association (AIA)
    Oral Statement...............................................    57
    Written Statement............................................    58
    Biography....................................................    62

Discussion.......................................................    62

              Appendix: Answers to Post-Hearing Questions

Mr. John C. Marshall, Member, Aerospace Safety Advisory Panel 
  (ASAP).........................................................    68

Dr. Kenneth M. Ford, Chair, National Aeronautics and Space 
  Administration Advisory Council (NAC)..........................    75

Mr. Robert M. Hanisee, Chair, Audit and Finance Committee, NASA 
  Advisory Council (NAC).........................................    83

Dr. Berrien Moore III, Member, National Academies' Space Studies 
  Board (SSB)....................................................    90

Mr. J.P. Stevens, Vice President for Space Systems, Aerospace 
  Industries Association (AIA)...................................    97


 EXTERNAL PERSPECTIVES ON THE FISCAL YEAR 2010 NASA BUDGET REQUEST AND 
                             RELATED ISSUES

                              ----------                              


                        THURSDAY, JUNE 18, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Giffords 
[Chairwoman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      External Perspectives on the

                      Fiscal Year 2010 NASA Budget

                       Report and Related Issues

                        thursday, june 18, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, June 18, 2009 at 10:00 a.m., the Subcommittee on Space 
and Aeronautics will hear from advisory and other stakeholder bodies on 
issues relevant to the National Aeronautics and Space Administration 
(NASA).

Witnesses:

Mr. John C. Marshall, Member, Aerospace Safety Advisory Panel (ASAP)

Dr. Kenneth M. Ford, Chair, NASA Advisory Council (NAC)

Mr. Robert M. Hanisee, Chair, Audit and Finance Committee, NASA 
Advisory Council (NAC)

Dr. Raymond S. Colladay, Chair, National Academies' Aeronautics and 
Space Engineering Board (ASEB)

Dr. Berrien Moore III, Member, National Academies' Space Studies Board 
(SSB)

Mr. J.P. Stevens, Vice President for Space Systems, Aerospace 
Industries Association (AIA)

BACKGROUND INFORMATION

Overview

    The National Aeronautics and Space Administration (NASA), which was 
established in 1958, is the Nation's primary civil space and 
aeronautics R&D agency. The projected civil service workforce for FY09 
is 17,900 employees. NASA has ten field Centers, including the Jet 
Propulsion Laboratory (JPL), a Federally Funded Research and 
Development Center (FFRDC). NASA conducts research and development 
activities in a wide range of disciplines including aeronautics, 
astrophysics, heliophysics, planetary science, Earth science and 
applications, microgravity research, and long-term technology 
development. NASA also operates a fleet of three Space Shuttles and is 
assembling and operating the International Space Station (ISS). NASA is 
undertaking an exploration initiative with the goals of developing a 
new human space transportation system for both low-Earth orbit and for 
missions beyond low-Earth orbit, returning American astronauts to the 
Moon by 2020, and carrying out a broad program of human and robotic 
exploration of the solar system. NASA also maintains a space 
communications network that supports both NASA missions and other 
federal agency requirements. As of 2007, the most recent date for which 
complete data are available, about 82 percent of NASA's budget was for 
contracted work. In addition, a number of NASA's scientific and human 
space flight activities involve collaboration with international 
participants.
    The Committee held a hearing on May 19, 2009 at which time the NASA 
Acting Administrator, Mr. Christopher Scolese, presented NASA's FY 2010 
budget request. Witnesses at today's hearing have been asked to 
identify the top priorities and issues that the Committee on Science 
and Technology should consider in upcoming multi-year NASA 
authorization legislation and any other matters they believe merit 
attention.

Budgetary Information

    To put the FY10 budget request into context, NASA has been tasked 
with flying the Shuttle safely until the end of the decade and then 
retiring the Shuttle fleet; completing assembly of, operating, and 
utilizing the International Space Station; completing the development 
of a new Crew Exploration Vehicle/Crew Launch Vehicle by 2015; 
returning American astronauts to the Moon by 2020; and conducting a 
variety of challenging science and aeronautics programs. The NASA 
Authorization Act of 2008 [P.L. 110-422] authorized an FY09 funding 
level for NASA of $20.21 billion; the FY09 NASA budget request was 
$17.61 billion and the appropriation for FY09 was $17.78 billion. In 
addition, The American Recovery and Reinvestment Act [P.L. 111-5] 
included $1 billion for NASA's Earth science, aeronautics, exploration 
programs, cross-agency support, and Inspector General. Recovery Act 
funds are to be expended by September 30, 2010. P.L. 110-422 is a one-
year authorization for NASA; the Science and Technology Committee is 
planning to move a multi-year reauthorization of NASA later this year.

President's FY 2010 Request
    NASA's proposed budget for FY10 is $18.7 billion, an increase of 
5.1 percent over the enacted FY09 appropriation for NASA. The FY10 
budget projection for NASA beyond FY10 is essentially flat through 
FY13. Attachment 1 summarizes the FY10 budget request and its five-year 
funding plan.
    Attachment 2 compares the NASA budget plan that accompanied the 
Vision for Space Exploration introduced by President Bush in 2004 with 
the actual funds requested for NASA. As can be seen, previous budget 
requests for NASA have been significantly less (i.e., typically on the 
order of a half-billion dollars or more in the early years) than what 
was projected as being needed to carry out the Exploration initiative 
and NASA's other core missions. The cumulative shortfall over that 
period is in excess of $4 billion. The additional funding provided in 
the FY09 appropriation and the FY10 budget request help to redress that 
shortfall. However the FY10 budget request does not project growth for 
the NASA budget beyond FY10, and the disparity between the 2004 budget 
projections for FY 2011-2014 that the Agency was planning against and 
the budgets that are now being proposed through FY14 is shown in the 
chart. In addition, the impact of the budgetary shortfalls since 2004 
has been exacerbated by the requirement to absorb the cost of the 
Shuttle's return-to-flight following the Columbia accident, the 
additional cost associated with the under budgeting of Shuttle 
transition and retirement that occurred in the FY05 budget plan, and 
the under budgeting of ISS program support that also occurred in the 
FY05 budget plan, which NASA indicates resulted in an unfunded lien 
against the Agency's budgets of about $6.5 billion through FY10.

House Appropriations Committee's Approval of CJS Subcommittee 
        Recommendations
    The Commerce, Justice, and Science (CJS) Subcommittee of the House 
Appropriations Committee held a markup of their fiscal year 2010 
appropriations bill on June 4, 2009. The Subcommittee's funding 
recommendations for NASA in the bill were as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In terms of differences with the President's request, the markup 
establishes a higher level of funding for Education and a new line item 
for Construction and environmental compliance. Exploration was 
recommended at a funding level approximately $670 million less than 
requested (16.9 percent). In total, the markup is about $483 million 
(2.6 percent) less than the FY10 request, but 2.4 percent higher than 
the level enacted for FY09. The Chairman of the Commerce, Justice and 
Science Subcommittee said in his statement releasing the Subcommittee's 
FY10 recommendations:

         ``For NASA, the bill provides a total of $18.2 billion, an 
        increase of $421 million over last year's level. Investments 
        have been made in Earth science to further the decadal surveys. 
        The recommendation, however, acknowledges that the 
        Administration has established a blue ribbon panel, led by Dr. 
        Norm Augustine, to review the current vision for human space 
        flight. Funds are provided in the bill to continue investments 
        in human space flight at the same level as provided in fiscal 
        year 2009. Reductions from the budget request should not be 
        viewed as a diminution of my support or that of the 
        Subcommittee in NASA's human space flight activities. Rather, 
        the deferral is taken without prejudice; it is a pause, a time-
        out, to allow the President to establish his vision for human 
        space exploration and to commit to realistic future funding 
        levels to realize this vision.

         The Subcommittee looks forward to receiving the findings of 
        Dr. Augustine's panel and the recommendation of the 
        Administration on the way forward. I do believe, however, in 
        order to avoid continuing cost increases and further delays in 
        the initial operating capability of our nation's next 
        generation of human space flight architecture to follow the 
        Shuttle's successful and impressive run, it is imperative that 
        the Administration and Congress provide the necessary resources 
        to meet that policy directive--in the annual President's budget 
        and the annual Congressional budget process. When President 
        Kennedy said we would put a man on the moon, the Nation 
        followed--in spirit and with the resources to get the job done. 
        We collectively should do no differently today.''

    The House Appropriations Committee approved the FY 2010 Commerce, 
Justice and Science appropriations bill by voice vote with no changes 
on June 9, 2009. A floor vote is scheduled for June 17, 2009.

Aerospace Safety Advisory Panel

    Since it was established in 1968 by Congress, the Aerospace Safety 
Advisory Panel (ASAP) has been evaluating NASA's safety performance and 
advising the Agency on ways to improve that performance. The Panel, 
which is a FACA-chartered advisory body, consists of a maximum of nine 
members who are appointed by the NASA Administrator and is comprised of 
recognized safety, management, and engineering experts from industry, 
academia, and other government agencies.
    The ASAP is a senior advisory committee that reports to the NASA 
Administrator and Congress. The Panel was established by Congress in 
the aftermath of the January 1967 Apollo 204 spacecraft fire. The 
Panel's statutory duties, as prescribed in Section 6 of the NASA 
Authorization Act of 1968, Public Law 90-67, 42 U.S.C. 2477 are as 
follows:

         ``The Panel shall review safety studies and operations plans 
        that are referred to it and shall make reports thereon, shall 
        advise the Administrator with respect to the hazards of 
        proposed operations and with respect to the adequacy of 
        proposed or existing safety standards, and shall perform such 
        other duties as the Administrator may request.''

    The Panel was reauthorized in Section 106, Safety Management, 
Section 6, of the National Aeronautics and Space Administration 
Authorization Act of 2005, [P.L. 109-155].
    The ASAP bases its advice on direct observation of NASA operations 
and decision-making. The Panel provides a report on an annual basis. In 
addition to examining NASA's management and culture related to safety, 
the report also examines NASA's compliance with the recommendations of 
the Columbia Accident Investigation Board (CAIB). The former NASA 
Administrator, Dr. Michael Griffin, also requested advice from the ASAP 
on technical authority, workforce and risk management practices.

ASAP 2008 Annual Report
    The transmittal letter accompanying the 2008 Annual Report issued 
on April 15, 2009 stated that ``ASAP members believe that NASA and the 
new Administration stand at a critical crossroads for the Nation. 
Consequently, the ASAP decided to provide this brief, to-the-point 
letter report in lieu of the normal lengthier annual report issued by 
the Panel.'' While indicating that on balance, 2008 was a good year for 
NASA and that the ASAP is optimistic about the future of the Agency and 
its mission based on NASA's accomplishments in 2008, the Panel also 
recognized that ``this is a crucial time for NASA, the new Obama 
Administration, and the country. Important decisions lie ahead.'' 
Issues the Panel identified in the report as critical were:

        <bullet>  Proposed extension of the Space Shuttle Program. The 
        ASAP said in its report: ``To maximize safety, minimize wasted 
        effort, and bolster employee morale, any further debate 
        regarding the future of the Shuttle should be undertaken 
        immediately and completed without further delay. From a safety 
        standpoint, the ASAP strongly endorses the NASA position on not 
        extending Shuttle operations beyond successful execution of the 
        December 2008 manifest, completing the ISS. Continuing to fly 
        the Shuttle not only would increase the risk to crews, but also 
        could jeopardize the future U.S. Exploration program by 
        squeezing available resources (and, in the worst case, support) 
        for the Constellation program.''

        <bullet>  Acceleration of the Constellation Program. The ASAP 
        in its report that it ``is not convinced that the Ares I and 
        Orion initial operating capability (IOC) date can be improved 
        appreciably by additional resources.''

        <bullet>  Use of commercial transportation sources. The report 
        stated that ``There is no evidence that Commercial Orbital 
        Transportation Services (COTS) vehicles will be completed in 
        time to minimize the gap.''

        <bullet>  Safety and reliability of Soyuz. At its 2008 Second 
        Quarterly meeting, the Panel expressed concern about the 
        ``safety issues surrounding the Soyuz capsule and its 
        associated recovery module'' following re-entry difficulties 
        experienced by the Russian spacecraft. Although the ASAP said 
        in its annual report that it continues to be concerned about 
        the safety of the Russian Soyuz vehicle, the report also said 
        that the Panel ``is satisfied that NASA is aware of and 
        addressing the potential limitations involved in relying on 
        Soyuz during the gap between Shuttle retirement and 
        Constellation IOC.''

        <bullet>  Direction of Exploration. The Panel suggested 
        ``stability of policy and technical goals as particularly 
        crucial for complex, expensive, safe, long-term programs and 
        for cost-efficient, cost-effective, and safe mission plans and 
        workers.'' But the Panel also endorsed the standard management 
        and engineering practice of ``periodically reviewing 
        architecture and program plans (including design assumptions, 
        new developments, changing requirements, emerging technologies, 
        and their impact on decisions). Such reviews are particularly 
        useful for programs such as Constellation that extend over many 
        years and are subject to external reassessments of fundamental 
        goals.''

        <bullet>  Safety hardwired into Constellation. The Panel's 
        report said that ``NASA has an important one-time opportunity 
        to better interweave safety as a consistent and more powerful 
        operating parameter by hardwiring safety into the fabric and 
        procedures of the new flagship exploration program, 
        Constellation. Accordingly, NASA should institutionalize safety 
        programs, systems, processes, and reporting.''

        <bullet>  Upgrading of NASA facilities and equipment. The 
        report said that: ``During repeated visits to NASA Centers and 
        Headquarters to hold quarterly and insight meetings, the ASAP 
        has noted that deferred maintenance, modification, and 
        upgrading of basic NASA infrastructure deserve higher 
        priority.''

        <bullet>  Funding consistent with tasks and schedules. The ASAP 
        said in its report that it ``cannot overemphasize the high-
        priority need for Congress and the Administration to understand 
        the impact on NASA of the interrelationship among cost, 
        schedule, and risk (which is ignored only at great risk to 
        safety).''

        <bullet>  Suitability of agency management approaches. The 
        Panel made observations on the governance structure, noting 
        positive evolution of the ``new strategic management and 
        governance model at Headquarters and at the NASA Centers'' and 
        a ``new management emphasis on institutional requirements for 
        safety, engineering, facilities, and personnel in the planning 
        process.'' However, the Panel expressed concern about the 
        substance, application, and standardization of Human-Rating 
        Requirements (HRR) across the Agency. The report said that 
        ``The new HRR standards move from validating compliance with 
        mandatory failure tolerance requirements to an approach of 
        designing to acceptable risk, but without any apparent clear 
        and visible criteria for estimating ``how safe is safe enough'' 
        for various mission categories.''

        <bullet>  Workforce Development and Sustainment. The Panel said 
        that it supports ``continued attention to workforce planning, 
        development, and sustainment to ensure that technically 
        qualified personnel are available for NASA and its contractors 
        so that these people can identify, manage, and control the 
        complex safety risks of NASA programs.''

        <bullet>  NASA culture that values the experience of safety and 
        mission assurance. While stating it was impressed with recent 
        developments in NASA's safety culture evolution over the years, 
        the Panel encouraged NASA to perform ``periodic internal and 
        external measurements based on meaningful metrics.''

        <bullet>  Technical Standards Program focused on safety and 
        risks. The Panel stated that ``More robust technical 
        performance standards are necessary to fill the void created by 
        cancellation in the 1990s of numerous military standards and 
        specifications.'' Relative to the promulgation of lessons 
        learned, the panel stated that ``NASA should improve its 
        documentation and distribution system to capture and share 
        lessons learned with all NASA Centers, mission directorates at 
        NASA Headquarters, and, when appropriate, the private sector.''

        <bullet>  CAIB Recommendations. As mandated by the NASA 
        Authorization Act of 2005, the ASAP is responsible for 
        evaluating and reporting annually on NASA compliance with CAIB 
        return-to-flight and continue-to-fly recommendations. The Panel 
        said in its report that it ``is pleased with NASA's overall 
        response'' and acknowledged that the Panel ``knows that the 
        remaining three CAIB recommendations cannot be completely 
        eliminated without major redesign. The Panel thus recommends 
        that NASA use its formal risk acceptance process to make a 
        decision on how to close out the remaining actions.''

        <bullet>  Astronaut Health. The Panel said that it had ``made a 
        commitment to monitor the NASA Astronaut Health Care Systems 
        Review and is satisfied with NASA's progress in responding to 
        associated report recommendations.'' The Panel noted that since 
        its June 2007 report, NASA had undertaken several actions such 
        as incorporating psychological evaluations as part of the 
        future astronaut selection process.

    In addition to its annual report, the Panel also submits Minutes 
with recommendations resulting from its quarterly meetings. For 
example, the Panel recommended, following its fourth quarter of 2008 
meeting, that ``NASA obtain greater validation that the new Human-
Rating Requirements Standard meets the safety requirements of a broad 
range of future human space flight programs by scheduling an external 
review by an independent ``gray-beard'' assessment panel.''

NASA Advisory Council

    NASA has had a long tradition of turning to knowledgeable experts 
for advice and guidance on major program and policy issues facing the 
agency. This tradition originated with NASA's predecessor organization, 
the National Advisory Committee for Aeronautics (NACA). With the 
creation of NASA in 1958, the NACA was abolished, but the tradition of 
turning to non-government sources for independent judgment and guidance 
survived. NASA established the NASA Advisory Council (NAC) to assist it 
with planning for its new and continuing responsibilities in 
aeronautics, space technology, space science and applications, and 
human space flight.
    Today, the NAC, comprised of senior-level individuals from the 
private sector (e.g., academia, business, and retired government 
personnel), meets regularly to offer the NASA Administrator broad 
perspectives on agency program issues that the Administrator might not 
otherwise receive. The NAC consists of six committees, each chaired and 
populated exclusively by Council members. The six committees are:

        <bullet>  Aeronautics Committee

        <bullet>  Audit and Finance Committee

        <bullet>  Exploration Committee

        <bullet>  Human Capital Committee

        <bullet>  Science Committee

        <bullet>  Space Operations Committee

    The NAC is composed of members appointed by the NASA Administrator; 
these members serve at the pleasure of the Administrator. The Council 
consists of approximately 25 to 35 members, renewable at the discretion 
of the NASA Administrator. Additionally, the National Academies' Chairs 
of the Aeronautics and Space Engineering Board and the Space Studies 
Board sit on the Council as ex-officio members.
    The Council is considered ``internal'' in that it is chartered by 
NASA, its members are chosen by the Agency, and it provides advice and 
counsel directly to the NASA Administrator. The Council operates under 
the Federal Advisory Committee Act (FACA) which allows access to 
government decision-making processes, among other objectives. FACA sets 
requirements for government-established groups that provide advice to 
the government and that include non-government employees.

Recent NAC Recommendations and Concerns
    The NASA Advisory Council (NAC) meets on a quarterly basis and 
submits recommendations to the NASA Administrator shortly thereafter. 
The Council also conducts fact-finding meetings at different NASA 
facilities. Following its April 16, 2009 meeting, the Council made 
eight recommendations to NASA that the Council believed would be of 
assistance to NASA as the Agency continues its implementation of its 
space exploration mission. The recommendations were:

        <bullet>  Infusing new talent and knowledge into the NASA 
        workforce. The Council said that ``continued leadership in 
        space science and exploration requires the constant infusion of 
        new ideas and state-of-the-art knowledge provided by a vibrant 
        and creative workforce. Therefore, NASA is encouraged to pursue 
        avenues that will facilitate new hiring, particularly at the 
        entry-level.''

        <bullet>  Assessing how NASA TV could be more effective and 
        what is required to accomplish that goal. The Council stated 
        that ``The outcome of this study should include recommendations 
        for the level and type of resources required to most 
        effectively engage the public and disseminate NASA content.''

        <bullet>  Teaching and applying lessons learned to NASA's Human 
        Space Flight employees. The Council said that ``To effectively 
        transfer hard-won ``lessons learned'' to its human space flight 
        work force, NASA is encouraged to institute recurring training 
        for the workforce using a curriculum based on existing Safety 
        and Mission Assurance materials. The training program should 
        include lessons learned from the Apollo, Skylab, Mir, Shuttle, 
        and ISS accidents, incidents, and close calls.''

        <bullet>  Documenting and Teaching of Human Space Flight 
        Lessons Learned. The Council recommended that ``A portion of 
        the NASA training program should focus on lessons learned from 
        the human space flight missions in order to retain historical 
        knowledge, as many older employees will be retiring. NASA 
        should document specific major operational lessons learned from 
        human space flight programs. These lessons learned should be 
        written/presented in a format to facilitate ease of training 
        for the next generation of space workers.''

        <bullet>  Conducting a cost-benefit study of possible active 
        methods for orbital debris removal. The Council encouraged NASA 
        ``to conduct an in-house study of the current and projected 
        orbital debris situation in order to evaluate the costs and 
        benefits of developing a form of debris removal technology. The 
        study should compare the costs of operating in the ever-
        expanding debris population with those of developing a 
        selective debris removal method, and how those compare with 
        long-term savings from actively reducing the threat of future 
        collisions.''

        <bullet>  Forming an Exoplanet Exploration Program Analysis 
        Group under the NAC's Astrophysics Subcommittee. NASA was 
        encouraged to form such a group to conduct analyses at the 
        request of the NAC's Science Committee, the NAC's Astrophysics 
        Subcommittee, and NASA's Science Mission Directorate.

        <bullet>  Developing a process for identifying non-science 
        requirements and funding for Earth observations. The Council 
        encouraged NASA ``to work with OSTP and other agencies at the 
        highest levels to define responsibilities and secure funding 
        for Earth observations beyond those recommended by the NRC 
        Decadal Survey to advance Earth System Science.''

        <bullet>  Conducting an independent study of space 
        communications--requirements, capabilities, and architecture. 
        The Council encouraged NASA ``to contract for an independent 
        study of space communications needs for science, exploration, 
        and space operations. The report resulting from this study 
        should include findings and recommendations that will assist 
        NASA in planning a communications architecture that will enable 
        the successful conduct of missions planned or conceivable 
        through 2030. This study should result in recommendations that 
        will assist NASA in development of more detailed, quantifiable 
        requirements.''

    Prior year recommendations from the NAC dealt with diverse issues, 
ranging from NASA's need to convene a workshop to provide external 
community input to the Agency's formulation of the system-level program 
on Environmentally Responsible Aviation (recently unveiled as part of 
the FY 2010 budget request) to communicating lessons learned on large 
mission cost drivers to decadal survey committees. On that last 
recommendation, the Council was particularly concerned that ``in the 
last round of NRC decadal surveys, some high priority mission(s) ranked 
on the basis of an initial cost estimate turned out to be two to four 
times as expensive to develop. This leads to questions of whether those 
same rankings would have been assigned had more realistic cost 
estimates been available, and whether some different mix of missions 
might have been recommended to achieve the optimal science return 
within available funding constraints.'' The Council concluded that 
``the NRC decadal survey committees need to understand how early 
choices in mission concept design lead to cost growth so they can 
structure their recommendations to be more robust over time.''

The National Academies

    The National Academy of Sciences (NAS) is a private, not-for-profit 
society of elected scholars in the areas of scientific and engineering 
research. The Academy is committed to science and technology research 
and its application to society. The NAS was chartered by Congress in 
1861 to ``advise the Federal Government on scientific and technical 
matters.''
    In 1964, the National Academy of Engineering (NAE), a body of 
renown engineers who are elected to be members, was established under 
the charter of the NAS, and shares the work with the NAS in advising 
the Federal Government. In addition, the NAS, in 1970, established the 
Institute of Medicine (IOM), which is a body of elected, distinguished 
experts in medicine, health and health policy, to advise the government 
and ``upon its own initiative, to identify issues of medical care, 
research, and education.'' In 1916, the NAS organized the National 
Research Council (NRC), ``to associate the broad community of science 
and technology with the Academy's purposes of furthering knowledge and 
advising the Federal Government.'' ``. . . the Council has become the 
principal operating agency of both the National Academy of Sciences and 
the National Academy of Engineering in providing services to the 
government, the public, and the scientific and engineering 
communities.'' The NAS, NAE, IOM, and NRC are collectively referred to 
as The National Academies. A primary function of the National Academies 
is to convene ``committees of experts in all areas of scientific and 
technological endeavor. These experts serve pro bono to address 
critical national issues and to give advice to the Federal Government 
and the public.''
    The NRC is organized into thematic discipline areas. Within the 
Division on Engineering and Physical Sciences, the Space Studies Board 
(SSB) and the Aeronautics and Space Engineering Board (ASEB) oversee 
ad-hoc committees of experts that prepare reports and provide other 
information on research, technical and policy areas related to space 
and aeronautics, and provide advice to the Federal Government in these 
areas. The Federal Government funds approximately 85 percent of the 
work of the NRC through individual contracts and grants, according to 
the National Academies. Individuals representing the SSB and ASEB will 
testify at the hearing.

Space Studies Board
    The Space Studies Board (SSB) was established in 1958 and consists 
of members from academia, private industry, and not-for-profit 
organizations with expertise in space science, policy, engineering, and 
other related fields. The Board ``oversees advisory studies and program 
assessments, facilitates international research coordination, and 
promotes communications on space science and science policy between the 
research community, the Federal Government, and the interested 
public.'' Among its consensus-based studies are the SSB-led ``decadal 
surveys'' which provide recommendations, with extensive input from the 
interested community, on priority missions and research activities to 
be pursued in the areas of planetary science, solar and space physics, 
and Earth science and other research objectives. The SSB is also the 
U.S. national committee to the Committee on Space Research of the 
International Council of Science, a multi-disciplinary scientific 
entity that promotes the international exchange of scientific results, 
information, and discussion on scientific research in space.
    The Board is currently undertaking the following activities:

        <bullet>  A decadal survey on biological and physical sciences 
        in space, in cooperation with the Aeronautics and Space 
        Engineering Board;

        <bullet>  A planetary science decadal survey;

        <bullet>  NASA's suborbital research capabilities;

        <bullet>  Astro2010 astronomy and astrophysics decadal survey, 
        in cooperation with the Board on Physics and Astronomy;

        <bullet>  A review of near-Earth object surveys and hazard 
        mitigation strategies, in cooperation with the Aeronautics and 
        Space Engineering Board;

        <bullet>  Development of a workshop report on future 
        international space cooperation and competition in a 
        globalizing world;

        <bullet>  A study of the role and scope of mission-enabling 
        activities in NASA's space and Earth science missions; and

        <bullet>  A study on the rationale and goals of the U.S. civil 
        space program, in cooperation with the Aeronautics and Space 
        Engineering Board.

    Recently published SSB reports include:

        <bullet>  An Assessment of Planetary Protection Requirements 
        for Mars Sample Return Missions

           NASA requested that the NRC review the findings of an 
        earlier report on planetary protection for a Mars Sample Return 
        mission and to update the recommendations in light of 
        scientific understanding of Mars and advances in relevant 
        technologies.

        <bullet>  A Performance Assessment of NASA's Heliophysics 
        Program

           The 2005 NASA Authorization Act directed NASA to arrange for 
        the National Academies to review the performance of each of the 
        NASA Science Mission Directorate divisions every five years. 
        This Assessment of NASA's Heliophysics Program reviewed the 
        extent to which NASA's heliophysics division aligned with 
        previous NRC advice, especially the decadal survey report, The 
        Sun to the Earth--and Beyond: A Decadal Research Strategy in 
        Solar and Space Physics.

           The report noted that ``Unfortunately, very little of the 
        recommended NASA program priorities from the decadal survey's 
        Integrated Research Strategy will be realized during the period 
        (2004-2013) covered by the survey. Mission cost growth, 
        reordering of survey mission priorities, and unrealized budget 
        assumptions have delayed or deferred nearly all of the NASA 
        spacecraft missions recommended in the survey. As a result, the 
        status of the Integrated Research Strategy going forward is in 
        jeopardy, and the loss of synergistic capabilities in space 
        will constitute a serious impediment to future progress.''

        <bullet>  Severe Space Weather Events: Understanding Societal 
        and Economic Impacts Workshop Report

           The report summarized a public workshop held in May 2008 
        that included presentations and discussions on the ``Nation's 
        current and future ability to manage the effects of space 
        weather events and their societal and economic impacts.''

        <bullet>  Launching Science: Science Opportunities Provided by 
        NASA's Constellation System

           The report was requested by NASA. The executive summary 
        notes: ``The committee was impressed with the scientific 
        potential of the many proposals that it evaluated. However, the 
        committee notes that the Constellation System has been 
        justified by NASA and selected in order to enable human 
        exploration beyond low-Earth orbit--not to enable science 
        missions. Virtually all of the science mission concepts that 
        could take advantage of Constellation's unique capabilities are 
        likely to be prohibitively expensive.''

        <bullet>  Ensuring the Climate Record from the NPOESS and GOES-
        R Spacecraft: Elements of a Strategy to Recover Measurement 
        Capabilities Lost in Program Restructuring

           The study was requested by NASA and NOAA to ``prioritize 
        capabilities, especially those related to climate research, 
        that were lost or placed at risk following recent changes to 
        NPOESS and the GOES-R series of polar and geostationary 
        environmental monitoring satellites.''

        <bullet>  United States Civil Space Policy: Summary of a 
        Workshop

           The workshop participants considered the goals, purposes and 
        priorities of U.S. civil space including ``key changes and 
        developments since 2003; how space exploration fits in a 
        broader national and international context; sustainability 
        factors, including affordability, public interest, and 
        political will; definitions, metrics, and decision criteria for 
        program portfolio mix and balance; roles of government in Earth 
        observations from space; and requirements and gaps in 
        capabilities and infrastructure.''

        <bullet>  Opening New Frontiers in Space: Choices for the Next 
        New Frontiers Announcement of Opportunity

           NASA requested that the NRC conduct a study ``to provide 
        criteria and guiding principles for determining the list of 
        candidate missions'' for the next competition for a New 
        Frontiers mission. The New Frontiers Program to compete 
        principal-investigator-led science missions to explore the 
        solar system with a cost cap of $750 million, according to the 
        report.

        <bullet>  Space Science and the International Traffic in Arms 
        Regulations: Summary of a Workshop

           NASA requested that the NRC ``organize a workshop on the 
        implications of ITAR for space science. The purpose of the 
        workshop was to reopen a discussion among State Department 
        regulators and policy-makers, academic researchers and faculty, 
        ITAR officials, NASA officials, and other interested parties to 
        explore concerns about ITAR's effects on space science 
        activities.''

           The NRC summarized the workshop presentations and 
        discussions in a report. The workshop summary noted that ``Over 
        the long-term . . . many believe that a clean-slate approach is 
        needed to fix the fundamental disconnect between ITAR as it is 
        being applied to space science research and the needs of the 
        U.S. space science community as it endeavors to maintain world 
        leadership. The United States has many space-related policy 
        priorities in addition to national security, including space 
        leadership, university excellence, and international 
        partnerships. As emphasized at the workshop, all these national 
        goals need to be considered jointly in the development of a 
        system for controlling the export of space-related hardware and 
        technology that is effective at protecting national security, 
        but that does not inadvertently harm the other policy 
        priorities.''

Aeronautics and Space Engineering Board
    Established in 1967, the Aeronautics and Space Engineering Board 
(ASEB) is comprised of individuals from academia, private industry, and 
not-for-profit organizations with expertise in aeronautics, aviation, 
space systems and engineering, and policy. The ASEB ``oversees ad hoc 
committees that recommend priorities and procedures for achieving 
aerospace engineering objectives, and offers a way to bring engineering 
and other related expertise to bear on aerospace issues of national 
importance.''
    The ASEB is currently undertaking the following activities:

        <bullet>  A decadal survey on biological and physical sciences 
        in space, in cooperation with the Space Studies Board;

        <bullet>  A review of Near-Earth Object Surveys and Hazard 
        Mitigation Strategies, in cooperation with the Space Studies 
        Board;

        <bullet>  A study on the rationale and goals of the U.S. civil 
        space program, in cooperation with the Space Studies Board;

        <bullet>  An independent assessment of NASA's National Aviation 
        Operations Monitoring Service (NAOMS) Project; and

        <bullet>  A review of the NASA Institute for Advanced Concepts.

    Recently published ASEB reports include:

        <bullet>  Radioisotope Power Systems: An Imperative for 
        Maintaining U.S. Leadership in Space Exploration

           The study was conducted in response to House Report 110-240 
        of the Commerce, Justice, Science and Related Agencies 
        Appropriations Bill, 2008 and assessed NASA's program in 
        radioisotope power systems technology and its ability to meet 
        NASA's near-term and future mission needs and plans.

           According to the report, ``Re-establishing domestic 
        production of <SUP>238</SUP>Pu will be expensive (the cost will 
        likely exceed $150 million). Previous proposals to make this 
        investment have not been enacted, and cost seems to be the 
        major impediment. However, regardless of why these proposals 
        have been rejected, the day of reckoning has arrived. NASA is 
        already making mission-limiting decisions based on the short 
        supply of <SUP>238</SUP>Pu.''

        <bullet>  A Constrained Space Exploration Technology Program: A 
        Review of NASA's Exploration Technology Development Program

           In response to Congressional direction in the report of the 
        Science, State, Justice, and Commerce fiscal year 2007 
        appropriations, NASA arranged for an NRC assessment of NASA's 
        Exploration Technology Development Program (ETDP) ``to 
        determine how well the program is aligned with the stated 
        objectives of the Vision for Space Exploration (VSE), identify 
        gaps, and assess the quality of the research.'' Although the 
        bill did not become law, NASA proceeded with the request for 
        the study.

           As noted in the executive summary, ``A fundamental concern . 
        . . is that the ETDP is currently focused on the short-term 
        challenges of the VSE and is addressing the near-term 
        technologies needed to meet these challenges. Although it is 
        clear that much of this focus results from the constraints on 
        the program, the committee is concerned that the short-term 
        approach characteristic of the current ETDP will have long-term 
        consequences and result in compromised long-term decisions. 
        Extensibility to longer lunar missions and to human exploration 
        of Mars is at risk in the current research portfolio.''

        <bullet>  NASA Aeronautics Research: An Assessment

           NASA requested the study in response to the NASA 
        Authorization Act of 2005, which directed that NASA arrange for 
        an NRC assessment of the NASA aeronautics research portfolio in 
        the context of the recommendations of the NRC Decadal Survey of 
        Civil Aeronautics, NASA's aeronautics research requirements, 
        and the ability of the Nation's research workforce and 
        facilities to address the priority research challenges and 
        requirements for civil aeronautics.

        <bullet>  Managing Space Radiation Risk in the New Era of Space 
        Exploration

           NASA requested that the NRC ``evaluate the radiation 
        shielding requirements for lunar missions and to recommend a 
        strategic plan for developing the radiation mitigation 
        capabilities needed to enable the planned lunar mission 
        architecture.''

           As noted in the executive summary of the report, ``The 
        committee finds that the lack of knowledge about the biological 
        effects of and responses to space radiation is the single most 
        important factor limiting the prediction of radiation risk 
        associated with human space exploration.''

        <bullet>  Assessing the Research and Development Plan for the 
        Next Generation Air Transportation System: A Workshop

           Upon request by the Federal Aviation Administration's Joint 
        Planning and Development Office (JPDO), the National Academies 
        held a workshop ``to gather observations on the research and 
        development aspects of the baseline Integrated Work Plan for 
        the Next Generation Air Transportation System (NextGen) being 
        prepared by JPDO . . ..''

        <bullet>  Wake Turbulence: An Obstacle to Increased Air Traffic 
        Capacity

           The study was conducted pursuant to direction in the NASA 
        Authorization Act of 2005 [P.L. 109-155] for NASA to enter into 
        an arrangement with the NRC to assess the issue of wake vortex 
        hazard, which has the potential to affect air traffic capacity.

           The authoring committee of the report found ``that the wake 
        vortex problem does present a real impediment to increased 
        traffic capacity, something reflected in most of the 
        documentation that has been drafted to date by the JPDO [Joint 
        Planning and Development Office] . . .. However, although the 
        need to address wake vortex issues is clearly acknowledged, the 
        research required to provide the required solutions is not yet 
        underway.''

Aerospace Industries Association

    The Aerospace Industries Association (AIA), founded in 1919 as the 
Aeronautical Chamber of Commerce, represents about 300 aerospace 
manufacturing companies and suppliers across all segments of the 
industry, including commercial aviation and avionics, manned and 
unmanned defense systems, space technologies, and satellite 
communications, and the 657,000 skilled workers who develop and 
manufacture aerospace and aviation systems.
    Over the last year, AIA has provided witness testimony on such 
topics and issues as NextGen air transportation initiative, export 
controls, NASA and NOAA programs, and STEM education and the aerospace 
workforce to various House and Senate committees.
    In January 2009, the AIA prepared a report, ``The Role of Space in 
Addressing America's National Priorities'' to provide the new 
administration and Congress with information on ``the major issues 
facing our aerospace industry.'' The report recommended the development 
of a national space strategy ``that links national policy with needs, 
programs and resources'' and that coordinates space across national 
security, civil and commercial domains.
    In addition, the report provided the following recommendations 
pertaining to civil and commercial space:

        <bullet>  ``Our space capabilities should be coordinated, at 
        the highest level, as a singular enterprise.''

        <bullet>  ``The Administration should provide and support a 
        national budget that reflects both robust and stable funding 
        across space functions to prevent disruptions to the planned 
        life cycle of critical, multi-year space programs.''

Workforce and the Economy

        <bullet>  ``The U.S. Government should work to create 
        opportunities for our current workforce, and make science and 
        education a national priority to ensure a strong future 
        workforce.''

        <bullet>  ``The Administration and Congress should work to 
        create a more favorable business environment for the U.S. 
        aerospace industry.''

Space Exploration

        <bullet>  ``Both the U.S. Space Exploration Policy and the 
        Constellation Program should be treated as national priorities 
        and given the funding and support needed to keep development on 
        its current schedule and to minimize the impending gap in U.S. 
        human space flight.''

        <bullet>  ``The International Space Station should be fully 
        utilized as a national laboratory.''

        <bullet>  ``The NASA science program should receive the funding 
        necessary to provide a wide suite of robotic missions and other 
        research.''

Earth Observation

        <bullet>  ``The U.S. Government should immediately address 
        existing and growing gaps in climate measurements and weather 
        satellite coverage.''

        <bullet>  ``The Administration should establish, fund and 
        implement a U.S. Earth Observation architecture as a national 
        priority.''

National Security Space (as it relates to civil and commercial areas)

        <bullet>  ``Space protection and space situational awareness 
        programs should become a funded national priority.''

        <bullet>  ``The U.S. Government should undergo a careful review 
        of critical space technologies to evaluate which technologies 
        should be controlled under the State Department ITAR process 
        and which are truly commercial and could be controlled under 
        the Commerce Department process. This review must be followed 
        with meaningful and careful legislation that would ensure the 
        right technologies are controlled the right way.''

Astronomy and Astrophysics Advisory Committee

    The National Science Foundation Authorization Act of 2002 [P.L. 
107-368] as amended, directed the National Science Foundation (NSF), 
the National Aeronautics and Space Administration (NASA), and the 
Department of Energy (DOE) to establish the Astronomy and Astrophysics 
Advisory Committee (AAAC) to

         ``assess, and make recommendations regarding, the coordination 
        of astronomy and astrophysics programs of the Foundation and 
        the National Aeronautics and Space Administration and the 
        Department of Energy'' and to

         ``assess, and make recommendations regarding, the status of 
        the activities of the Foundation and the National Aeronautics 
        and Space Administration, and the Department of Energy as they 
        relate to the recommendations contained in the National 
        Research Council's 2000 report, entitled ``Astronomy and 
        Astrophysics in the New Millennium'' and the recommendations 
        contained in subsequent National Research Council reports of a 
        similar nature.''

    The AAAC is directed to submit a report every year to the NSF, 
NASA, and DOE and to relevant Congressional committees. According to 
its March 15, 2009 report, the AAAC found that interagency cooperation 
among DOE, NASA, and NSF is strong at the scientist-to-scientist level, 
the programmatic level, and among small and large projects and 
facilities. The Committee also found that many of the high-priority 
projects recommended in the 2000 National Academies Decadal Survey for 
astronomy and astrophysics have not been implemented.
    The Committee made the following recommendations in its March 15, 
2009 report:

        <bullet>  ``In the interest of astronomical research, agencies 
        should be encouraged to continue coordinating activities where 
        the science or technology demands it, and furthermore, to map 
        out more clearly the scientific and technological 
        complementarities that might be the basis for future missions/
        projects. We emphasize coordination, which may, but not 
        necessarily, take the form of joint projects. We emphasize 
        coordination, which may, but not necessarily, take the form of 
        joint projects. Taking advantage of unique skill sets amongst 
        agencies and throughout the world, coordinated access to 
        northern and southern hemispheres of the sky, ground and space 
        access--all important aspects of a vigorous science program.''

        <bullet>  ``Robust cost estimates, including full life cycle 
        costs and external analyses of the budgets, as well as 
        strategic planning for large facilities are a necessity, and 
        should be an integral part of any prioritization and 
        implementation process.''

        <bullet>  ``Assessment of the cooperation within projects 
        involving federal plus international and private partners is 
        now needed, in addition to that of inter-agency projects. Some 
        of these projects have started since the time the AAAC was 
        chartered.''

Attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Attachment 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Giffords. Good morning. This hearing has now 
come to order.
    I would like to welcome our witnesses here this morning. 
All of you have prepared very interesting testimony which is 
going to be important to the Subcommittee Members, and we look 
forward to hearing from you.
    Because of time constraints, we are going to dispense with 
our opening statements so that we can hear from you gentlemen. 
We think that we are going to have votes probably around 10:30, 
and we would like to get in your formal testimony before we go 
to questions.
    I would just like to do some quick introductions. We have 
Mr. John Marshall who is testifying as the member of the 
Aerospace Safety Advisory Panel or the ASAP. We have Dr. 
Kenneth Ford, the Chairman of the NASA Advisory Council. We 
have Mr. Robert Hanisee who is the Chairman of the NASA Audit 
and Finance Committee. Dr. Raymond Colladay, the Chairman of 
the Aeronautics and Space Engineering Board, and Dr. Berrien 
Moore who is testifying as a member of the Space Studies Board 
of the National Academies. And finally, we have Mr. Stevens who 
is Vice President of Space Systems at the Aerospace Industries 
Association.
    These are an incredible set of witnesses, very important 
for the Congress as we are truly at a crossroads, our country, 
in terms of NASA's future, and we are looking forward to 
hearing from you.
    I would like to turn it over to Mr. Olson for just a couple 
of minutes. I am sorry, Mr. Hall.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning. I'd like to welcome our witnesses to this morning's 
hearing. You all have prepared very informative testimony, and I look 
forward to hearing from you. This is an important hearing for the 
Subcommittee.
    I think that the Aerospace Safety Advisory Panel--the ASAP--which 
is represented at today's hearing, summed up the situation quite 
succinctly in its April 15th letter to Speaker Pelosi transmitting its 
annual report, namely: ``. . . NASA and the new Administration stand at 
a critical crossroads for the Nation.''
    I agree with the ASAP. NASA is at a critical crossroads, and 
decisions made by Congress and the White House this year will have an 
impact on NASA for years to come--for better or worse--and we need to 
ensure that they are for the better.
    We are going to be making a number of those key decisions as we 
develop our NASA reauthorization bill later this year. I want those 
decisions to be as informed as possible. Last month, we got NASA's 
perspective on its FY 2010 budget request as well as on other issues 
facing the Agency when Acting Administrator Scolese testified before 
the Science and Technology Committee.
    Today we are continuing our oversight by hearing from the advisory 
bodies who monitor the NASA's activities and programs, as well as from 
one of the key organizations representing the aerospace industry.
    I welcome your testimony because we need to know, from your unique 
perspectives, what's going well at NASA, what's not going so well, and 
what obstacles may lie ahead for the Agency if appropriate corrective 
actions are not taken. We invited the ASAP to testify because it was 
established by Congress more than four decades ago to help ensure that 
NASA's programs and activities are carried out safely--and safety is a 
paramount concern of this subcommittee. We also wanted to hear from the 
NASA Advisory Council because it is NASA's main advisory body, whose 
purview extends over all of the programmatic and institutional issues 
facing NASA. Among its areas of focus have been NASA's financial 
management practices, which is why we have also asked the Chair of the 
NAC's Audit and Finance Committee to testify today.
    Good financial management practices are going to be a key factor in 
ensuring that NASA is a responsible steward of the taxpayers' dollars, 
and this subcommittee needs to know how NASA is doing in that regard.
    The National Academies' Space Studies Board and Aeronautics and 
Space Engineering Board have long been important sources of advice and 
analysis for both the Executive Branch and Congress on issues related 
to NASA's R&D initiatives in science and engineering.
    Finally, I wanted to ensure that industry's perspective was also 
presented at today's hearing, and I can think of no better 
representative than the Aerospace Industries Association. You thus are 
a diverse group of witnesses, but you and the organizations that you 
represent share a common thread of competence and commitment. I hope 
that each of you will let your colleagues know how much we value their 
efforts.
    We recognize that the members of these advisory bodies have many 
competing demands on their time, so their willingness to serve is 
deeply appreciated by all of us on the Subcommittee. And I want to make 
it a regular practice of this subcommittee to hear from the advisory 
bodies represented before us today. We need your insights to enable us 
to carry out our legislative and oversight responsibilities as 
effectively as possible. With that, I again want to welcome each of you 
to this morning's hearings, and I look forward to your testimony.

    Mr. Hall. That is all right. I would rather be Mr. Olson. 
He is about 40 years younger than I am.
    Well, I thank you, and I will be brief because I know time 
is important. And I think it should be normal that we listen to 
them before they have to listen to us, but that is not the way 
it works here. But we are going to get to do that today, and 
you can thank this Chairwoman for that, a great panel. And if 
there is ever a time when NASA and the Space Station and 
everybody involved needs advice, we need an advisory group like 
this. Work hard, advise Norm every chance you get on what he 
winds up with the final paper.
    But I will yield back my time. Thank you.
    Chairwoman Giffords. As our witnesses know, you will each 
have five minutes for your spoken testimony. Your written 
testimony will be included into the record for the hearing, and 
when you have completed your spoken testimony, we will begin 
questions. Each Member will have five minutes to question the 
panel, and we are going to begin with Mr. Hall. Mr. Marshall, I 
am sorry. You are on my brain.
    Mr. Hall. I am Hall.
    Chairwoman Giffords. I know, and I love you.
    Mr. Hall. Excuse me. She can only say that when her 
husband, he is an astronaut, she can only say that when he is 
orbiting.

  STATEMENT OF MR. JOHN C. MARSHALL, MEMBER, AEROSPACE SAFETY 
                     ADVISORY PANEL (ASAP)

    Mr. Marshall. Chairwoman Giffords and other distinguished 
Members of the Subcommittee on Space and Aeronautics, good 
morning. Thank you for inviting the ASAP to testify before your 
subcommittee today.
    Unfortunately our panel Chair, Vice Admiral Joe Dyer, was 
unable to participate in this morning's meeting, and he asked 
me and my colleague, Ken Ford, to represent the ASAP in his 
place.
    Today, you asked us to comment on six specific areas, and 
so let me go right to those. The first was to identify top 
priorities in upcoming multi-year NASA authorizations. Without 
question from the ASAP's perspective, the top priority for this 
agency is the need to have and maintain a stable and sufficient 
budget that allows NASA to safely execute an integrated space 
program. Safety can be an unintended victim of reduced spending 
if we are not careful. That should not be allowed to happen to 
this agency.
    Next, an irrevocable decision regarding extending the Space 
Shuttle Program needs to be made quickly. If the decision is 
made to extend the Shuttle, then that decision must be 
accompanied with necessary resources. Without additional budget 
allocation, all the responsible parties must realize that such 
an action will seriously constrain available resources for the 
development of any follow-on program and will only shift and 
may actually expand the gap in America's flight capabilities. 
This clearly will expose NASA to the risk of another Shuttle 
loss and may jeopardize the future of the U.S. Space 
Exploration Program.
    The next priority is to ensure that cost, schedule and the 
required performances are properly in balance with each other. 
The ASAP feels strongly that the imbalance of any of these key 
elements will lead to substantial increase in risk.
    You next asked us to identify critical issues facing NASA. 
We believe that there must be a reaffirmation or redefinition 
of a set course for the exploration mission. Hopefully, the 
Augustine Blue Ribbon Panel will do much of this. Even without 
a change, it is the ASAP conclusion that the recent budget cut 
of over $500 million makes the current schedule for the 
Exploration Program unexecutable.
    Third, you asked us to discuss NASA's compliance with 
Columbia Accident Investigation Board (CAIB) recommendations. 
As you know, when the Return to Flight Task Group completed its 
work in 2005, it had determined that NASA had met the intent of 
all but three recommendations. The ASAP is pleased with NASA's 
overall response to the CAIB recommendation yet believes the 
risk associated with the remaining issues cannot be completely 
eliminated without major redesign of the Shuttle. Accordingly, 
the ASAP recommends that NASA use its formal risk acceptance 
process to make a decision on how to close out the remaining 
actions.
    The CAIB also recommended recertification of the Shuttle if 
it is to fly beyond 2010. The ASAP concurs with the need for 
recertification if a significant extension of the current 
program is directed. This said, NASA has not yet developed an 
action plan to accomplish this.
    Next, you asked us to discuss NASA's incorporation of 
safety and risk mitigation in its design of a new crewed 
transportation system. The ASAP has reviewed Orion and Ares 
developments thus far, and we agree that the issues that have 
been identified to date are properly being addressed, issues 
that have come up like vibration and potential tower strikes 
have been or are being thoroughly investigated.
    NASA's role in the Commercial Orbital Transportation 
Services (COTS) program thus far has been to not directly levy 
NASA-restricting requirements. While we endorse and support 
investing in the COTS program, we believe at this juncture that 
NASA needs to take a more aggressive role articulating human 
rating requirements for the COTS program since many new 
commercial vehicles are already under development. To do so at 
a later date may pressure NASA into accepting a system for 
expediency that is below its normal standard for safety.
    You also asked us to discuss NASA's progress in instilling 
safety into the agency. The ASAP believes that NASA has 
continued to improve its awareness and development of a 
positive safety culture. However, we also believe that more 
attention is required in the following areas: implement a more 
robust incident investigation process, develop a standardized 
way to proactively measure the safety culture at each center, 
and improve the current technical standards program to better 
capture and apply hard-won lessons learned and best practices.
    Finally, you asked us to discuss other matters that merit 
attention. We the ASAP believe that the Administration, 
Congress, and NASA all need to be transparent with the public 
on risk communication, that losses may occur in space 
exploration, and the risk of this should be mutually 
shouldered. The national message on the space program needs to 
be that we are going to do it but that launching humans into 
space can never be considered a completely safe endeavor.
    I would be happy to answer any questions should you like at 
a later time.
    [The prepared statement of Mr. Marshall follows:]

                 Prepared Statement of John C. Marshall

    Chairwoman Giffords and other distinguished Members of the 
Subcommittee on Space and Aeronautics, good morning. Thank you for 
inviting the Aerospace Safety Advisory Panel (ASAP) to testify before 
your subcommittee today.
    Unfortunately, our panel's Chairman, Vice Admiral Joe Dyer (USN), 
Ret., is unable to participate in this morning's meeting, and he asked 
me and my colleague, Mr. John Frost, to represent the ASAP in his 
place, so I am fortunate to have Mr. Frost in attendance with me this 
morning. I should state up front that while our panel has several 
members that have an extensive background with NASA, including Major 
General Charlie Bolden, President Obama's nominee to be the next NASA 
administrator; Mr. Jim Bagian, a former mission specialist on two Space 
Shuttle flights; Ms. Joyce McDevitt, a former system safety engineer 
for NASA; and Mr. Randy Stone, the former Deputy Director of the 
Johnson Space Center; neither Mr. Frost nor I bring the hands-on 
technical expertise of having been either in space or directing daily 
space activities. Nevertheless, Mr. Frost and I together have over 90 
years of experience in aviation, engineering, and safety. Mr. Frost was 
the Chief of Safety for the Army's Aviation and Missile Command, and I 
was an Air Force fighter pilot and then the Chief of Safety for Delta 
Air Lines. With Mr. Frost's valued assistance, I have prepared to talk 
about issues addressed collectively by the ASAP, and will be pleased to 
answer your questions.
    As you know, the Panel's statutory duties are prescribed in Section 
6 of the NASA Authorization Act of 1968. Included within this Act is 
the need for the ASAP to ``review safety studies and operations plans 
that are referred to it and . . . to make reports thereon, . . . advise 
the Administrator with respect to the hazards of proposed operations 
and with respect to the adequacy of proposed or existing safety 
standards, and . . . to perform such other duties as the Administrator 
may request.''
    Additionally, the ASAP is required by the NASA Authorization Act of 
2005 to keep the House Committee on Science and Senate Committee on 
Commerce, Science and Transportation fully informed of its activities.
    Since it was established in 1968, the ASAP actively has been 
fulfilling its charter by evaluating NASA's safety performance and 
advising the Agency on ways to improve that performance. The ASAP bases 
its advice on direct observation of NASA operations and decision-
making. In the aftermath of the Shuttle Columbia accident, Congress 
required that the ASAP submit an Annual Report to the NASA 
Administrator and to Congress. This Annual Report was to summarize our 
major findings concerning the safety performance of NASA. It also is to 
examine NASA's compliance with the recommendations of the Columbia 
Accident Investigation Board (CAIB), as well as NASA's management and 
culture related to safety.
    Consistent with our charter, on April 15, 2009, we issued our 2008 
Annual Report. Today, I would like to formally submit that report to 
you and your committee for the record. In addition, Admiral Dyer 
earlier briefed this committee's senior staff, regarding our 
observations and recommendations. Not surprisingly then, my responses 
today to your questions identified in the letter of invitation to 
testify before this subcommittee will be consistent with our report. 
You asked us to comment on six specific areas:

1.  Identify top priorities and issues to consider in upcoming multi-
year NASA authorization legislation.

        A.  Without question, from the ASAP's perspective, the top 
        priority for this agency is the need to have and to maintain a 
        stable and sufficient budget that allows NASA to safely execute 
        an integrated space program that follows the Administration's 
        and Congress' national space objectives. Safety always is an 
        unintended victim of reduced spending and any resultant 
        stretch-out of major programs if we are not careful. That 
        should not be allowed to happen for this agency!

        B.  Next, an immediate and irrevocable decision regarding 
        extending the Space Shuttle Program or not (as noted in our 
        annual report, the ASAP does not support extending the Shuttle 
        from a safety standpoint) needs to be made quickly. If the 
        decision is made to extend the Shuttle, then that decision must 
        be accompanied with necessary resources. Without additional 
        budget allocation, all the responsible parties must realize 
        that such an action will seriously constrain available 
        resources for development of any follow-on program, and will 
        only shift, and may actually extend, the gap of developing a 
        future vehicle. This clearly will further expose NASA to the 
        risk of another Shuttle loss and may jeopardize the future U.S. 
        exploration program.

        C.  The next priority is to ensure that cost, schedule, and 
        required performance are properly in balance with each other. 
        The ASAP feels strongly that the imbalance of any of these key 
        elements will lead to a substantial increase in risk. For 
        example, if NASA's performance is held constant in terms of 
        objectives that must be met, and cost is constrained by 
        budgetary authority, then the schedule must extend. If schedule 
        is constrained more than is required to meet more timely 
        milestones, then risk to the mission and crew can only 
        increase--perhaps beyond control with fatal results.

        D.  Finally, support for the Agency by expeditious confirmation 
        of those selected to lead NASA is critical. Expeditious 
        confirmation will lead to greater stability within NASA and 
        decrease safety risks throughout the Agency.

2.  Identify critical issues facing NASA, the corresponding decisions 
that are required, and the Agency's ability to address these issues 
within the context of the budgetary outlook described in its FY 2010 
request.

        A.  As noted, a critical issue facing NASA is resolution of the 
        issue of continuing to fly or to retire the Shuttle after 
        completion of the Space Station. If the Shuttle is continued 
        beyond the flights currently planned, the Agency must be given 
        the resources to restart the Shuttle program. Modification and 
        redesign work that was deferred due to the decision to retire 
        the Shuttle must be funded and completed. Again, this restart 
        must be properly funded and staffed with the knowledge that it 
        will now cost more to do this work. The ASAP believes that in 
        the absence of this additional effort, the Shuttle must be 
        retired.

        B.  Next, there must be a reaffirmation or redefinition of a 
        set course for the Exploration Mission Directorate. This means 
        confirming or developing goals, developing realistic time 
        tables, developing plans consistent with budget realities, and 
        developing the necessary systems to achieve the objectives. 
        Hopefully, the Augustine Blue-Ribbon Panel will do this. This 
        said, the ASAP believes that if Constellation is not the 
        optimum answer, then any other new design has to be 
        substantially superior to justify starting over. If a restart 
        is indeed necessary, no amount of resources will recover the 
        approximately four years of effort that have been expended. It 
        further is the ASAP's conclusion that the current budget cut of 
        approximately $500 million dollars make Constellation (or any 
        other program) unexecutable to meet the current schedule for 
        exploration. There is no such thing in this program as a 
        ``pause.'' Contracts are canceled, teams are dismissed, test 
        windows missed, and industrial capability is shut down. Denying 
        the program funding in 2010 means at best a year to two year 
        interruption . . . and will be the same for any other program.

        C.  Deferred maintenance, modification, and upgrading of the 
        basic NASA infrastructure, which is more than 40-years-old, 
        deserve a higher priority. Aging facilities are in need of 
        timely repair and upgrades, and a prompt and thorough 
        assessment of NASA's fixed wing aircraft fleet and aircraft 
        support facilities should be funded.

        D.  The role of robotics in support of human exploration in the 
        NASA of the next decade requires clarification. While 
        optimization of this mix must come from NASA, the long range 
        missions assigned to NASA should not preclude use of robotics 
        when appropriate to minimize human risk and optimize 
        exploration efficiency. This committee should ask NASA for a 
        written strategy and plan, with defined parameters, for when 
        humans are necessary and when they are not.

        E.  Full funding of the NASA Safety Center is important and 
        necessary so that this new organization properly can begin to 
        serve as the Agency's focal point for developing and 
        integrating safety excellence further into the culture of the 
        Agency.

3.  Discuss NASA's compliance with the Columbia Accident Investigation 
Board's (CAIB) recommendation on ``Return to Flight'' and ``Continue to 
Fly.''

        A.  As you know, 15 of the 29 CAIB recommendations were 
        designated ``Return to Flight.'' When the Return-to-Flight Task 
        Group completed its work in 2005 (when the monitoring function 
        was transferred to the ASAP), it had determined that NASA had 
        met the intent of all but three issues:

                <bullet>  Dealing with External Tank Debris Shedding,

                <bullet>  Orbiter hardening,

                <bullet>  and, Thermal Protection System Inspection and 
                Repair.

        B.  The ASAP has received periodic updates regarding the status 
        and progress on the remaining three areas. We are pleased with 
        NASA's overall response and believe the residual risk 
        associated with the remaining recommendations cannot be 
        completely eliminated without a major redesign of the current 
        Shuttle. Accordingly, the ASAP recommended that NASA use its 
        formal risk acceptance process to make a decision on how to 
        close out the remaining actions.

        C.  As recommended by the CAIB, recertification of the Space 
        Shuttle materials, components, subsystem, and system levels 
        would be required to ``continue to fly'' the Shuttle beyond 
        2010. The ASAP concurs with that recommendation. This said, 
        NASA has not yet undertaken the development of an action plan 
        to accomplish this.

        D.  The ASAP will continue to monitor the remaining three CAIB 
        issues, as required by its mandate, and is prepared to 
        immediately engage the Agency if required.

4.  NASA's incorporation of safety and risk mitigation in its design of 
new crewed transportation systems:

        A.  Safety and risk mitigation for any future crewed systems 
        needs to continue to receive the highest level of support. We 
        have reviewed Orion's development, and we have agreed that 
        issues that have been identified to date are properly being 
        addressed with developmental mitigation plans and tests. Issues 
        that have come up like the ``vibration'' and the potential 
        tower strike have been or are being thoroughly investigated and 
        subjected to substantial multi-disciplinary technical reviews 
        using both government and industry teams, as well as outside 
        expertise.

        B.  The Constellation program offers a one-time opportunity for 
        safety to be better hard-wired into overall NASA processes. 
        Experience has shown that one of the best ways for a large 
        organization to advance the state-of-the-art of its processes 
        is to institutionalize the procedures developed by a major new 
        program that is highly motivated and staffed with the best and 
        brightest. Constellation provides such an opportunity to lead 
        NASA safety culture into the future. NASA must capitalize on 
        this opportunity to improve long-term safety improvements.

        C.  NASA's role in the COTS programs for manned transport 
        systems thus far has been to not directly levy NASA-restricting 
        requirements. This has been a subject of some debate between 
        NASA and the panel for several meetings. While we endorse and 
        support investing in a COTS program, we believe at this 
        juncture that NASA needs to take a more aggressive role 
        articulating human rating requirements for the COTS Program 
        since most programs are well underway. To do otherwise may, at 
        a later time, pressure NASA into accepting a system for 
        expediency that is below its normal standard for safety. This 
        said, we applaud NASA providing the COTS manufacturers with all 
        their lessons learned. As a separate, but like issue, the ASAP 
        has reviewed the Constellation/Orion systems engineering 
        process and how they are managing the human rating process. We 
        have not found any lack of attention or faulty process thus 
        far.

        D.  The ASAP has concerns about recently revised NASA Human 
        Rating requirements standard with regard to substance, 
        application, and standardization NASA-wide. Direct linkage to 
        current technical standards and engineering directives is 
        missing; NASA must integrate its technical requirements to its 
        new human rating requirements before new Constellation systems 
        are finalized.

5.  Discuss NASA's progress in instilling and maintaining safety in the 
Agency's culture, standards, and processes:

    The ASAP believes that NASA has continued to improve its awareness 
and development of a positive safety culture. Areas where improvements 
have been made include:

        A.  Implementation of a new governance model and acceptance and 
        implementation throughout the agency of independent engineering 
        and safety Technical Authority policies.

        B.  Establishment of an agency-wide Safety Center.

        C.  Initial funding to support the use of a senior-level 
        leadership team within the Safety Center.

        D.  Endorsement that experience in the Safety and Mission 
        Assurance (S&MA) career field will be a strong requirement for 
        promotion into senior management positions.

        E.  Safe Shuttle and International Space Station operations 
        have been demonstrated successfully since the Columbia 
        accident. The recent Hubble rescue mission was a masterpiece 
        for safety. As a side note, NASA deserves significant 
        recognition for continuously operating manned the Space Station 
        safely in orbit for nine years without a major incident--quite 
        an accomplishment.

        F.  Development of an astronaut medical health Technical 
        Authority that establishes checks and balances among program 
        and institutional requirements.

        G.  Positive changes in workforce attitude towards safety, 
        continued awareness of safety and risk programs, and continued 
        management effort to create and nurture open dialogue and 
        discourse on technical differences.

    However, there can be more attention put forth into the following:

        A.  Improve contractor safety management and communications at 
        all centers.

        B.  Implement a more robust incident investigation process that 
        not only identifies the root causes but then distributes the 
        lesson-learned information in a timely manner to those who need 
        to know.

        C.  Develop a standardized set of hard and soft, leading and 
        lagging safety metrics that are reviewed and analyzed by each 
        center's management team on a monthly basis; such an analysis 
        would then enable them to focus attention on the areas that 
        need more critical intervention and will stimulate comparisons 
        between centers.

        D.  Develop a standardized way to proactively measure the 
        safety culture at each center; then continue to foster the 
        required leadership behaviors to engender the openness. 
        Transparency and trust are needed to ensure that safety issues 
        are solved at the lowest possible level in the organization.

        E.  Improve the current technical standards program to better 
        capture and apply hard-won lessons learned and best practices.

6.  Discuss any other matters that merit attention:

        A.  The Administration, Congress, and NASA all need to be 
        transparent with the public on risk communication--that losses 
        may occur in space exploration and the risk of this should be 
        mutually shouldered; the national message on the space program 
        needs to be that we're going to do it, but that launching 
        humans into space with today's technology can never be 
        considered a completely safe endeavor as judged by normal 
        standards; this message is complicated further by the tendency 
        of the media to communicate issues with an exaggerated 
        ``spin.''

        B.  NASA is addressing the potential limitations involved in 
        relying on Soyuz during the gap between the Shuttle retirement 
        and Constellation initial operating capability (IOC). In the 
        meantime, a good, open working relationship with the Russians 
        at a high level is necessary for any period of dependence on 
        Soyuz.

        C.  NASA currently has a good plan for managing the workforce 
        transition from the Space Shuttle to the Constellation program. 
        The ASAP concerns involve retention of key technical, 
        engineering, and management leaders and include the need for 
        Office of Personnel Management (OPM) to grant NASA authority to 
        reemploy retired NASA civil service annuitants without 
        financial penalty from the retirement compensation offset, 
        particularly at Marshall Space Flight Center where a large 
        influx of Department of Defense Base Realignment and Closure 
        positions provides unfair competition.

    Once again, I thank you for the opportunity to offer the ASAP's 
view on these issues and would be happy to respond to any questions you 
or other Members of the Subcommittee may have.

                     Biography for John C. Marshall

<bullet>  Independent Aviation Consultant

<bullet>  Former Delta Airlines, Vice President Corporate Safety and 
Compliance

    Mr. John C. Marshall is an independent aviation consultant who 
formerly was Vice President of Corporate Safety and Compliance for 
Delta Air Lines. Mr. Marshall had responsibility for six departments at 
Delta, including Flight Safety, Industrial Safety, Environmental 
Services, Emergency Planning and Operations, Safety Analysis and 
Quality Assurance, and Security. Inherent in these organizations are 
FAA, DOT, DOD, OSHA, EPA, TSA, and DHS compliance-driven programs for 
accident prevention, accident investigations, accident response, and a 
wide range of security programs. He also has collateral 
responsibilities for integrating safety, compliance, and security 
programs for Delta's wholly-owned subsidiaries including Comair, 
Atlantic Southeast Airlines, Delta Global Services, and Delta 
Technologies, into Delta's mainstream programs. Under his leadership, 
Delta routinely was recognized for industry-leading programs focused on 
reducing aircraft mishaps, employee injuries, and aircraft ground 
damages, while enhancing environmental compliance programs and 
fostering the highest standards of security for world-wide commercial 
airline operations.
    Mr. Marshall recently served as the Industry Co-Chair of the 
Commercial Aviation Safety Team (CAST). CAST is a joint industry-
government program to develop and implement an integrated, data-driven 
strategy to reduce the U.S. commercial aviation fatal accident rate by 
80 percent by 2007. Participants include aircraft and engine 
manufactures, passenger and cargo airlines, labor unions, Flight Safety 
Foundation, Air Transport and Regional Airline Associations, NASA, DOD, 
and the FAA. Mr. Marshall is also the past Chairman of the Air 
Transport Association of America's Safety Council and the Society of 
Automotive Engineer's Aerospace Symposium. He currently serves on 
boards for the National Defense Transportation Association's Military 
Subcommittee, Safe America (a nation-wide non-profit organization 
focusing on safety awareness), the Flight Safety Foundation, and the 
Nature Conservancy's International Leadership Council.
    Mr. Marshall gained world-wide aviation experience through his 26-
year aviation career with the U.S. Air Force. His Air Force assignments 
included duties as a fighter pilot, special assistant to the Air Force 
Vice Chief of Staff, fighter squadron commander, base commander, and 
fighter wing commander. During his career, he primarily flew F-4s, F-
15s, A-10s, and F-16s, but has experience in a variety of other 
aircraft as well. Mr. Marshall later served as the Inspector General of 
the Pacific Air Forces and then became the Director of Operations of 
the Pacific Air Forces. While in the Pacific, he oversaw the safe and 
efficient operations of over 400 combat aircraft, including developing 
plans and policies used for executing his command's annual flying 
program. In his last assignment, he served as the United State's 
Director of Security Assistance for the Middle East where he was 
responsible for all sales, marketing, training, and logistic support 
between the United States and eleven countries in the Middle East, 
Africa, and Southwest Asia during and immediately after the Gulf War.
    Mr. Marshall received his Bachelor's degree in civil engineering 
from the Air Force Academy in Colorado. He also is a graduate from the 
National War College, holds a Master of Arts degree in personnel 
management from Central Michigan University, and a Master of Science 
degree in civil engineering (environmental) from the University of 
Hawaii.

    Chairwoman Giffords. Thank you, Mr. Marshall. Dr. Ford, 
please.

     STATEMENT OF DR. KENNETH M. FORD, CHAIRMAN, NATIONAL 
  AERONAUTICS AND SPACE ADMINISTRATION ADVISORY COUNCIL (NAC)

    Dr. Ford. Chairwoman Giffords and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to discuss the top priorities and challenges facing 
NASA. I have submitted my complete testimony for the record, 
but today I would like to identify and discuss what I believe 
to be three of the highest priorities for your consideration 
during this potentially pivotal moment in our nation's space 
program.
    Choices and decisions must be made that will determine what 
we can and cannot accomplish in space for the next 40 years. 
The three priorities include developing a capable and flexible 
space transportation architecture, the need to reestablish a 
robust technology R&D program, and the need for stability of 
purpose, policy and funding. In the few minutes I have, I will 
address each of these in turn.
    It is very likely that the space transportation system now 
under development will serve the nation for the next 30 to 50 
years. We need to get it right. This will be the space flight 
architecture that takes Americans beyond low-Earth orbit back 
to the Moon to near-Earth objects and onto Mars. The key 
element in the exploration architecture is the development of 
the heavy-lift launch vehicle. I urge Congress to accelerate 
and prioritize development of this capability as it is the 
lynchpin to everything we will do in human space flight beyond 
low-Earth orbit.
    Accelerated development of the heavy-lift launch vehicle 
would also help with retaining a skilled workforce, both in 
production and in the processing that takes place at Kennedy 
Space Center. The plan has been to apply the workforce coming 
off Shuttle to development of the Shuttle-derived heavy lift 
Ares-5.
    Assuming that the International Space Station is to be 
extended beyond 2015, serious thought must be given to the 
means of support for both cargo and crew. The current space 
transportation architecture is intended to provide government-
furnished crew access to the International Space Station. As 
NASA has clearly stated from the outset, if commercial crew 
access materializes, NASA will utilize that service. Although 
commercial cargo transport may be available sooner, it seems 
unlikely that commercial crew transport to the International 
Space Station will be available before 2015 or 2016 and even 
then only with a substantial infusion of additional government 
funding. That said, unless the Constellation Program is funded 
at or above the 2010 budget request, it seems equally unlikely 
that Ares-1 will be available before 2016 or perhaps even early 
2017. In fact, the latest House mark-up would likely further 
increase the gap in U.S. Government-provided access to space to 
the point where Ares-1 support of the International Space 
Station may become irrelevant unless operation of the space 
station is extended well into the future.
    NASA has long enjoyed a reputation as a technology 
innovator whose stressing applications in space and aeronautics 
have led to an incredible range of broadly useful technologies. 
Several years ago the decision was made to divert a large 
fraction of the Agency's technology investment into the 
Constellation Program with the goal of maintaining an early 
initial operational capability. Unfortunately, technology 
research programs are easily stopped and terribly hard to 
restart. In a time of constrained budgets, it will take strong 
and effective leadership at the agency and by Congress to 
reestablish NASA as a technology leader. A large part of the 
public's strong support for NASA derives from the perception 
that NASA is a driver of innovation and technology.
    Space exploration is an inherently challenging and 
rewarding endeavor. Stability in planning requirements, 
budgets, and programmatic execution are essential for 
successful mission accomplishment. The current U.S. space 
policy is the best one we have had for a very long time. It 
meets existing commitments and then puts NASA on a new path in 
an orderly, disciplined manner. The policy strategy was 
strongly supported by both the 2005 and 2008 NASA Authorization 
Acts in both a Republican and a Democratic Congress. It is 
NASA's job to implement that policy. In my view, the most 
important factor in NASA's future success will be stability in 
purpose, strategy, requirements and funding. If our nation's 
leadership cannot provide that stability, NASA's efforts to 
implement the Nation's space policy will cost more and 
accomplish less.
    In most days, there is very little in the thousands of 
items filling the 24-hour news cycle that will be regarded as 
important and noteworthy in 500 years. However, the 
accomplishments of this agency of the United States Government 
are among the few human activities that will be regarded as 
having mattered and been important and will be looked upon with 
admiration centuries hence. They will marvel at the courage, 
curiosity and audacity of a people who put the first human 
footprint on a planet other than their own, who sent robotic 
ambassadors deep into the solar system, not to conquer or for 
financial gain, but just to know. They will wonder if they 
could measure up to such people. I look back at the Apollo era 
and wonder the same thing and hope that our generation will 
also be included as worthy of their admiration. We will not 
have to wait 500 years to know the answer. We are now at a 
critical juncture in the future of U.S. human space flight.
    I would be happy to respond to any questions you or other 
Members of the Committee might have.
    [The prepared statement of Dr. Ford follows:]

                 Prepared Statement of Kenneth M. Ford

    Chairwoman Giffords and Members of the Subcommittee, thank you for 
the opportunity to appear before you today to discuss the top 
priorities and challenges facing NASA, the corresponding decisions that 
are required, and the Agency's ability to address these issues within 
the context of the budgetary outlook described by its 2010 request.
    The NASA Advisory Council (NAC) was also asked to discuss the 
corrective actions NASA has taken to implement a solid financial 
management foundation and merit an improved audit opinion. The NAC, 
through our Audit and Finance Committee under the leadership of Mr. 
Robert Hanisee, has worked closely with NASA on these areas. Mr. 
Hanisee will provide you with a comprehensive account of the progress 
that has been made and the issues remaining. We are pleased with the 
tremendous improvements that NASA has made in its financial management.
    Next month we will celebrate the 40th anniversary of the first 
human footprint on a world other than our own. This is a time for our 
nation to both look back with pride in our accomplishments and to look 
forward with great expectations for the next 40 years in space. It is 
also time to re-commit ourselves to taking those next steps.
    I will identify what I believe to be a few of the highest 
priorities for your consideration during this potentially pivotal 
moment in our nation's space program. Choices and decisions will be 
made that will determine what we can and cannot accomplish in space for 
the next 40 years.

Flying the Shuttle Safely

    NASA has developed a prudent and technically rigorous approach to 
Shuttle operations. Human space flight remains one of the hardest 
things humans do. When the inevitable technical problems have arisen, 
NASA has consistently demonstrated the commitment to take whatever time 
necessary to resolve the problem before proceeding in a safe, 
deliberate manner. The challenge will be to maintain this level of 
vigilance through the remaining seven flights of the Space Shuttle 
program. Commendably, Congress and the Administration have laid the 
foundation by directing NASA to focus on completing the remaining Space 
Shuttle flights, rather than forcing the Agency to finish the Shuttle 
flights by an arbitrary deadline. The Congress and Administration must 
be prepared to act on this direction by providing additional funding in 
the case that the flights need to be delayed. This strategy eliminates 
the perception of schedule pressure that may cloud safety and technical 
decision-making. It is equally important that NASA retains the critical 
workforce skills and facilities that are needed to ensure the safe 
completion of the Shuttle program. Congress and the Agency can help 
provide a sense that the work that the Agency is doing in space is 
recognized as being necessary and important to the country. This is 
accomplished by providing stable funding and an unwavering vision for 
the future. Such an approach will significantly help with workforce 
retention. In summary, while NASA's current plans to complete the final 
seven flights of the Space Shuttle program by the end of 2010 are 
indeed ambitious, the Agency has the mechanisms in place to safely 
complete the Shuttle missions. NASA must, however, remain vigilant, 
taking one mission at a time, doing it right, and doing it safely.

Develop a Capable and Flexible Space Transportation Architecture

    In the aftermath of the loss of Space Shuttle Columbia, Admiral Hal 
Gehman, Chairman of the Columbia Accident Investigation Board, released 
a remarkable report that pointed to the fact that NASA had operated for 
more than three decades in the absence of a guiding vision for human 
space flight as a root cause of the Columbia accident. In response, a 
thoughtful and logical civil space policy was put forth. After 
extensive and healthy debate, a Republican Congress approved this 
policy as the guiding strategy for NASA, and three years later a 
Democratic Congress did likewise. Both presidential candidates in 2008 
issued specific statements supporting a strong human space program, and 
President Obama's first budget request calls for lunar return by 2020. 
Thus, in the last five years two presidents and two Congresses, each of 
opposite parties, have affirmed the United States Vision for Space 
Exploration.
    It is NASA's responsibility to implement the vision within the 
resources provided by Congress. It is very likely that the space 
transportation system now under development will need to serve the 
nation for the next 30-50 years. We need to get it right. This will be 
the basic space flight architecture that takes Americans beyond low-
Earth orbit (LEO), back to the Moon, to Near-Earth Objects and on to 
Mars.
    The key element in the exploration architecture is the development 
of a heavy lift launch vehicle. I urge Congress to accelerate and 
prioritize development of this capability as it is the key to 
everything we will do in human space flight beyond LEO. Accelerated 
development of a heavy lift launch vehicle can also help with retaining 
a skilled workforce both in production and the processing that takes 
place at Kennedy Space Center. The plan has been to apply the work 
force coming off Shuttle to development of the Shuttle-derived heavy 
lift Ares-V. With the budget that would have funded early lunar work 
now eliminated, the work force transition is further at risk. For the 
Ares-V concept, the five-segment solid rocket booster and J2X upper 
stage engine are already in development. The first five-segment booster 
test firing is planned for August of this year. The J2X engine passed 
its critical design review last fall. Although many technical 
challenges lie ahead, substantial progress has been made.
    As noted above, a heavy lift capability is mandatory for journeys 
beyond LEO. The Ares-V and Orion are sized for missions to Mars. The 
crew of six and Ares-V lift capabilities were originally derived from 
Mars mission studies. These capabilities encompass all other human 
missions that are feasible at this time, including the Moon, asteroids, 
LaGrange points, and near-Earth objects.
    Building a heavy lift launch capability and doing so on an 
aggressive schedule is the right thing because not only does it provide 
the ability to go beyond LEO, but it also enables a step-wise and 
evolutionary building block to progressively longer and more demanding 
science and exploration missions to explore the Moon, Mars, and other 
locations. Making this choice and stepping up to it now is a wise 
investment in our future that will undoubtedly yield untold benefits.
    Assuming that the International Space Station (ISS) is to be 
extended beyond 2015, serious thought must be given to the means of 
support for both cargo and crew. The current Space Transportation 
Architecture is intended to provide Government-furnished crew access to 
the ISS. As NASA has clearly stated from the outset, if commercial crew 
access materializes, NASA will utilize that service. Although 
commercial cargo transport may be available sooner, it seems unlikely 
that commercial crew transport to ISS will be available before 2015 or 
2016--and even then only with a substantial infusion of additional 
Government funding. That said, unless the Constellation Program is 
funded at or above the 2010 budget request, it seems equally unlikely 
that Ares-I will be available before 2016 or perhaps even early 2017. 
Continued schedule slippage could leave the ISS without a U.S.-provided 
crew transportation capability for an extended period of time. If Ares-
I/Orion significantly slips schedule, the argument for their necessity 
weakens dramatically. In fact, the latest House markup would likely 
further increase the gap in U.S. Government-provided access to space to 
the point where Ares-I support of ISS may become irrelevant unless ISS 
operation is extended well beyond 2015.
    There are, of course, other options for access to ISS. These 
options will have budget impacts and may not be executable in time to 
support ISS. The aforementioned options could include increased 
reliance on international partners (Soyuz), more Shuttle flights, a 
smaller capsule on a human-rated EELV, an Orion capsule on a human-
rated heavy lift launch vehicle--or some combination of the above. 
There are significant challenges and difficulties associated with each 
of these approaches. We, as a Nation, need to confirm our strategy and 
then let NASA implement it with adequate and stable resources.
    When a program such as Constellation has to re-plan, due to 
significant budget cuts, it means that schedules are shifted and 
contracts must be changed and renegotiated to a new baseline, 
inevitably at higher cost. The schedule delays also impact the ability 
to retain the highly skilled workforce currently working in support of 
the Shuttle and ISS systems. As the schedule slips, workers are first 
impacted in the hardware manufacturing facilities, and then as launch 
and orbit operations are delayed, workers are impacted in launch 
processing and operations. These workers have unique skills, and it is 
important to retain much of this workforce for the new systems. This 
unstable funding scenario is reminiscent of the instability in the 
Space Station Freedom yearly budgets in the late 80's and early 90's 
that resulted in annual re-planning, cost overruns, and delays. Large-
scale engineering development programs and the associated contracts 
cannot be stopped and started without the inefficiency of re-planning, 
loss of critical skills, additional significant costs, and loss of 
schedule. I hope that this is a ``lesson learned,'' and that it will 
not have to be relearned at great cost. The current budget environment 
is jeopardizing the future of U.S. human space flight at a time when 
NASA has made significant progress toward development of the new Space 
Transportation Architecture.
    On October 16, 2008 the NAC Exploration Committee offered the 
following formal observation following their careful evaluation of 
progress on the Ares Launch Vehicle,

         ``Given the quality of NASA's analysis and the project's 
        momentum, it is imperative to maintain stability and continuing 
        progress on execution of the current plan. The Ares project is 
        well underway with an established baseline and provides a solid 
        foundation for the Constellation Program. The current 
        Exploration Program has strong and accelerating international 
        support and participation.''

    The NAC Exploration Committee will continue to monitor progress 
toward development of the Space Transportation Architecture that will 
serve this nation for decades to come and make recommendations as 
merited.

Need for a Decision Regarding International Space Station (ISS)

    I believe the International Space Station (ISS) to be among the 
most ambitious engineering projects ever undertaken by humanity. It's 
larger than a football field, weighs nearly a million pounds, and is 
gracefully orbiting our planet at 7.7 kilometers per second. Perhaps 
equally impressive has been the fifteen-nation partnership that 
designed, built, and operates the ISS.
    When it is finished, the ISS will be a laboratory unique in human 
experience. Already, preliminary results look promising for progress 
toward development of new vaccines and therapeutic drugs against 
salmonella and MRSA. But more importantly, it affords an opportunity 
for humans to learn to live and work in space for long durations. This 
knowledge will be of great value when we are ready to send humans to 
the Moon and eventually Mars. The lessons of long-duration space flight 
are better learned when you are only hours away from the safety of 
Earth, and not days away when on the Moon, or months away when 
traveling to Mars.
    Currently, there is no consistent direction for ISS utilization 
past 2015 other than to take no action to preclude its continued 
operation. A timely decision regarding the future of ISS is needed. 
Uncertainty of purpose and plan is damaging for science utilization, 
negotiation with our international partners, and development of a 
stable commercial cargo market.
    Space Station has cost us much in treasure ($50+ billion) and in 
human life, but now it is nearly finished. It would seem imprudent to 
have spent the last 25 years building this remarkable facility only to 
abandon it shortly after completion.

Re-establish a Robust Technology R&D Program at NASA

    NASA has long enjoyed a reputation as a technology innovator whose 
stressing applications in space and aeronautics have led to an 
incredible range of broadly useful technologies. Several years ago, the 
decision was made to divert a large fraction of the Agency's technology 
investment into the Constellation Program with the goal of maintaining 
an early initial operational capability. As a result, NASA no longer 
enjoys the benefits of a strong technology program and is very limited 
in its ability to seek new ideas both internal and external.
    Unfortunately, technology research programs are easily stopped and 
terribly hard to restart. In a time of constrained budgets, it will 
take strong and effective leadership at the Agency and by Congress to 
reestablish NASA as a technology leader. The moral of this story is 
that viable and productive research programs require stability.
    A robust and useful technology program at NASA would be dedicated 
to stimulating innovation and developing new capabilities not tied to 
existing mission requirements. There are many negative consequences 
associated with the loss of a technology research program, but one of 
them is that missions, such as NASA's science missions, must carry all 
the technology risk in the mission itself. Additionally, in the human 
space flight side of the house, the lack of a robust technology program 
has naturally driven program managers toward relatively conservative 
and often low-tech designs.
    A large part of the public's strong support for NASA derives from 
the once accurate perception that NASA is a driver of innovation and 
technology. The NASA Advisory Council is in the process of examining 
NASA's current technology programs in terms of quality, scope, and 
adequacy--and will make a recommendation as appropriate.

On the Need for Stability

    Space Exploration is an inherently challenging and rewarding 
endeavor--it takes courage, calculations, capital, choreography, and 
consistency. Stability in planning, requirements, budgets, and 
programmatic execution are essential for successful mission 
accomplishment.
    The current U.S. Space Policy is the best one we have had for a 
very long time: it meets existing commitments, and then puts NASA on a 
new path in an orderly, disciplined, manner. The policy strategy was 
strongly supported by both the 2005 and 2008 NASA Authorization Acts in 
both Republican and Democratic Congresses. It is NASA's job to 
implement that policy.
    In my view, the most important factor in NASA's future success will 
be stability in purpose, strategy, requirements, and funding. If our 
nation's leadership cannot provide that stability, NASA's efforts to 
implement the nation's space policy will cost more and accomplish less.

NAC assessment of NASA responses to NAC recommendations on (a) human 
capital and (b) science mission cost drivers:

Infusing new talent and knowledge into the NASA workforce
    The NAC believes that continued leadership in aeronautics, space 
science, and exploration requires the constant infusion of new ideas 
and state-of-the-art technological knowledge provided by a vibrant and 
creative workforce. As a result of very limited hiring at NASA over the 
past 15 years, a large proportion of the new hires were those with a 
higher level of experience and expertise. As a consequence, NASA's 
current workforce consists primarily of mid-level and senior-level 
professional scientists and engineers. Therefore, to ensure that NASA 
has the talent needed to support current and future space and 
aeronautics missions, the NAC has recommended that NASA focus on hiring 
``fresh-out'' talent, which is defined as individuals who have obtained 
a degree within the past three years.
    NASA has already begun taking steps to address the issue raised by 
the NAC. NASA has secured support from the Office of Science and 
Technology Policy (OSTP) to pursue increased hiring specifically for 
the purpose of enhancing the workforce pipeline. As a result of this 
support, NASA has made two substantive and strategic hiring commitments 
to infuse new entry-level talent and knowledge into its workforce. 
First, NASA has initiated a pilot program designed to target 
approximately 200 additional hires in FY09 as a near-term infusion of 
entry-level talent. To implement this program, the Office of Human 
Capital Management is partnering with the Mission Directorates, the 
Office of Diversity and Equal Opportunity, and the Office of Education 
to provide guidance and direction to the Centers on a strategic hiring 
plan that targets recruitment efforts that are consistent with merit 
system principles. Second, NASA has committed to using a higher 
proportion of its annual hiring opportunities created through natural 
attrition on entry-level hires. The Centers have already been directed 
to replenish losses with a higher number of entry-level hires.
    The tasks we ask NASA to accomplish on behalf of the Nation are 
some of the hardest things humans do. Thus, while the NAC is pleased 
with NASA's efforts to balance its workforce, we hope that it will make 
every effort to recruit the very best talent to the Agency. Our 
nation's continued leadership in Space and Aeronautics will depend on 
NASA's ability to hire the ``best and the brightest.''

Communicating lessons learned on large cost drivers in science missions 
        to inform the next round of decadal surveys
    In general, NASA does a good job of estimating prices, as well as 
managing schedules and costs for small (e.g., Explorer-class) and 
medium size science missions. In these cases, the science scope and new 
technology development are relatively modest, and so costs and risks 
are better understood. In recent years, the problems with under-costing 
and maintaining schedule have nearly all arisen from flagship class 
missions. For these large science platforms, the required technology 
advances have been very significant in order to meet bold new science 
goals. Thus, it is not surprising for these one-of-a-kind missions that 
costs or schedules are sometimes exceeded because extrapolation from 
existing models is an inadequate predictor. This is NASA's dilemma for 
large science missions and parallels problems experienced by other 
federal agencies (e.g., NOAA, DOD space missions, and even recent NSF 
large ground-based projects). Solutions to the cost estimation and cost 
containment problems for large, unique missions are among NASA's (and 
all federal agencies) greatest challenges. Maintaining realistic yet 
ambitious science goals, leading to more incremental new technology 
requirements, coupled with larger up-front mission reserves are likely 
to be elements needed for successful large space science missions for 
the future.
    The NAC Science Committee has played an active role in monitoring, 
reviewing, and suggesting changes regarding the management of costs for 
science missions. The Committee reviews the status and expenditures of 
NASA's major science missions (e.g., JWST, JDEM, MSL, MMS) quarterly at 
each of its meetings. NASA managers present updates on technology, 
engineering, and science goals for science missions to discipline 
subcommittees who review, comment, and make recommendations to the NAC 
Science Committee. The NAC compares previous expectations on design and 
construction along with expenditures for major missions to the actual 
progress in each quarter. Technical and budget problems are probed, 
explanations are sought, and solutions are then reviewed by the NAC who 
advise the Administrator on emerging mission issues.
    Recently, the NAC recommended that NASA compile lessons learned on 
the costing of science missions. The NAC believes the NRC decadal 
survey committees need to understand how early choices in mission 
concept design lead to cost growth so they can structure their 
recommendations to be more robust over time. Therefore, the NAC 
recommended that NASA compile lessons learned on pre-phase B cost 
estimation for large missions, including influence of interactions 
among the science community, the NRC, NASA Headquarters, and Centers. 
Additionally, NASA was asked to provide an initial product to the NAC 
Science Committee at its July 2009 meeting prior to provision to the 
NRC committees initiating their new round of decadal surveys in the 
space sciences.
    The NRC decadal surveys establish community and stakeholder 
expectations for science missions to be developed and launched in the 
coming decade or beyond. Mission concepts are generally ranked in 
priority order by cost class. In the last round of NRC decadal surveys, 
some high priority mission(s) ranked on the basis of an initial cost 
estimate turned out to be two to four times as expensive to develop. 
This leads to questions of whether those same rankings would have been 
assigned had more realistic cost estimates been available, and whether 
some different mix of missions might have been recommended to achieve 
the optimal science return within available funding constraints. Thus, 
the current astronomy and astrophysics, and planetary science decadal 
surveys are contracting for independent cost estimates for proposed new 
missions.
    NASA's response to the NAC recommendation noted that the Congress, 
in the 2008 NASA Authorization Act, had a similar concern and required 
NASA to arrange for ``an independent external assessment to identify 
the primary causes of cost growth.'' To comply, NASA contracted with 
the National Research Council of the National Academies to conduct this 
study. The study will:

        <bullet>  Review the body of existing studies related to NASA 
        space and Earth science missions and identify their key causes 
        of cost growth and strategies for mitigating cost growth;

        <bullet>  Assess whether those key causes remain applicable in 
        the current environment and identify any new major causes; and

        <bullet>  Evaluate effectiveness of current and planned NASA 
        cost growth mitigation strategies and, as appropriate, 
        recommend new strategies to ensure better cost containment and 
        success of future missions.

    NASA intends for this study to achieve the NAC recommendation. 
NASA's view is that tasking the NRC to do this study should facilitate 
the use of its results by the decadal survey committees, which are also 
NRC entities. The results of this study will be timely for the 
planetary sciences decadal survey but may not be available in time to 
impact the astronomy and astrophysics survey.
    The NRC ``lessons learned'' study along with the Decadal Surveys 
must wrestle with the trade-offs between ambitious science goals, new 
technology requirements, and costs. The NAC will continue to be 
vigilant in working with NASA to continuously review each flagship 
science mission and to apply the lessons learned from the upcoming NRC 
study.

Conclusion

    My letter of invitation asked me what were the most important 
issues and decisions that must be made regarding NASA. You will notice 
that I did not talk much about the Space Science or Aeronautics Mission 
Directorates. This is not because they are unimportant: to the 
contrary, they are very important, but they are each on paths going 
forward that seem more clear and less full of doubt than the path for 
human space flight.
    In most days, there is very little among the thousands of items 
filling the 24-hour news cycle that will be regarded as important and 
noteworthy in 500 years. However, the accomplishments of this Agency of 
the U.S. Government are among the few human activities that will be 
looked upon with admiration and, if humans are still capable of the 
emotion, with awe. They will marvel at the courage, curiosity, and 
audacity of a people who put the first human foot print on a planet 
other than their own, who sent their robotic ambassadors deep into the 
solar system . . . not to conquer . . . or for financial gain . . . but 
just to know. They will wonder if they could measure up to such people.
    I look back at the Apollo era and wonder the same thing . . . and 
hope that our generation will also be included as worthy of their 
admiration. We will not have to wait 500 years to know the answer.
    I would be happy to respond to any questions you or the other 
Members of the Subcommittee may have.

                     Biography for Kenneth M. Ford
    Kenneth Ford is Founder and CEO of the Institute for Human & 
Machine Cognition (IHMC)--a not-for-profit research institute located 
in Pensacola, Florida. IHMC has grown into one of the Nation's premier 
research organizations with world-class scientists and engineers 
investigating a broad range of topics related to building technological 
systems aimed at amplifying and extending human cognitive and 
perceptual capacities. Richard Florida has described IHMC as ``a new 
model for interdisciplinary research institutes that strive to be both 
entrepreneurial and academic, firmly grounded and inspiringly 
ambitious.'' IHMC headquarters are in Pensacola and a branch research 
facility will soon open in Ocala, Florida.
    Dr. Ford is the author or co-author of hundreds of scientific 
papers and six books. Ford's research interests include: artificial 
intelligence, cognitive science, human-centered computing, and 
entrepreneurship in government and academia. He received a Ph.D. in 
Computer Science from Tulane University. He is Emeritus Editor-in-Chief 
of AAAI/MIT Press and has been involved in the editing of several 
journals. Dr. Ford is a Fellow of the Association for the Advancement 
of Artificial Intelligence (AAAI), a member of the American Association 
for the Advancement of Science, a member of the Association for 
Computing Machinery (ACM), a member of the IEEE Computer Society, and a 
member of the National Association of Scholars. Dr. Ford has received 
many awards and honors including the Doctor Honoris Causas from the 
University of Bordeaux in 2005 and the 2008 Robert S. Englemore 
Memorial Award for his work in artificial intelligence (AI).
    In January 1997, Dr. Ford was asked by NASA to develop and direct 
its new Center of Excellence in Information Technology at the Ames 
Research Center in Silicon Valley. He served as Associate Center 
Director and Director of NASA's Center of Excellence in Information 
Technology. In July 1999, Dr. Ford was awarded the NASA Outstanding 
Leadership Medal. That same year, Dr. Ford returned to private life and 
to the IHMC.
    In October of 2002, President George W. Bush nominated Dr. Ford to 
serve on the National Science Board and the United States Senate 
confirmed his nomination in March of 2003. The National Science Board 
(NSB) is the governing board of the National Science Foundation (NSF) 
and plays an important role in advising the President and Congress on 
science policy issues.
    In 2004, Ford was the recipient of the Pensacola Area Chamber of 
Commerce Business Leader of the Year Award for the growth of IHMC. 
Also, in 2004 Florida Trend Magazine named Dr. Ford one of Florida's 
four most influential citizens working in academia. In 2005, Dr. Ford 
was appointed and sworn in as a member of the Air Force Science 
Advisory Board.
    In 2007, he became a member of the NASA Advisory Council and on 
October 16, 2008, Dr. Ford was named as Chairman of the NASA Advisory 
Council.

    Chairwoman Giffords. Thank you, Dr. Ford. Very moving 
comments. Thank you. Mr. Hanisee.

STATEMENT OF MR. ROBERT M. HANISEE, CHAIRMAN, AUDIT AND FINANCE 
             COMMITTEE, NASA ADVISORY COUNCIL (NAC)

    Mr. Hanisee. Madam Chairman and Members of the 
Subcommittee, good morning, and thank you for the opportunity 
to appear today to discuss the NASA Advisory Council's key 
findings and observations related to NASA's financial 
management activities. I will also touch briefly on the 
perception of a proliferation of conflicting earned-value 
management approaches within the Agency.
    The fact that NASA has been plagued with financial problems 
for several decades is well-documented. In 1990, the General 
Accountability Office (GAO) placed NASA on its high-risk list, 
and in 2005, the GAO issued a report in which it listed 45 
recommendations aimed at improving NASA's overall management. 
In a separate report, the Inspector General (IG) noted that the 
Agency's problems were rooted in historic culture, to wit, NASA 
Centers operated with a high degree of autonomy; across NASA 
there were in use 10 different accounting systems with 120 
subsystems; a very significant result of this accounting 
anarchy was a legacy of unreliable historic data; and that 
headquarters accounting personnel were inadequately trained. In 
2000, well before the GAO report, NASA attempted to consolidate 
these disparate accounting systems into a new, overarching 
control system, the Integrated Enterprise Management Plan, and 
two years later installed a commercially available core 
accounting system. Both of these new control systems brought 
forth a host of new problems that would take years and multiple 
software patches to fix.
    In 2006, the headquarters Chief Financial Officer's (CFO) 
office prepared a corrective action plan to address the noted 
deficiencies and specifically to remediate the four material 
weaknesses and one reportable condition cited in both the 2003 
and 2004 external audit reports. Those deficiencies were 
financial systems analysis and oversight; property accounting; 
funds balance with treasury; general controls, and estimating 
environmental liabilities. Even though the agency's external 
auditors continued to disclaim an opinion through and including 
2008, the continued hard work of the agency's headquarters and 
center finance staff has yielded results. In 2005, the number 
of material weaknesses dropped to three, and in 2006 to only 
two, and the reportable condition for environmental liabilities 
dropped off the list.
    In the 2008 audit report, Ernst & Young stated that, 
``Significant progress has been made,'' even though they again 
issued a disclaimer citing the remaining two material 
weaknesses, financial systems, and property accounting.
    With several software patches to the core accounting 
system, a more stable, better-trained accounting staff and the 
cooperative spirit of the centers, we believe that the first of 
these two material weaknesses is close to earning a passing 
grade. The intractable problem is property accounting, 
particularly as it relates to legacy assets, Space Shuttle, and 
the International Space Station.
    The external auditing firm has stated that the agency 
cannot earn a clean opinion until this accounting data is 
cleaned up. The IG has opined that the cost to go back and 
recreate a set of data that would be auditable is too high to 
justify. Other than running out the clock on Shuttle and Space 
Station, the only way off the horns of this dilemma would be a 
change in accounting interpretation from the Financial 
Accounting Standards Advisory Board permitting the Agency to 
write off these assets as research and development. If this 
accounting change comes forth, the door will be open for NASA 
to merit an improved audit opinion.
    Now to concerns about potential proliferation of 
conflicting EVM management systems within NASA. Under the 
leadership of the Chief Engineer's Office, the Earned Value 
Management Working Group was created in partnership with the 
Constellation Program with the objective of developing an 
agency-wide Earned Value Management (EVM) system to be offered 
to all mission and centers for single adoption. The NAC Audit 
and Finance Committee suggested at the October 2008 NAC meeting 
that the single solution being developed by the Working Group 
be adopted agency-wide. Since the Office of Chief Engineer and 
the Earned Value Management Working Group were already headed 
in that direction, no formal recommendation was made at that 
time.
    In conclusion, the Audit and Finance Committee would like 
the Subcommittee to know that when NASA earns an unqualified 
audit opinion, hopefully within the next two years, that the 
credit will belong to the hard-working accounting personnel at 
headquarters and in the centers. A specific tip of the hat is 
due to Terry Bowie, Deputy Headquarters CFO, who is largely 
responsible for the progress that the Agency has achieved. We 
also have a high degree of confidence in new headquarters CFO, 
Ron Spoehel. NASA now has a great financial team in place to 
address the problems in the future.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Hanisee follows:]

                Prepared Statement of Robert M. Hanisee

    Chairwoman Giffords and Members of the Subcommittee, thank you for 
the opportunity to appear today to discuss the NASA Advisory Council's 
key findings and observations related to NASA's financial management 
activities.
    NASA has well documented financial problems that have plagued the 
Agency for almost all of this decade. Before describing the remediation 
efforts and progress made over the last three and one-half years, it 
would be helpful to begin with a brief explanation of the situation 
that existed in late 2005. As background, the last year in which NASA 
received an unqualified Audit Opinion was 2002, but even that opinion 
is suspect because the opinion contained a Material Weakness which, 
post Sarbanes-Oxley, would preclude a favorable opinion. In 2001 and in 
every other year this decade, the Agency was given a Disclaimer which 
is a statement by the Independent Auditor that the Financial Statements 
are not auditable.
    In 1990, the General Accountability Office (GAO) placed NASA on its 
High Risk List for what it cited as NASA's failure to effectively 
oversee its contracts, due in part to the Agency's lack of accurate and 
reliable information on contract spending. The GAO cited four subject 
areas:

        <bullet>  Past award Contract Administration;

        <bullet>  Financial Management Systems;

        <bullet>  Program and Project Management; and

        <bullet>  Cost Estimating and Analysis

    In 2005, the House Science Subcommittee on Space and Aeronautics 
tasked the GAO to investigate the long-standing financial management 
challenges that threaten the Agency's ability to manage its programs. 
In its report to the Subcommittee, GAO cited 45 recommendations aimed 
at improving NASA's overall management and implementation of the 
Integrated Enterprise Management Plan (IEMP) and core accounting 
system, concluding that ``ineffective system and processes and 
inadequately trained financial management personnel hamper the external 
financial reporting efforts thereby threatening the Agency's ability to 
manage its programs and produce auditable financial statements.''
    In October 2005, at the start of Subcommittee hearings, the 
Inspector General (IG), in its report, noted that the Agency's problems 
are rooted in historic culture, to wit:

        <bullet>  NASA Centers operated with a high degree of autonomy 
        and mission focus;

        <bullet>  Across NASA, there were in use ten different 
        accounting systems and 120 sub systems, (none of which could 
        communicate with each other) that were consolidated into a new 
        control system, IEMP and a new common accounting module (widely 
        used in the U.S. and Europe) developed by a German Software 
        vendor, SAP;

        <bullet>  A significant part of the recent problems are rooted 
        in unreliable historical data;

        <bullet>  Not all Headquarters OCFO personnel were sufficiently 
        trained, especially on the new core accounting system;

        <bullet>  At the various centers, there were weaknesses and 
        insufficient controls to catch mistakes early in the accounting 
        cycle.

    In January 2006, the Office of the CFO prepared a Corrective Action 
Plan (CAP) to address the deficiencies noted in the GAO and IG reports 
and specifically to remediate the Material Weaknesses and Reportable 
Conditions noted in the 2003 and 2004 audit report of the Independent 
Auditors. This CAP defined NASA goals, objectives, strategies, due 
dates, and assigned responsibility for remediation. In the audit 
reports of 2003 and 2004, there were four Material Weaknesses and one 
Reportable Condition:

        <bullet>  Financial Systems, Analysis and Oversight;

        <bullet>  Funds Balance with Treasury;

        <bullet>  Property, Plant and Equipment accounting;

        <bullet>  Estimating environmental liabilities;

        <bullet>  General controls.

    Other problems/issues raised by the various oversight entities 
include:

        <bullet>  Control and accounting for NASA-owned aircraft;

        <bullet>  Control of Travel expenses, (disbursements and 
        reimbursements);

        <bullet>  Grant accounting;

        <bullet>  OCFO personnel shortfalls, turnover and morale.

    In addition to the control deficiencies noted above, the 
Administrator added a few, such as:

        <bullet>  Unobligated Balances;

        <bullet>  NASA Shared Service Center.

    While the two above-noted issues are not a concern of any of the 
oversight entities, they are reflective of the overall controls 
environment within the Agency and, so, are worth reviewing.
    The following examines each of these issues in more detail.

Financial Systems, Analysis, and Oversight
    This area was cited as a Material Weakness in each of the last 
seven years. Despite much progress, there continues to be problems with 
data entry, system configuration, documentation and compliance with the 
Federal Financial Management Improvement Act of 1996 (FFMIA). In 2000, 
NASA implemented a new IEMP and a new core accounting system. The core 
accounting system, installed in a phased approach from October 2002 to 
July 2003, proved to be complex and lacking in flexibility, 
particularly in reversing mistaken entries into the bookkeeping system. 
A major version update designed to correct some of the original 
problems was installed in October 2006. This new update created some 
new problems which were fixed with a patch implemented in February 
2007. Most of the problems that have plagued the system have now been 
cleaned up.

Funds Balance with U.S. Treasury
    This area was cited as a Material Weakness in 2003, 2004 and 2005. 
At 2002 year-end, the Agency was out of balance with Treasury by $1.7 
billion. By 2005, this metric had been reduced to $46 million. In 2006, 
with a non material unreconciled balance of $10.7 million the Material 
Weakness was removed. In 2007, this balance was further reduced to only 
$2 million and NASA received a ``green rating'' from the Treasury.

Property, Plant, and Equipment Accounting
    This area was noted as a Material Weakness for each of the past 
seven years. Furthermore, it is the last and most intractable 
impediment to the Agency receiving a clean audit opinion. Prior to 
1998, government agencies were not required to capitalize capital 
assets. Thereafter, the accounting rules changed requiring 
capitalization and subsequent depreciation. Recall the point made 
earlier about unreliable historical data. This lack of good historic 
data, particularly for the iconic legacy programs, such as Shuttle and 
the International Space Station (ISS), has left NASA with property 
accounts that NASA's external, independent auditor, Ernst & Young 
(E&Y), says are not auditable; hence, the Material Weakness.
    This problem is equally difficult for Agency-controlled assets or 
contractor-held assets. With the latter, the periodic reports have 
often been inaccurate, or not sufficiently timely. To address this 
problem, NASA installed a software control package called Contractor-
Held Asset Tracking System (CHATS) in September 2004. A second problem 
had to do with the property accounting system not tying into the core 
accounting module. This was remedied in May of 2008 with the 
installation of the Integrated Asset Management (IAM) tool, a SAP 
furnished asset management module. These two programs should help the 
Agency gain control of the issue on the new programs such as 
Constellation (Ares and Orion) and Commercial Orbital Transportation 
System (COTS), but it will not solve the legacy asset problem.
    The Agency is stuck on the horns of a dilemma. The cost to go back 
and reproduce accurate data for legacy programs is prohibitively high, 
such that the IG will not authorize the effort. E&Y has stated that 
NASA will not be able to obtain a clean opinion until the issue is 
resolved. Time will fix the problem as the legacy assets will be 
completely retired and of no significant value; the Space Shuttle is 
currently scheduled for retirement in 2010 and the International Space 
Station in 2016. At the end of 2008, these legacy assets were on the 
books for $14.2 billion, of which ISS accounted for the preponderance, 
$13.2 billion. However, to wait until 2016 or beyond to secure a clean 
audit opinion would be a bitter pill, particularly in light of the 
tremendous progress made by the Agency in dealing with all of the other 
accounting problems. There is currently an effort underway to resolve 
this problem. In 2006, NASA had a similar/related problem with 
accounting for theme satellites (that were well beyond NASA control) 
that the Agency was able to resolve. It did so by the CFO's office 
petitioning Federal Accounting Standards Advisory Board (FASAB) to 
permit the Agency to treat these assets as research and development 
(R&D) and write them off. The effort was successful. In 2007, the 
Agency wrote off almost $13 billion, a move that significantly reduced 
the amount of assets remaining on NASA's books. There is an exposure 
draft (currently circulating) from FASAB that if implemented would let 
NASA write off these legacy assets as R&D. If accepted, this would 
solve the Agency's problem.

Environmental Liabilities
    This was a Reportable Condition in 2004 and 2005. The 
responsibility for estimating Environmental Liabilities cuts across 
several NASA departments, including primarily accounting and 
environmental administration. To resolve this Reportable Condition, the 
Agency adopted a software package used by the U.S. Navy, the Integrated 
Data Evaluation and Analysis Library (IDEAL) in 2004. At 2008 year-end, 
NASA had an unfunded environmental liability of $943 million--some of 
which will take 50 to 100 years to clean up. The individual projects 
have liabilities ranging from as low as $12 thousand to $168 million. 
Each year, NASA spends $45 million on environmental clean-up. Although, 
in recent audits, Environmental Liabilities was dropped as a Reportable 
Condition, interviews with the lead audit partner of E&Y indicate that 
it still is a closely watched issue with them. First, they are not 
comfortable that the IDEAL software produces stable, auditable 
estimates and they want the software to undergo independent 
verification and validation. Second, they want the Agency to produce an 
estimate of environmental liability at the beginning of each new 
program.
    A new issue has recently arisen which is compliance with SFAS-6, an 
accounting standard that would, beginning in 2010, require all 
Government agencies to produce an estimate for asbestos remediation at 
every one of its sites. A disagreement has arisen between E&Y and the 
NASA Environmental Department over an acceptable methodology to 
accomplish this. E&Y wants NASA to do a site-by-site survey to 
establish these estimates. The Environmental Department believes that 
it can do an Agency-wide estimate using the costs for already completed 
remediations at several NASA sites. The Agency was recently informed 
that is has some breathing room on this issue given that FASAB has 
proposed a two-year delay in the requirement to estimate asbestos 
related clean-up costs.

Grant Accounting
    While not cited as a significant accounting issue in past audit 
reports, this issue has been noted by E&Y as an issue that is on their 
radar screen. NASA's Grant Portfolio consists of approximately 8000 
active grants with 1000 institutions, aggregating $6.9 billion. The 
concern expressed by the auditors is that there are a large number of 
grants that are still open even though the money has been expended. 
Also, there are numerous grants for which the documentation that the 
`deliverable' was actually delivered is missing or inadequate. In 
addition, there are grants for which money has been authorized with no 
activity by the grantees. To address these issues, the Agency recently 
switched from Block Grant accounting to Grant-by-Grant accounting. This 
switch occurred in 2008 and was implemented by all Centers except 
Goddard, which is pressing to close out completed grants. Goddard 
expects to be compliant by 2009 year-end.

Unobligated Balances
    Unobligated balances (money in the possession of the Agency that 
has not yet been invested in a specific program, project, mission or 
Center) have typically ranged from $1.5 billion to over $2.0 billion. 
The previous Administrator was concerned that these unobligated funds 
could be at risk. Accordingly, he challenged the Agency to get this 
metric below $1.0 billion at year-end. In April 2008, Ron Spoehel, the 
new CFO, undertook the development of a Phasing, Planning and Reporting 
process to enable Agency resource managers to invest appropriated funds 
more effectively. With the aid of this new tool, year-end unfunded 
balances dropped from over $2.0 billion in 2007 to $535 million in 
2008. In April 2009, the unfunded balance had been reduced to $343 
million.

Summary of Current Status

    In the 2008 year-end Audit Report, E&Y stated that ``significant 
progress has been made'' in resolving accounting problems. That year 
ended with there still being two Material Weaknesses, but the Funds 
Balance with Treasury weakness was no longer a deficiency and the 
reportable condition on estimating Environmental Liabilities had been 
removed. On every issue discussed above, the Agency has made progress.
    No longer mentioned in audit reports are concerns about the control 
and accounting for the NASA aircraft fleet, control of Travel expenses, 
and General Controls. Grant Accounting is well on its way to a 
satisfactory resolution. And, while Unobligated Balances is an issue 
that does not directly relate to Financial Controls, the success in 
reducing the Unobligated Balances is noteworthy. This is also true as 
to the resolution of the problem of under-staffing in the Headquarters 
accounting. The NASA Shared Services Center (NSSC) is up and running 
with performance metrics close to or above the goal levels. 
Unfortunately, NSSC is unlikely to ever achieve the $100 million cost 
savings that was the original justification for its creation because of 
persistent low-transaction volumes.
    The two remaining Material Weaknesses, Financial Systems, Analysis 
and Oversight (FSA&O) and Property Accounting may also be on a path to 
satisfactory resolution. Certainly, removal of the deficiency in FSA&O 
is within reach, which leaves Property accounting as the long pole in 
the tent. Even though E&Y has said that NASA will never receive an 
unqualified Audit Opinion until this issue is resolved, either by 
recreating an auditable data set, or by running out the clock on the 
International Space Station we remain optimistic that the 
aforementioned change in accounting permitting NASA to write off these 
legacy assets as R&D will be implemented. If that happens, we believe 
NASA may earn a clean audit opinion, if not this year then by 2010.

Addressing the proliferation of conflicting Earned Value Management 
                    (EVM) approaches within the Agency

    In 2008, then NAC Chairman, the Honorable Harrison Schmitt asked 
the NAC Audit and Finance Committee to ``review and advise on how to 
better monitor the cost buildup on new programs as measured against 
their original budgets and estimated cost to complete.'' Subsequently, 
in 2009, Dr. Kenneth Ford, the current NAC Chairman, made cost 
estimation and containment a focus area for 2009. Pursuant to that 
request, the A&F committee requested a fact finding session on the 
Agency's approach to Earned Value Management (EVM).
    EVM is a management tool used to track the performance of projects 
and programs against the plan and captures the key elements of cost, 
schedule and technical performance. The tool enables management to 
assess the trade-offs between cost, schedule, and technical performance 
and to project the likely future performance of those projects and 
programs. EVM is a sophisticated attempt to compare the value of work 
accomplished during a given period with the work scheduled for that 
period. Its benefits far exceed the traditional two-dimensional 
approach of comparing planned costs to actual costs. NASA policy 
requires implementation of an EVM System (EVMS) on all contracted work. 
It is the internal development of an EVMS for the program and project 
work within NASA with which the Committee concerned itself.
    In October 2008, the Committee was given a briefing on NASA's use 
of EVM by Ms. Dorothy Tiffany from NASA's Office of the Chief Engineer. 
Ms. Tiffany stated that NASA is committed to implementing an EVM System 
that 1) complies with its program management policies in NASA 
Procedural Requirement (NPR) 7120.5D and 2) that for all development 
efforts, its EVMS would be compliant with ANSI/EIA-748, which is the 
EVMS certification standard for Government contractors. While the 
initial thrust was developing a partnership between the Constellation 
program and the Agency's EVMS Working Group, the objective was to 
develop an Agency-wide EVMS that was validated by DCMA. When this EVMS 
is fully developed and validated, NASA's plan is to offer it to all 
Missions and Centers for single adoption. To gain support for the EVMS, 
NASA's strategy was to be a bottom-up approach to ``sell'' an 
enterprise solution and to build EVM competency through a series of 
training courses. Since October 2007, 1600 participants from all NASA 
Centers have attended 62 tailored EVM, scheduling, and budget courses.
    Based on the limited information briefed to the NAC on this topic 
thus far, the NAC Audit and Finance Committee believes that the 
Agency's work is on the right track. However, the Committee has some 
concern that the adoption of the EVM System being developed was not 
compulsory for all projects, programs, missions and Centers, even 
though the stated goal of the Agency Working Group was universal 
adoption. Having noted in our many ``fact finding'' sessions that 
there's a cultural tendency within NASA to ``go our own way,'' the 
Committee suggested in its report to the NAC at the October 2008 
meeting that the single solution being developed by the Working Group 
be adopted Agency-wide. Since the Office of the Chief Engineer and the 
EVMS Working Group were already heading in that direction, no formal 
recommendation was made at that time. The NAC will continue to monitor 
NASA's progress on this topic and provide recommendations, as needed.

                    Biography for Robert M. Hanisee

    Mr. Hanisee joined TCW in 1990. He has been a member of the Private 
Client Services Group since 1997 where he served as Chief Investment 
Officer and was in charge of Asset Allocation. From 1990 to 1996 he was 
Director of Research; from 1992 to 1998 he was Manager of the $1.2BYN 
Convertible Securities Group; from 1992 to 1996 he was Portfolio 
Advisor of Large Cap Equities Investment strategy; from 1992 to 1997 he 
was Chairman of the Equity Policy Committee; and from 1996 to 1998 
Portfolio Manager of the $155MYN Global Telecom Trust where he was 
responsible for conception, implementation and management.
    In January, 2004, Mr. Hanisee retired from his full time duties, 
but continues on a part time basis. His current TCW duties include 
membership on the Comprehensive Asset Allocation Committee and he 
continues to Chair various equity portfolio oversight committees. He 
continues to serve as a member of the Equity Policy Committee.
    Business experience prior to joining TCW: 1980-1990, President and 
Director of Research, Seidler Amdec Securities, Los Angeles, CA; 1974-
1980, Director of Research and Partner, Crowell Weedon & Co., Los 
Angeles, CA; 1971-1974, Director of Research, Stern Frank Meyer and 
Fox, Los Angeles, CA; 1968-1971, Senior Analyst and Group Leader, 
Merrill Lynch, Los Angeles, CA; 1966-1968, Trainee then analyst, JP 
Morgan Bank, New York, NY; 1959-1962, U.S. Army, Europe.
    Other financially related business experience: 1980-1990, 
Investment Banking: Completed over 20 public financings, including 
IPO's and secondary offerings, both equity and debt. Venture Capital: 
Involved in initial round and follow-on financing of five defense and 
technology VC startup's. Continued involvement with each through either 
board membership or financial consulting.
    Outside Boards and other business related activities: EDO Corp., 
New York, NY, NYSE Listed 1991 to 2007 (Edo was acquired by ITT Corp. 
in Dec., 2007): Chairman, Audit Committee; Member, Corporate Governance 
and Nominating Committee; Member, Compensation Committee; Chairman of 
the Board of Directors, 1994-1996. Orbital Sciences, Dullas, VA, NYSE 
Listed 2002 to present: Chairman, Audit Committee; Member, Corporate 
Governance and Nominating Committee. Titan Corp, San Diego, CA, NYSE 
listed. 1998 to 2005. (Titan was acquired by LLL on July 29, 2005): 
Chairman, Audit Committee. Space Computer Corp. Los Angeles, Privately 
held. 2004 to present: Member, Audit Committee. Davidson Companies 
(Privately held Investment Bank, Broker Dealer, headquartered in 
Montana. Member, Audit and Finance Committee; Member, Corporate 
Governance Committee; Chairman, Compensation Committee. Wavestream 
Corp, San Dimas, CA (Investor and board observer) 2003 to 2008. Other 
business and related activities: Jet Propulsion Laboratories, Pasadena, 
CA: Member, Commercialization Council 1999 to 2001. Al Mann Institute 
for Biomedical Engineering: Chairman, Commercialization Committee, 2001 
to 2003. NASA Advisory Council, Appointed 2005. Los Angeles Master 
Chorale: Member, Board of Directors, 2003 to present.
    Mr. Hanisee holds a BA in Economics from California State 
University at Northridge and an MA in Economics from the University of 
California at Berkeley. He is a Chartered Financial Analyst (CFA) and a 
member of the Los Angeles Society of Financial Analysts and the CFA 
Institute. He has taught financial analysis for aspiring CFA 
candidates. He is a member of the Dean's advisory council, Business and 
Economics Dept, California State University at Northridge.
    Mr. Hanisee is married to Denise Jamin Hanisee and is the father of 
six adult children.

    Chairwoman Giffords. Thank you, Mr. Hanisee. Dr. Colladay.

   STATEMENT OF DR. RAYMOND S. COLLADAY, CHAIRMAN, NATIONAL 
   ACADEMIES' AERONAUTICS AND SPACE ENGINEERING BOARD (ASEB)

    Dr. Colladay. Madam Chairwoman and Members of the 
Subcommittee, I appreciate the opportunity to appear before you 
this morning.
    Mentioning many aspects of the extraordinary performance of 
NASA in my formal testimony, I would like to concentrate and 
focus my remarks here on a concern over the general lack of 
attention being paid by NASA to technology development as a 
priority mission area.
    Because of budget pressures, NASA has largely backed away 
from the development of space technology as a mission. Once the 
decision was made to focus research and technology specifically 
on major development program needs by moving the resources to 
``mission areas'' it intended to serve, it became near-term 
oriented as risk reduction backstopping the hardware 
development. That isn't to say, of course, there isn't good 
technology coming from space science and exploration driven by 
known program needs, but that is not the opportunity-driven 
type of research and technology development that I believe NASA 
needs to pursue and has pursued in the past, that is, long-term 
research driven and defined by anticipating what future program 
managers will need well in front of requirements, and broad in 
scope, supporting civil space, not just NASA, and commercial 
space.
    NASA has inspired us with bold missions and spectacular 
accomplishments, and it needs to be investing in technology 
that continually seeks to transform the state-of-the-art 
capabilities and enable future missions that some day we know 
we will want to do if we only know how.
    NASA should revitalize advanced space technology 
development as a priority mission area of the Agency. It should 
engage the best science and engineering talent in the country 
wherever it resides, in universities, industry, NASA centers, 
other government labs, focused on world-class research and 
innovation and not driven by the need to maintain core 
competencies at the NASA centers. It should support not only 
future NASA missions but other government agencies and 
commercial space. So its customers are very similar to the 
broad scope of customers that its aeronautics program serves by 
enabling the broad aerospace community with advanced technology 
and development.
    That brings me briefly to aeronautics where there is 
extraordinarily good news this year, and the restructured 
program is pursuing fundamental research, stable, and providing 
excellent results. I am particularly pleased with the new 
emphasis on systems research in this year's request. The 
environmentally responsible aviation program builds on the 
progress of the base program and begins to address complex 
systems interactions accompanying the integration of technology 
to achieve lower fuel consumption, lower emissions, lower 
noise, improved safety, and greater air traffic system 
capacity, all extremely important to our country economically 
and in moving goods and services across the country.
    The bottom line I would say my concern is that there aren't 
sufficient resources not only for technology development in 
space and aeronautics, but the Agency has insufficient 
resources to accomplish what they, and I think the public, 
expect of them. I have looked--and every time I have looked at 
the resources against the program that NASA has on the books 
right now, I am led to the conclusion that they need 
approximately $22 to $23 billion to accomplish what is before 
them. And I think that is a--with that amount, it would compete 
reasonably in discretionary resource expenditures of the 
country.
    I look forward to answering any questions you might have 
later when we get to that part of the morning.
    [The prepared statement of Dr. Colladay follows:]

               Prepared Statement of Raymond S. Colladay

    Madame Chairwoman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today. My name is Ray Colladay and the 
personal views I express are shaped by my 40 years of experience in 
aerospace, through positions I have held in government, industry, and 
academia. I chair the Aeronautics and Space Engineering Board (ASEB) of 
the National Research Council (NRC) and although I have insights into 
NASA acquired through that position, my views are my own and do not 
represent an official position of the NRC.
    With your permission, I would like to submit my prepared testimony 
for the record and summarize my views for you here this morning, 
leaving sufficient time to answer any questions you may have.
    Civil, commercial, and national security space and aviation affects 
every part of our lives. It inspires, it facilitates a one-world 
community, it encourages training and education in science and 
engineering, it protects our future, and addresses the profound 
questions of our place in the universe--how did we get here and are we 
alone? NASA has demonstrated its ability to accomplish great things. It 
has a vision for the future for which there is general consensus in 
broad terms even as the finer details are debated. There are two 
fundamental questions that are pertinent to the subject of this hearing 
in dealing with NASA and its primary role of providing U.S. leadership 
in space and aeronautics: are the programs and the goals of the Agency 
the right ones for the nation to be pursuing?--which is to say is the 
path and the destination right? And are there sufficient resources to 
effectively implement the program and the vision being pursued? I would 
like to address both of these questions in my remarks this morning.
    There are a number of issues in the human space flight program that 
need to be untangled like what to do with the ISS beyond 2016; is the 
Constellation program headed in the right direction and does it have 
the commitment and support of this administration; is the timing for 
Shuttle retirement right; and are the replacement vehicles--Ares and 
Orion--the best approach to move beyond low-Earth orbit? The recently 
appointed Augustine Human Space Flight Review Committee will address 
these issues and present options charting a clear way forward.
    Until the disposition of the ISS is decided, there is a big hole in 
mission planning with uncertain out-year budget implications. The issue 
is not just are we going to keep the station beyond 2016, which seems 
likely given how much we have spent finally getting it assembled and 
ready for full occupancy, but more importantly, what are we going to 
use it for? This is a remarkable facility and a significant 
accomplishment in engineering design and on-orbit assembly. It is a 
modern-day example of cooperative program management on an 
international scale; not a simple feat. As we transition from the 
assembly phase to utilization, we should take full advantage of its 
utility for research to expand our knowledge of how to live and work in 
space. Having said that, however, the vision and destination for human 
space flight should be outward, beyond low-Earth orbit. The ISS is a 
way-point in that journey outward and I believe it will prove to be 
indispensable in learning to take the next steps.
    The NASA science program continues to amaze the world with its 
spectacular achievements. The science community has led the way in 
providing consensus views on planning and roadmaps for the future 
through its Decadal Surveys. We borrowed the technique on the 
Aeronautics and Space Engineering Board for the Decadal Survey of Civil 
Aeronautics in 2006. Others will address the state of space science and 
I will limit my remarks to a shared concern about cost growth in 
ongoing programs and projects that put other projects at risk and crowd 
out new-start opportunities.
    There are a number of reasons for cost growth on projects--from 
poor initial cost estimates to over-confidence in what can be done with 
constrained budgets to years of inadequate attention paid to advance 
space technology development. I would like to specifically address the 
last point. Because of budget pressures, NASA has turned away from 
putting a priority on advanced technology development, even though the 
Space Act of 1958 and every subsequent amendment calls for NASA to be a 
leader in R&D. Today the advanced technology base is so deficient it is 
costing us in lost opportunities to do bold things with more capable 
systems and is costing us valuable resources in overruns some of which 
could be avoided with a more robust technology base.
    Aeronautics is underfunded, but a broad-based, innovative advanced 
space technology development program that is organizationally 
independent of ongoing hardware development programs is nonexistent. 
The downward trend started soon after aeronautics and space technology, 
once logically managed together, were split apart. A decision soon 
followed to focus technology specifically on major development program 
needs by moving the resources to mission areas it intended to serve. 
Predictably, once all technology development was placed with the major 
development efforts it became near-term oriented as a risk reduction 
effort back-stopping hardware development. The Aeronautics and Space 
Engineering Board sponsored study on the Exploration Technology 
Development Program for Constellation done last year expressed concern 
on just that point of the need for more emphasis on longer-term 
research. With budget and schedule pressures as demanding as ever, the 
situation has not improved. Clearly, there is a need for focused, risk-
reduction technology that is defined by explicit mission requirements 
and funded by the mission office, but it does not fill the need for the 
Agency on a broader level to pursue long-term technology ``push'' well 
out in front of requirements and broad in scope supporting civil (not 
just NASA) and commercial space. An agency that has inspired us with 
bold missions and spectacular accomplishments needs to be investing in 
technology that continually seeks to transform state-of-the-art 
capabilities and enable future missions that some day we may want to 
do, if we only knew how.
    In DARPA, when I was Director, we sought to be disruptive with 
technology that challenges or disrupts conventional thinking and it is 
still doing that today. By setting up a healthy tension in an 
organization between technology push focused on long-term research and 
technology pull from programs, someone is always asking not only ``what 
for?'', but also ``what if?'' and ``why not?'' An advanced research and 
technology development mission of NASA would be exploring advanced 
launch systems in pursuit of low cost access to space; compact nuclear 
power systems; plasma-and other electric-propulsion concepts; energy 
storage technology; highly energetic propellants; affordable space-
based solar power systems; multi-spectral sensors; advanced space-based 
communications; closed-loop life-support systems; radiation shielding 
concepts; highly intelligent and mobile robotics--the list could go on 
with a host of other areas of research not being addressed in today's 
constrained environment. And you will not see requirements for such 
systems, because we do not write a requirement for something no one 
knows how to do.
    NASA should revitalize advanced space technology development as a 
priority mission area of the Agency. It should engage the best science 
and engineering talent in the country wherever it resides in 
universities, industry, NASA centers or other government labs focused 
on world-class research and innovation and not driven by the need to 
maintain ten healthy centers. It should support not only future NASA 
missions, but other government agencies and commercial space. The 
``customers'' for its technology products would be industry, NASA 
itself, other government agencies like NOAA, and military space where 
dual-use technology is applicable. Having this broad mandate would make 
it similar in the breadth of customers served to the NASA role in 
aeronautics with its heritage in NACA going back almost a century.
    That brings me to the aeronautics program where there is good news 
and bad. Aviation has a major impact on U.S. economic competitiveness 
and our leadership position in the world. No one questions that it is 
vitally important particularly in the U.S. in moving people and goods 
throughout the country and the world. The good news regarding the NASA 
aeronautics program is the restructured program in fundamental research 
is stable and providing excellent results. I am particularly pleased 
with the new emphasis in systems research in this year's request. The 
Environmental Responsible Aviation (ERA) program builds on the progress 
in the base research program and begins to address the complex system 
interactions accompanying the integration of technology to achieve 
lower fuel consumption, lower emissions, lower noise, improved safety, 
and greater air-traffic system capacity. These attributes, all 
desirable in isolation, tend to work against each other when integrated 
into a system. The newly formed category of Integrated Systems 
Research, of which the ERA program is the first in the category, 
enables NASA, in cooperation with industry and universities, to explore 
the system advances that will make aviation more energy independent and 
environmentally friendly. More resources in the out-years would be 
helpful. The Recovery Act funding that the Congress was able to add to 
the NASA aeronautics budget this year were very helpful in jump 
starting this important area of research and it is also being put to 
good use in facilitating the transition of NextGen focused technologies 
to the FAA.
    This year's budget request is very encouraging and a positive step. 
However, NASA's investment in aeronautics is a fraction of what it was 
just a short time ago, and that is the bad news. Ten years ago the 
aeronautics budget was over three times what it is today in equivalent 
full-cost accounting terms and today's dollars. Then, it was 10 percent 
of the total NASA budget. The Congress has consistently recognized 
inadequate funding for aeronautics by augmenting past administration 
requests, but unless that level is reflected in the run-out budget 
request by the administration, the research efforts at the higher level 
cannot be sustained, year-to-year. More resources would be helpful in 
areas of system-level testbeds and taking technology to higher 
readiness levels for the advances in the Airspace Systems and Aviation 
Safety programs in support of NextGen. Also, it would enable NASA to 
shift the balance of R&D to be a better blend of in-house and out-of-
house research with universities and industry--something the NRC 
Decadal Survey on Civil Aeronautics also recommended.
    Taking aeronautics and space technology together, an investment of 
at least ten percent of the total agency's budget for advanced 
aerospace technology development focused on forward-looking innovation 
is not unreasonable, in my view, for a government agency that has a 
mandate to help maintain U.S. leadership in aerospace science, 
engineering, research, and advanced technology development. One does 
not need to go too far back to a time when it exceeded that level.
    Coming full circle to my opening comment about having the right 
program content and the right amount of resources to implement it, I 
have touched on where I think some of the holes are in program content 
and underfunded technology and of course the Augustine Committee will 
untangle the big issues in human space flight. I must be perfectly 
clear that the areas I mentioned needing more funding cannot and should 
not be solved by transferring money from other parts of NASA. Every 
time I look at the current scope of the NASA program and consider what 
budget level it takes to do it right, I come up with a level of around 
$22-23 billion for the Agency. This figure is not based on a rigorous, 
detailed assessment, but a well-informed opinion. It would seem that at 
this level, NASA's space and aeronautics mission should compete 
favorably for discretionary resources against other priority national 
needs, particularly given how it supports many of those needs of broad 
national interest. Much less than that level of funding means something 
has to give--some combination of mission scope, program content, 
schedule, or institutional infrastructure. This subcommittee has taken 
aggressive steps in the past to recognize the need for increased 
funding for NASA. I hope the testimony given at this hearing is helpful 
in your deliberations on the FY 2010 budget.
    That completes the remarks I wanted to make and I would be pleased 
to take questions if you have them. Thank you.

                   Biography for Raymond S. Colladay

    RAYMOND S. COLLADAY is a retired corporate officer of the Lockheed 
Martin Corporation and the former President of the Lockheed Martin 
Astronautics company in Denver. Before entering the private sector, he 
held positions of Director of DARPA--the Defense Advanced Research 
Projects Agency of the U.S. Department of Defense and was Associate 
Administrator of NASA where he had senior executive responsibility for 
the Agency's aeronautics and space research and technology development 
including operations oversight of Ames, Langley, Dryden, and Glenn 
Research Centers. Dr. Colladay started his aerospace career at NASA 
Glenn Research Center in propulsion R&D before moving to NASA 
Headquarters where he held a number of leadership positions before 
being appointed Associate Administrator of the Office of Aeronautics 
and Space Technology. He has been a member of the Air Force Scientific 
Advisory Board and various Defense Science Board summer studies. 
Currently, he owns an aerospace consulting company, RC Space 
Enterprises, Inc.; teaches leadership and ethics for the Colorado 
School of Mines; and serves on a number of boards, steering committees, 
and commissions. He received his BS, MS, and Ph.D. degrees in 
mechanical engineering from Michigan State University and attended the 
Harvard Business School's Advanced Management Program. He is a fellow 
of the AIAA and of the American Astronautical Society. Dr. Colladay is 
Chairman of the Aeronautics and Space Engineering Board (ASEB) of the 
National Academies. He has two daughters and four grandchildren and 
resides in Golden, Colorado with his wife of 44 years.

    Chairwoman Giffords. Thank you very much. Dr. Moore.

STATEMENT OF DR. BERRIEN MOORE III, MEMBER, NATIONAL ACADEMIES' 
                   SPACE STUDIES BOARD (SSB)

    Dr. Moore. Madam Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear today on behalf of the 
Space Studies Board of the National Research Council chaired by 
Dr. Charlie Kennel. He regrets that he could not be here to 
provide testimony.
    In this verbal presentation, let me turn directly to your 
questions. First, what are the top priorities and issues that 
the House Committee on Science and Technology should consider 
in the upcoming multi-year NASA authorization legislation? In a 
word, balance. The convergence of pressures could significantly 
destabilize the overall program. Among these pressures are to 
complete and utilize the International Space Station, to retire 
and replace the Shuttle, to define a rational and realizable 
Moon-Mars exploration initiative, to execute a healthy science 
program including meeting the scientific challenges of climate 
change, and finally to restore and realize a healthy 
aeronautics program.
    All of these pressures gather in an overall NASA framework 
of 10 healthy centers and the Office of Management and Budget 
(OMB) 2011 level guidance on budget reductions. All of this 
strikes me, reflecting my mathematical background, as an over-
determined problem. It cannot all be done. What will give and 
how it will give is the central challenge facing the House 
Committee on Science and Technology and facing us all.
    Second, what are my perspectives on the key challenges and 
opportunities for space science and to what extent does the 
2010 budget address them? The 2010 budget is a significant 
improvement on fiscal year 2009, but we face real challenges. 
We simply must do more with less and/or do less with what is 
available, to concentrate the resources. We need to reduce the 
cost of doing business. Fewer managers managing managers. We 
need to utilize innovative ideas with significantly lower cost 
to obtain the needed observations. For instance, use 
alternative platforms like autonomous aircraft or high-altitude 
long-stay dirigibles. Use smaller spacecraft and simpler 
instruments. Avoid the perfect, being the enemy of the good. 
The opportunity is that with change and challenge, we might 
find the new path that leads to a greater net good by doing 
business differently but with honesty. No smoke and mirrors, no 
cute phrases, but do it honestly and with simplicity.
    Third, what are my perspectives on NASA's plans and 
budgetary outlook for accelerating the implementation of Earth 
Science Decadal missions, including the use of the Recovery Act 
funds. Unfortunately as my written testimony details, the best 
we can hope for is that the delays will be minimized. Almost 
all of the monies went to pay for increased costs in the pre-
Decadal missions, Glory, Landsat Data Continuity Mission, 
NPOESS Preparatory Project (NPP), the Global Precipitation 
Mission. If there had been a systemic change such as making the 
stimulus monies for Earth science a permanent rebudgeting, then 
the 2011 and subsequent increases on top of this new base would 
have provided the necessary profile to execute the Decadal 
missions. And I would like to call the Subcommittee's attention 
to Figure 1 in my written testimony.
    Simply stated that the hole that was dug for Earth science 
between 2000 and 2006 is simply too deep to crawl out of. It 
needs a strategic fix.
    Fourth, what are my perspectives on cost growth and 
schedule slips in NASA's space science and Earth science 
programs and their implications and NASA's approach to 
mitigating future occurrences? I fear that the fixes are too 
little and too late. We need to have the courage, political and 
otherwise, to terminate programs that grow excessively, but 
first we need to avoid these programs to start with. I believe 
that with a vigorous pre-phase A, that is significant up-front 
monies, for all of the missions, that that is essential. Then 
if the technical base is not clearly in hand and very realistic 
budgets available and agreed to, if those pieces are not there, 
then the mission is parked until it is ready to start. We must 
avoid doing something on quicksand or even sand itself. We need 
a granite foundation, preferably from New Hampshire, reflecting 
my previous life.
    Are there any other matters that need attention? There are 
two. NASA's monies must be multi-year on the commitment side. 
To go to a one-year commitment process I think would not be 
wise. And finally, there needs to be some consideration on the 
reduction in the number of NASA centers. The same could apply 
for National Laboratories. What was built in one era is not 
always useful or needed in the next. We have recognized this 
with military bases. Why not other national facilities?
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Moore follows:]

                Prepared Statement of Berrien Moore III

    Madam Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today on behalf of Space Studies Board (SSB) of 
the National Research Council (NRC), chaired by Dr. Charles Kennel. Dr. 
Kennel is also a member of the blue-ribbon Review of U.S. Human Space 
Flight Plans Committee. Dr. Kennel regrets that he could not be here to 
provide testimony today. I will try to cover most of the same key 
priorities, issues, challenges and opportunities for NASA's science 
programs that Dr. Kennel would have presented for you. Although I also 
serve on the SSB with Dr. Kennel, my views are my own and do not 
represent an official position of the NRC.
    With your permission, I will submit my written testimony for the 
record and recap briefly my views for you here this morning.
    NASA's science programs have been called the Agency's ``crown 
jewel'' and with good reason. They represent less than a quarter of 
NASA's annual budget and only three percent of the annual federal 
Research and Development (R&D) investment. For this relatively small 
investment, in recent years, NASA's science programs have provided: 
critical insights into global climate change and the management of 
Earth's resources; helped us understand and anticipate the impact of 
solar storms on our technological infrastructure; changed our views 
about the potential habitability of other worlds in our solar system 
and beyond; and revolutionized our understanding of the major 
constituents of energy and matter in our universe and its eventual 
fate. In a word, NASA's science programs have enriched our lives, 
strengthened our societies, and expanded our horizons.
    As you consider NASA authorization legislation for the coming 
years, it is important to keep in mind the potential opportunities that 
lie in front of the Agency's science programs. On the increasing 
strength of Earth science, we know can state that global warming is 
``unequivocal,'' \1\ but this simply sets the challenge. We need now to 
develop the capability to monitor and thereby manage greenhouse gas 
emissions through the this century and beyond, and concurrently, we 
need the capability to project with a quantitative understanding of the 
uncertainties the impact of climate change to at least the regional 
level, and thereby, provide essential information to help decision-
makers mitigate the varying impacts of climate change on local 
environments and populations.
---------------------------------------------------------------------------
    \1\ ``Warming of the climate system is unequivocal, as is now 
evident from observations of increases in global average air and ocean 
temperatures, widespread melting of snow and ice, and rising global 
average sea level.'' Fourth Assessment Report (Working Group One) of 
the intergovernmental Panel on Climate Change.
---------------------------------------------------------------------------
    In solar and space physics, joint observations from multiple 
spacecraft orbiting in the wake of the Earth may allow predictive 
models of space plasma and particle interactions to begin to unravel 
the physics of ``magnetic reconnection'' and thereby advance our 
understanding across a range of spatial scales and topics from fusion 
reactors to black holes. In planetary science, we will have an 
opportunity to follow-up on the discovery of liquid water environments 
on Mars and the moons of the outer planets and search for organic 
compounds and other past or present evidence of potentially life-
bearing environments beyond Earth. In astrophysics, we will have an 
opportunity to follow up on the discovery over the past decade of more 
than 300 planets outside our solar system and hence expand the search 
for planets `more like' our own Earth. There is also an opportunity in 
astronomy for NASA to cooperate with the physics community to build 
upon discoveries about the accelerating expansion of our universe and 
associated energy ``creation'' and thereby establish the necessary 
extended observational platforms to understand the nature of the now-
termed ``dark energy,'' which apparently dominates the energy budget of 
the universe and drives its expansion. And in life and microgravity 
sciences, the International Space Station (ISS) could provide U.S. 
researchers with their first permanent microgravity research platform.
    These are each unique opportunities during our lifetimes for the 
United States to demonstrate technical leadership, advance the state of 
scientific knowledge for humanity's benefit, and leave important 
legacies for future generations. In stating this, I clearly recognize 
the significantly challenging economic environment, and I am well aware 
of the out-year budget constraints and recent ``Guidelines.'' \2\ The 
times call for careful setting of priorities; I present this testimony 
in the knowledge of this necessity.
---------------------------------------------------------------------------
    \2\ OFFICE OF MANAGEMENT AND BUDGET; June 11, 2009; MEMORANDUM FOR 
THE HEADS OF DEPARTMENTS AND AGENCIES: Planning for the President's 
Fiscal Year 2011 Budget and Performance Plans.
---------------------------------------------------------------------------
    When considering authorization legislation for the Agency, it is 
also important to keep in mind how NASA's science programs can be 
employed as a tool to address national priorities outside the 
scientific enterprise. For example, in foreign affairs, NASA's science 
programs have a long history of international cooperation with partners 
in Europe, Japan, Russia, and Canada. With a number of new space powers 
emerging around the globe, NASA's science activities provide an 
opportunity to engage countries like China and India in peaceful, 
scientific pursuits that could encourage transparency in their space 
programs. Because they are a demanding consumer of new technologies, 
NASA's science programs also help address economic competitiveness by 
driving new developments in critical technologies like instrumentation, 
autonomy, communications, and data management. And the exciting 
discoveries made in NASA's science programs are particularly 
inspirational to youth and easily shared with the Internet and smart 
phone generation, a potentially important source of new engineers and 
scientists for our economy. In past legislation, Congress has 
recognized the value of sharing the adventure of space research via new 
virtual methods and should continue to do so.
    To realize these opportunities, a number of critical issues must be 
addressed and challenges met. Arguably the largest issue is restoring 
or at least maintaining the balance of funding between NASA's science 
and human space flight activities. Several years ago, over $3 billion 
was eliminated from the Science Mission Directorate budget to help pay 
for return-to-flight, Space Shuttle retirement, and the Constellation 
Program. This eliminated the projected growth in NASA's Science Mission 
Directorate and exacerbated what had already been dangerous downward 
trends in portions of the science portfolio. For example, after 
accounting for structural changes in how NASA categorized its budget, 
the 2007 National Research Council Earth science and applications from 
space ``decadal survey'' \3\ documented that support for the overall 
effort for Earth observations and the associated science in NASA was 
reduced by more than 30 percent between 2000 and 2006 (see discussion 
below).
---------------------------------------------------------------------------
    \3\ National Research Council, Earth Science and Applications from 
Space: National Imperatives for the Next Decade and Beyond (2007), 
http://www.nap.edu/catalog.php?record<INF>-</INF>id=11820#toc
---------------------------------------------------------------------------
    Across the Agency, reductions in science support led to the 
deferment of multiple missions, painful program restructurings, 
dramatic reductions in research grants, and the elimination of many 
technology investments. A recent report by the Congressional Budget 
Office warns that estimates of the cost of NASA's Constellation Program 
through the first manned lunar landing have risen from $57 billion to 
$92 billion, and may reach $110 billion. Although the Review of U.S. 
Human Space Flight Plans Committee is tasked with developing an 
affordable and sustainable human space flight program that fits within 
the current budget profile for NASA's human exploration activities, it 
is a very difficult task and does not guarantee that NASA's human space 
flight programs will not encounter unanticipated problems and future 
cost growth. To ensure the productivity of NASA's science programs, it 
is important that any future growth in human space flight costs not 
impact the already flat science budget. In the past, budgetary 
``firewalls'' have been erected to protect other parts of the NASA 
budget from cost growth in human space flight programs, and Congress 
may want to consider such measures in the future. In doing so, Congress 
may need to ensure that such firewalls are actually honored.
    A related issue is the question of ISS utilization and NASA funding 
for microgravity research. While a number of the long-promised ISS 
research facilities are available or will become available in the next 
year, the number of U.S. investigators currently in a position to 
exploit the potential of these facilities is very limited. The NASA 
programs that supported the development of investigations to use these 
facilities were either canceled or severely cut in the middle of this 
decade. From 2004 to 2008, the number of life and microgravity science 
investigators supported by NASA fell from 769 to 230, a 70 percent drop 
overall with physical sciences research dropping by 90 percent. Many of 
the small number of U.S.-sponsored ISS investigations that remain were 
preserved by congressional intervention. Although Congress has 
designated the ISS as a national research laboratory to encourage its 
utilization by other federal R&D agencies, Congress should keep in mind 
that NASA's role, which has declined significantly, in supporting the 
life and microgravity sciences community to make effective use of ISS 
remains central and limited. As a consequence, the former research 
community has largely dissipated, and there are many questions about 
how high quality research can, or will be, solicited and supported 
during the window of opportunity we are now entering for ISS 
utilization.
    Turning to the other science-related studies, per Congressional 
request, the NRC is currently undertaking three decadal surveys--in 
astronomy and astrophysics, planetary science, and biological and 
physical science in space. Upon completion, these surveys will have 
reached community consensus on research priorities that can inform 
NASA's planning processes and congressional and White House decision-
makers. Each of these surveys incorporates inputs from hundreds of 
researchers. I strongly encourage Members of Congress to closely review 
these decadal survey reports when they are released, invite their 
leadership to brief you and your staffs, and reflect their priorities 
in your legislation wherever possible.
    Within NASA's Science Mission Directorate, Earth science is 
arguably one of its most critical functions and a source of some of 
NASA's greatest contribution to the Nation. It is also an area where a 
Decadal Survey had profound impact. As one of the co-leaders of the 
Earth Science Decadal Survey,\4\ I applaud Congress's subsequent 
increased support for NASA's Earth science program. This support was 
and is needed.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    As noted earlier, despite the wealth of information that NASA's 
Earth observation research has supplied on understanding climate 
change, much more is needed. The challenge is growing and will not go 
away; climate change is not a problem de jour. Recognizing the need for 
increased information, the 2009 Recovery Act was targeted to accelerate 
implementation of the Earth science decadal missions. I believe that 
NASA used this money primarily to pay for cost overruns and delays in 
the existing program, (e.g., LDCM, GPM, and Glory), which could be 
argued indirectly accelerates (or rather does not further delay) the 
decadal missions. It could also argue that it rewards poor management.
    The Earth science budget in the President's FY 2010 request is a 
marked improvement over the early budgets. However, it remains 
inadequate, particularly in the out-years and well below the 
recommended profile from the Decadal Survey. The following Figure 
highlights the difficulty (see also Attachment One).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On the current path only four (SMAP, ICESat-II, DESDynl and 
CLARREO) of 15 missions recommended by the NRC's Earth Science decadal 
survey will be launched before 2020. This mission backlog, which I 
believe the Nation can ill afford, has been exacerbated by the recent 
loss of the Orbiting Carbon Observatory mission and continuing delays 
in NPP. Where funding can be added to the NASA science budget, Congress 
should consider accelerating the remaining missions from the Earth 
science decadal survey. Congress may also want to consider encouraging 
NASA to explore more rapid means of obtaining key measurements from 
space by utilizing smaller spacecraft wherever possible.
    Finally, I note that Congressional add-ons can add further stress 
to the budget:

        <bullet>  An additional $9 million was marked to refurbish the 
        DSCOVR spacecraft's Earth science instruments, even though 
        DSCOVR did not rise to the very high bar set by the decadal 
        survey. (The survey did note that the space environment sensors 
        on DSCOVR would fulfill the pressing need for an operational 
        replacement of the instruments on the aging ACE spacecraft).

        <bullet>  Last year Congress directed NASA to spend $10 million 
        to initiate development of the TIRS instrument. The FY10 budget 
        indicates the LDCM project is now carrying ``between $150-
        175M'' to accommodate TIRS. Although very desirable, the cost 
        for TIRS comes at the expense of the recommended program.

        <bullet>  In a separate area, I question the logic in this cost 
        environment of spending whay may eventually amount to $50 
        million to undertake the feasibility of the Constellation 
        architecture facilitating service missions to future 
        observatory-class science spacecraft.

    In closing my extended discussion on Earth science, let me note 
that there are major strategic issues in Earth science and the 
associated observations which remain open as we consider how best to 
provide the needed information to respond wisely to climate change. In 
the decadal survey, we recommended that:

        <bullet>  The Office of Science and Technology Policy, in 
        collaboration with the relevant agencies, and in consultation 
        with the scientific community, should develop and implement a 
        plan for achieving and sustaining global Earth observations. 
        This plan should recognize the complexity of differing agency 
        roles, responsibilities, and capabilities as well as the 
        lessons from implementation of the Landsat, EOS, and NPOESS 
        programs.\5\
---------------------------------------------------------------------------
    \5\ I note that Congress is seeking a similar report (See 
Attachment One--Congressional Record).

    The need for this overall Earth observing plan remains.
    Returning to the many cross-cutting issues that affect NASA science 
programs broadly, one of the most critical is mission cost growth. I 
touched upon the issue of cost growth in my Earth science discussion 
above, but it is hardly an issue for Earth science alone; it is an 
issue that has plagued many of NASA's programs for a long time. It is 
important to note the obvious: the problems induced by cost growth can 
become acute within a flat budget environment. To pay for cost growth 
on one mission, the funding for other missions is often deferred, 
leading to schedule slippage and potential gaps in the overall research 
enterprise. For example, a recent NRC mid-decade review of NASA's solar 
and space physics programs found that very little of the recommended 
priorities from the prior decadal survey will be realized during the 
decade in question--threatening the status of the survey's integrated 
research strategy--partly because cost growth on some missions has 
delayed their launch as well as the development of other missions. The 
effect can be and usually is cascading.
    There are numerous different explanations for why cost growth 
occurs, and the pathologies are different for each mission. Some 
causes, such overly ambitious science measurements and technology 
assumptions, are self-inflicted. NASA's Science Mission Directorate is 
taking some steps to correct these issues. One of the long-standing 
axioms of program management is that it is necessary to spend a 
significant amount of money on a program in the early concept stages in 
order to better understand the technology and engineering requirements 
and tradeoffs.\6\ NASA is now doing this for some of its missions. NASA 
and the NRC are also requiring independent cost estimates--as opposed 
to estimates produced by a mission's advocates--in the current round of 
decadal surveys to improve the overall planning process and help to 
keep mission proposals honest. The NRC is also starting a 
congressionally-mandated study of the causes of mission cost growth and 
possible ways to remediate it that may inform future cost management 
strategies.
---------------------------------------------------------------------------
    \6\ In the Earth Science Decadal Survey, we explicitly called for 
extended and early Phase A studies to provide early understanding of 
the technology readiness issues.
---------------------------------------------------------------------------
    However, it is important to also point out that some causes of cost 
growth originate outside NASA. The engineering development of each 
mission has a most efficient path to follow, and stable, adequate 
funding is critical to keeping that efficient path in place. If 
Congress and the White House do not provide stable, adequate funding 
levels, the schedule for mission developments are often stretched out, 
leading to increased mission costs. As discussed above, this has 
occurred in the Earth science program; the NRC mid-decade review of 
NASA's solar and space physics programs also found that instability in 
the funding for NASA's Solar-Terrestrial Probes Program was a key cause 
of mission cost growth. The budget resources that the White House and 
Congress provide to NASA must match not only mission objectives, but 
also how, where, and by whom a mission will be developed and carried 
out.
    An issue related to cost growth is the balance between different 
sizes of missions. The NRC's decadal surveys universally recommend a 
mix of small, medium, and large missions in each research area. This 
allows a field to pursue difficult, long-term, but highly rewarding 
research goals that usually require missions costing a billion dollars 
or more, while still infusing the field with new data from regular 
missions costing hundreds or even tens of millions of dollars. 
Unfortunately, cost growth on large missions can reduce or eliminate 
opportunities for frequent, innovative, and risk-taking research by 
eliminating small mission opportunities, such as NASA's Discovery, Mars 
Scout, Explorer, and sub-orbital programs. This problem is especially 
acute where a single large mission development, like the James Webb 
Space Telescope in astrophysics or the Mars Science Laboratory in the 
Mars Exploration Program, dominates spending for a particular field or 
program.
    Congress should be vigilant about mission balance in NASA's science 
programs, encourage NASA to take proactive steps to avert cost growth 
on large missions as early as possible, protect funding for smaller 
mission opportunities where possible, and restore funding for smaller 
mission opportunities when they are temporarily reduced. The NRC is 
currently undertaking two studies, on suborbital and mission-enabling 
activities, that will provide additional advice on those NASA programs 
that provide smaller, more frequent research opportunities.
    Another cross-cutting issue that has emerged in several recent NRC 
reports is the importance of investments in technology development 
independent of science flight missions. NASA had such programs in the 
past, but they were largely eliminated due to other budget demands. My 
colleague, Ray Colladay, has covered this issue in detail in his 
testimony, but its importance to NASA's science programs should be 
noted. There are numerous technologies that are essential to 
accomplishing the goals established by the decadal surveys that are 
currently at relatively low technology readiness levels. Attempts to 
develop these technologies within flight mission development projects 
increase the chances that the missions will go dramatically over 
budget. In addition, it limits the ability of these technologies to be 
adapted to a broader set of missions. NASA managers are often reluctant 
to create separate technology development programs because of concern 
that they become unfocused and also because they are easy targets for 
budget cuts when flight programs overrun. However, there is no reason 
that a well-run and tightly focused technology development program will 
not work. Congress should encourage NASA to make necessary technology 
investments in advance of mission development starts and protect those 
investments when they are well-managed and productive.
    An issue that has repeatedly appeared in NRC reports on NASA's 
science programs is the shrinking availability and affordability of 
launch vehicles. This problem is most acute for medium-sized science 
payloads that have relied in the past on the workhorse Delta II launch 
vehicle. As the Air Force moves the Global Positioning System (GPS) to 
Evolved Expendable Launch Vehicles (EELVs), there may not be enough 
business to maintain the Delta II line in an operational or affordable 
state. NASA is encouraging the development of potentially affordable 
alternatives to the Delta II through its Commercial Orbital 
Transportation Systems (COTS) program, and these efforts should receive 
Congress's support. If these efforts do not come to fruition, NASA will 
either have to make potentially unacceptable technical compromises to 
fit medium-sized missions on smaller launch vehicles, or pay 
unnecessary and much higher costs to launch medium-sized missions on 
larger launch vehicles.
    Finally, NASA is both a research and advanced technology 
development agency. As such, it must continue to have multi-year budget 
authority (subject to the availability of funds). This is essential.
    Like any cutting-edge, highly technical endeavor, NASA's science 
programs face a number of issues, from both within and without, that 
must be addressed in a forthright manner to maintain the high 
productivity of the U.S. civil space program's ``crown jewel.'' I hope 
my testimony provides you with useful advice on some of the important 
steps that can be taken to meet these challenges. Given the remarkable 
advances in NASA's science programs over the past decade, the 
relatively small investment required, and the opportunities we 
anticipate in the coming decade, such steps are well worth the effort.
    This completes my prepared remarks and I am happy to answer any 
questions the Subcommittee may have. Thank you.

Attachment One

                        Issues in Earth Science

    The Decadal Survey Committee concluded that the recommended NASA 
program could be accomplished by restoring the Earth science budget in 
real terms to where it was in the late 1990s. To track progress since 
release of the decadal survey, we've continued to update the budget 
figure shown in the report's Chapter 2. This graph shows--in constant 
year (2006) dollars--how the NASA Earth science budget has fared over 
time. It corrects for inflation and accounting changes that have been 
made over the years, such as the switch to full-cost accounting and the 
latest change to separately account for so-called ``cross-cutting 
programs'' (which fund center operations). This has been done because 
it puts the budget request in context, and this is needed to compare 
budgets from different years in an apples-to-apples fashion. The gray 
portion shows the previously enacted budgets and the FY09 request; the 
President's FY10 request is shown in purple and includes the $325M that 
Congress directed to Earth science in the Recovery. Even with this one-
time significant infusion of funds, the program is falling short of 
what the Decadal Survey Committee recommended. The gap between the 
recommended funding level and out-year projections is both large and 
persistent. The NASA Earth science program requires an on-going 
commitment of funding at a higher level if it is to make needed 
progress on the decadal survey. The program is doing what it can with 
the resources it has been given--however it has not been given enough 
to accomplish all that is expected of it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


On accelerating decadal survey missions

    The latest budget has the first decadal survey mission (SMAP) 
launching in late 2013 or early 2014, with a second (ICESat-II) 
launching in late 2014 or early 2015. In contrast, the decadal survey 
had recommended launching four missions by 2013. It is my understanding 
that CLARREO is to be launched in 2019 (12 years after the release of 
the Decadal Survey). So, what happened? Put simply, the needed budget 
increase did not happen and existing programs overran. To remain within 
the allocated profile, NASA stretched out the program.
    The Stimulus monies, even though it states an objective of 
accelerating decadal survey missions, does not seem to be having the 
intended effect, unless one argues that it prevented further delays. 
Tracking NASA's weekly reports on its recovery act web site, it does 
not appear any activity has occurred related to the decadal survey 
missions; indeed the FY10 budget indicates SMAP and ICESat-II will 
likely slip rather than accelerate. Perhaps there is more detail in the 
operations plan that NASA has been preparing, but this is not yet 
public.

Thoughts on Cost Growth & Schedule Slips

    As noted in my testimony, schedule slips and cost growth go hand-
in-hand. Changes or increases in scope also tend to be associated with 
both cost growth and schedule slips. Simply put, the NASA Earth Science 
program cannot afford any of the above. As mentioned earlier, the 
program does not have enough funding to accomplish all that is expected 
of it in a reasonable time frame. When existing missions grow beyond 
their allocated budgets, the situation becomes that much worse.
    Glory's cost grew between the FY09 and FY10 requests as its launch 
was delayed from March 2009 to January 2010. This brings its 
development cost estimate to $296M, compared with $259M back in 2008. 
In terms of life cycle cost, in the last two years it has grown ?$90M.
    NPP's launch was delayed again from June 2010 until January 2011 
due largely to the late delivery of the VIIRS instrument--the mission 
was originally supposed to launch in late April 2008. So, instead of 
NASA Earth science program costs for NPP decreasing as the mission 
transitions into operations, they are increasing to cover the extended 
development phase. The change between the baselines development 
estimate (from 2008) to that reported in the FY10 budget is greater 
than $130M.
    GPM and LDCM are also slipping to the right. What is more troubling 
is that these two missions are still in formulation. Each of these 
missions, when you add up the appropriations lines projected through 
2014 is at least on the order of $850M (each). It is important to note 
that some of the cost growth for LDCM comes from unfunded and costly 
Congressional mandates.
    Cost growth in the existing program and early decadal missions 
greatly imperils the decadal vision, which requires multiple 
measurements covering all aspects of the Earth system. Allowing 
individual missions to grow in scope at the expense of the program 
means important missions and measurements will be lost or deferred and 
intended synergies will be lost. In the decadal survey, we explicitly 
recommended a firm triage: missions that grow significantly in budget 
need to be parked in the breakdown lane until they can be placed 
through descopes or other strong management actions on a more reasoned 
and restrictive budget profile. If this is not done, the existing 
program or early decadal missions will block the realization of the 
overall program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Giffords. Thank you very much, Dr. Moore. Mr. 
Stevens.

    STATEMENT OF MR. J.P. STEVENS, VICE PRESIDENT FOR SPACE 
        SYSTEMS, AEROSPACE INDUSTRIES ASSOCIATION (AIA)

    Mr. Stevens. Thank you, Chairwoman Giffords, Ranking Member 
Olson, and Members of the Committee. I really appreciate the 
opportunity to testify before you today.
    AIA is the largest aerospace association in the United 
States. We represent nearly 300 manufacturers, over 660,000 
highly skilled jobs, and we indirectly support over two million 
middle-class jobs and 30,000 suppliers from all 50 States. Our 
member companies also routinely post the Nation's largest 
manufacture and trade surplus. We appreciate the efforts of 
Congress to keep the U.S. Space Exploration policy on schedule. 
This policy remains essential to reducing the U.S.-human space 
flight gap between the retirement of the Shuttle and the launch 
of Ares-1 and Orion.
    NASA Science Directorate provides us a better understanding 
of our Earth and universe and NASA's aeronautics research 
development projects are crucial to the completion of the next 
generation air transpiration system.
    Additionally, NASA's endeavors remain an inspiration for 
our youth to enter our workforce. We strongly support the 
current proposed NASA budget of $18.7 billion. However, we are 
concerned about the out years which are completely flat through 
2013.
    In addition to ensuring stable and robust funding, we make 
the following observations and recommendations. In the area of 
explorations, we believe the current policy should be given the 
support it is needed to keep on schedule. Over the past five 
years, the Constellation Program has moved forward, and a great 
deal of progress has been made. It is now bending metal, it is 
conducting critical tests, it has produced many jobs that are 
not only shovel-ready, they are also brain ready.
    While we are pleased with Constellation, we are concerned 
about a couple of other programs. The budget request only 
provides $25 million a year for Ares-5 and zero funding for the 
lunar lander. Without moving forward on these vehicles, NASA 
and industry run the risk of losing thousands of jobs forever.
    Another important element to our Space Exploration policy 
is the International Space Station which is almost complete and 
could be conducting possibly ground-breaking research in the 
very near future. It will also provide valuable lessons for our 
future voyages as it functions much like a test lunar outpost 
or a test long-duration spacecraft. Most importantly, the 
International Space Station is a prime example of international 
cooperation in space. We urge the Committee to maintain the 
International Space Station at least through 2020 without 
taking away from other critical NASA programs.
    We also recommend Congress to continue to support NASA's 
use of commercial launch services and on-orbit services to the 
International Space Station when they are available.
    In the area of NASA Science and Earth Observations 
Programs, we believe NASA's Science Mission Directorate is 
doing important work given the current concerns about global 
climate change. A healthy science program provides valuable 
information about the cosmos, and NASA's Science and climate 
change research and development programs provide NOAA with 
operational weather and climate monitoring satellites. We ask 
Congress to provide stable funding required to sustain these 
and our next generation systems.
    In regards to aeronautics, AIA believes that NextGen is 
critical to continuing the decrease in the environmental impact 
of aviation. Innovative engine design, air frames, avionics, 
and materials have resulted in a 75 percent reduction in noise 
and a 70 percent improvement in civil aviation fuel efficiency. 
These advances spurred by NASA-funded R&D have brought the 
aerospace industries a long way, and the mission directorate 
has been responsible for safety and efficiency initiatives that 
have saved countless lives.
    The fourth area I would like to address is workforce. AIA 
member companies are investing an average of $10 million a year 
on STEM education, including Team America Rocketry Challenge 
which is the largest rocket contest in the world. Despite the 
opportunities NASA's education programs aspire to inspire our 
youth, we are disappointed with the President's request for 
NASA education initiatives which is $43 million below the 
fiscal year 2009 enacted funding level.
    The last area is commercial space launch indemnification 
which will expire at the end of this year. Over the past 20 
years, competition from foreign providers who all benefit from 
some sort of government indemnification has grown 
significantly. We believe that elimination of U.S. Government 
indemnification will drive even more launch business overseas. 
We recommend Congress remove the current gap of $1.5 billion 
and eliminate the sunset provision. At a minimum, we request 
indemnification be extended another five years.
    In conclusion, space technology has become an important 
part of our economy, our national security, and our future. 
NASA stands front and center as the most visible representation 
of the U.S. Space Program. Its continued work deserves the 
support from this Committee and Congress. And I thank the 
Committee for their time and attention. I would be happy to 
answer any questions.
    [The prepared statement of Mr. Stevens follows:]

                   Prepared Statement of J.P. Stevens

Introduction

    Good morning Madame Chairman Giffords, Ranking Member Olson and 
Members of the Subcommittee. I am grateful for the opportunity to 
testify before you today on such an important topic as the NASA 
Reauthorization bill.
    As the largest aerospace trade association in the United States, 
the Aerospace Industries Association (AIA) represents nearly 300 
manufacturing companies with over 660,000 high-wage, highly skilled 
aerospace employees across the three sectors: civil aviation, space 
systems and national defense. This includes over 140,000 workers who 
make the satellites, space sensors, spacecraft, launch vehicles and 
ground support systems employed by NASA, DOD, NOAA, NRO and other 
civil, military and intelligence space efforts. Our member companies 
export 40 percent of their total output, and we routinely post the 
nation's largest manufacturing trade surplus, which was over $57 
billion in 2008. Aerospace indirectly supports two million middle class 
jobs and 30,000 suppliers from all 50 states. The aerospace industry 
continues to look to the future, investing heavily in research and 
development, spending more than $100 billion over the last 15 years.
    AIA appreciates the efforts of the Congress to keep the 
requirements of the Nation's historic U.S. Space Exploration Policy on 
schedule. The policy remains essential to reducing the U.S. human space 
flight gap between the retirement of the Shuttle and the launch of the 
Orion-Ares I, as well as completion of and access to the International 
Space Station. NASA's Science Directorate provides a better 
understanding of our Earth and the universe. NASA's Aeronautics 
Research and Development endeavors are crucial to the completion of the 
Next Generation Air Transportation System (NextGen) and continued 
efforts to reduce aviation's environmental impact. Additionally, NASA's 
work remains an excellent inspiration for our youth to study science, 
technology, engineering and mathematics and to enter our aerospace 
workforce on which much of our nation's transportation, security and 
satellite infrastructure depend.

Recommendations for the 2009 NASA Reauthorization Bill

    AIA was extremely pleased with the 2008 NASA authorization bill and 
the overwhelming bipartisan support it received. As this committee 
works to shape NASA's policies moving forward, AIA would like to see 
continued support across all of NASA's mission directorates. NASA's 
budget must continue to reflect both adequate and stable.
    We strongly support the current proposed NASA budget of $18.7 
billion, as we believe this is an excellent starting point for NASA 
funding over the next several years. However, going forward the 
President's budget is completely flat through 2013. We ask for 
Congressional support in communicating to the Administration the need 
for a more robust NASA budget over the next several years. We urge the 
committee to have policy drive the budget, rather than have the budget 
drive policy.
    We are also very concerned about the recent House Appropriations 
Committee decision to withhold increased funding for human space 
exploration pending the results of the Augustine Committee on the 
future of the U.S. manned space flight missions. Given the implications 
of delaying our space flight program further, AIA is concerned about 
any delays that withholding this funding may cause. Our main question 
is: from where will the additional funding come if the Augustine 
Committee recommends that NASA continue to stay on course? We fear that 
no additional dollars will be available from the appropriations 
committee and progress on this important program will yet again be 
delayed.
    In addition to ensuring a strong and balanced budget, AIA makes the 
following recommendations on specific areas that should be addressed in 
the authorization bill.

Recommendation 1: Keep U.S. Space Exploration Policy a Priority

    Both the U.S. Space Exploration Policy and the Constellation 
Program should be treated as national priorities and given the support 
needed to keep development on its current schedule and to minimize the 
impending gap in U.S. human space flight.
    In January 2004, NASA adopted new far-reaching goals that point 
toward a next generation human spacecraft, returning humans to the moon 
and looking toward Mars and destinations beyond. Our industry finds 
these goals thoughtful, technically feasible and marked with reasonable 
milestones. Over the last five years, the Constellation program has 
steadily moved forward and a great deal of progress has been made. NASA 
has weighed the options on how to best accomplish its goals, designed a 
strategy and architecture, has awarded several major contracts, and 
along with industry has lined up the talented individuals needed for 
these tasks. The Constellation Program is ``bending metal'' and 
conducting critical tests. This has produced jobs that are not only 
``shovel ready'' but also ``brain ready.''
    While AIA is pleased with the progress of Constellation so far, we 
are deeply concerned about the budgetary implications for the future of 
the program. The FY 2010 budget request for NASA provides only $25 
million a year for the Ares V heavy-lift vehicle and zero funding for 
the lunar lander. Even small delays to current plans may cause NASA and 
the aerospace industry permanent loss of human capital and reduce 
options for retaining the specially trained and skilled workforce from 
the retiring Shuttle program. Without moving forward on these vehicles 
NASA and the space industry face losing a workforce with vital and 
unique skill sets to non-space projects or even to other industries. 
Those taking jobs elsewhere may not return should future jobs in our 
industry become available.
    Another important element to our national space exploration policy 
is the International Space Station. Final completion of the station is 
approaching and its crew capacity is now at six. This U.S. National 
Laboratory is ready to conduct unique and possibly ground-breaking 
research. The ISS will provide valuable lessons for future voyages to 
the Moon and beyond, as it functions much like a lunar outpost or a 
spacecraft on a long duration flight. Most importantly, the ISS is a 
prime example of international cooperation in space. Sharing expertise 
and costs with other nations will be critical for future long-duration 
space missions and the ISS provides a platform to continue to build 
international cooperation.
    We urge the Committee to maintain the ISS at least through 2020 by 
authorizing the appropriate levels of funding without taking away from 
other critical NASA mission objectives. We also recommend Congress 
continue to support NASA's use of commercial launch services and on-
orbit services to the ISS when they are available.

Recommendation 2: A Robust NASA Science Program and Addressing the 
Nation's Earth Science and Earth Observation Programs
    The work being done in NASA's science mission directorate is 
another critical mission area for NASA, particularly given the current 
political and scientific concerns about global climate change. NASA's 
science program is perhaps best known for its host of satellites and 
robotic probes that have combed the outer limits of our solar system. A 
host of early satellites preceded our human space flights. The Ranger 
and Surveyor series preceded our Apollo astronauts to the Moon. And we 
have rovers on Mars and probes that have visited or are en route to all 
the planets in our solar system. These programs are a necessary 
precursor to human space exploration and must be sustained.
    A healthy science program at NASA not only provides valuable 
information about the cosmos, but also crucial data on the Earth's 
ecosystem. NASA's earth science and climate change research and 
development programs provide NOAA with valuable operational weather and 
climate monitoring satellites.
    It is incumbent upon Congress to provide a stable level of funding 
required to sustain robust, operational monitoring systems and 
investing in next generation, R&D Earth observation systems. Further, 
the NASA authorization bill should continue to provide the framework 
for the transition of these R&D programs to operational status whenever 
possible, and Congress should provide OSTP, NASA and NOAA every tool 
necessary in developing a process to appropriately transition these 
missions. Private sector capabilities should also be employed to the 
maximum extent possible to enable improved delivery of observations and 
decision support tools.

Recommendation 3: A Healthy NASA Aeronautics Program

    Historically, AIA and academic research organizations have 
expressed concern over the amount of focus placed on NextGen-related 
research and development. While NASA is uniquely positioned to 
undertake this crucial R&D work, the Aeronautics Research Mission 
Directorate (ARMD) has failed to keep pace with NextGen R&D 
requirements to date, leaving FAA to fill the breach. NextGen is 
critical to continuing the dramatic decrease in the environmental 
impact of aviation by applying technology and operational improvements 
that lower emissions. Federal R&D funding is the cornerstone of the 
advancement of NextGen, with NASA doing work that is then directed to 
FAA or to industry for further refinement.
    Addressing climate change is high on everyone's agenda, including 
those of us in aerospace. We at AIA see NextGen and environmental 
improvement as inseparable. Delays in today's air traffic control 
system result in millions of gallons of fuel wasted annually. For 
instance, more than 4.3 million hours of delays in 2007 consumed an 
additional 740 million gallons of jet fuel, costing carriers more than 
$1.6 billion.\1\ This produced approximately 7.1 million metric tons of 
carbon dioxide.\2\ Manufacturers are designing and building 21st 
century aircraft. However, our air traffic system has not moved into 
the 21st century--it is virtually the same system in which the noisier, 
dirtier aircraft of the 1960s flew.
---------------------------------------------------------------------------
    \1\ Your Flight Has been Delayed Again, Delay measurement excludes 
padding of block times to increase on-time performance; p. 3.
    \2\ Ibid., emissions during taxi and flight time, p. 5.
---------------------------------------------------------------------------
    NextGen transformation is key to amplifying aviation's progress in 
reducing noise and emissions concerns, which are major issues in local 
communities. Innovative engine design, airframes, avionics and 
materials have all resulted in a 75 percent reduction of noise and 70 
percent improvement in civil aviation fuel efficiency since the late 
1960s. These technological advances, spurred by NASA-funded R&D, have 
brought the aerospace industry a long way, and we are accelerating our 
programs. NextGen will build on that progress, which is a particular 
challenge given projected traffic growth and global concern about 
aviation's effect on the environment.
    AIA is pleased to see NASA directing effort towards Integrated 
Systems Research, which should include modeling and simulation work. 
This work will greatly expedite NextGen and its layered implementation, 
including incorporating Unmanned Aerial Systems (UAS) into the civil 
airspace. Once NASA and the implementation agencies identify the 
development priorities, industry is committed to leverage its full 
arsenal of expertise towards the development of the NextGen system.
    Moving forward, AIA remains concerned with the Administration's FY 
2010 budget request and is committed to working with NASA to pursue 
mutually beneficial research initiatives. Dating back to the early days 
of NASA aviation aeronautics R&D, the mission directorate has been 
responsible for revolutionary safety and efficiency initiatives that 
have saved countless lives. We appreciate this committee's 
acknowledgment of this tradition of excellence in the FY 2009 NASA 
Authorization.

Recommendation 4: Continue to support NASA's role in education and 
workforce development

    AIA members have identified that a ``lack of trained technical 
workforce for the future'' is one of the most important long-term 
issues facing our industry. Our companies are taking action to develop 
the future workforce, each investing on average $10 million a year on 
science, technology, engineering and mathematics (STEM) education 
initiatives nationwide. NASA's programs are not only important for its 
own workforce, but also our industry. As the National Research Council 
(NRC) stated in 2008, ``NASA has a unique and important role to play in 
motivating and inspiring students to consider STEM careers.''
    We are encouraged by NASA's FY 2010 education priorities. In 
particular, we support programs stimulating competitive research that 
prepares young people for future employment with student activities 
that are directly tied to real-world experiences (i.e., Constellation, 
Mars Exploration; global climate change; aeronautics). It is also 
important to provide opportunities for student flight projects to gain 
access to space through partnerships with NASA Centers, universities 
and industry.
    Despite the tremendous opportunities NASA's education programs 
provide towards inspiring our youth, we are disappointed that the 
President's FY 2010 request for NASA education initiatives is only $126 
million. This is particularly disappointing when you consider that just 
one of AIA's companies spends $60 million on STEM programs. The funding 
request for FY 2010 for NASA education initiatives is $43 million, or 
25 percent, below the FY 2009 enacted funding level of $169 million.

Recommendation 5: Renewing the Commercial Space Launch Amendments

    Since 1988, the U.S. Government has had a risk allocation regime 
that has addressed the exposure of companies providing FAA-licensed 
commercial launch services to third party liability resulting from 
launch-related activities. While the U.S. launch industry is considered 
mature, our launch providers--whether commercial or government--operate 
within narrow margins of return on their endeavors. Over the last 20 
years, competition from foreign launch systems and providers--all of 
which benefit from some form of government indemnification--has grown 
significantly. Elimination of U.S. Government indemnification would 
drive even more launch business overseas. In a competitive market with 
narrow returns, the loss of indemnification could cause U.S. companies 
to reconsider the risks and benefits of staying in the commercial 
launch business and suspend activities or even exit the market. This 
could also impact launches of U.S. civil and national security 
payloads. This regime has been extended by Congress four times, but it 
will expire at the end of this year.
    AIA recommends that Congress remove the amendment's tier two cap of 
$1.5 billion and eliminate the sunset provision in advance of its 
expiration on December 31, 2009. AIA believes that, at a minimum, the 
amendment should be extended another five years.

Conclusion

    Over the last 50 years, space technologies have increasingly become 
an important part of our nation's economic, scientific and national 
security capabilities. Over time, all sectors of the U.S. economy have 
become inextricably reliant upon space systems. As other nations make 
rapid advancements in acquiring or exploring space capabilities, 
America's leadership in space is no longer guaranteed and the securing 
of its space assets is no longer assured.
    NASA stands front and center as the most visible representation of 
the U.S. space program. It's continued work in space exploration, 
aeronautics research and development, Earth and solar system 
observation, scientific research, and manufacturing technology programs 
remains of critical importance to America and deserves the utmost 
support from Congress.
    I thank the Committee for their time and attention and would be 
happy to answer any questions.

                       Biography for J.P. Stevens

    JP Stevens is Vice President, Space Systems at the Aerospace 
Industries Association, which represents the Nation's manufacturers of 
commercial, military, and business aircraft, helicopters, aircraft 
engines, missiles, spacecraft, material, and related components and 
equipment.
    Mr. Stevens is in charge of all space policy for AIA, including 
national security space, commercial space, and civil space. He also 
serves as Co-Chair of AIA's Space Council with his corporate 
counterpart.
    Before assuming his present position in January 2005, Mr. Stevens 
served in a number of leadership roles in AIA, including Director of 
Space Operations, Assistant Vice President of Supplier Management, and 
Vice President of Special Projects. He also created and served as 
Executive Director of the world's largest rocket contest, the Team 
America Rocketry Challenge, an important event to attract middle and 
high school students to aerospace careers.
    From 1994 to 1999, he was a congressional advisor to former U.S. 
Senator John Glenn on defense, military space, and domestic issues. 
Prior to that, Mr. Stevens was a career officer in the United States 
Marine Corps, where he served in numerous aviation and acquisition 
positions, including as a Naval Flight Officer in operational A-6E 
squadrons, the Program Manager for Night Attack and Reconnaissance 
Systems in the F/A-18 Program Office, and Requirements Officer for all 
Marine fixed-wing ordnance.
    He is a graduate of the University of California at Los Angeles, 
the Marine Corps' Command and Staff College, and the Defense Systems 
Management College. He resides in Alexandria, Virginia, with his wife 
Holly Kinnamon, and sons, Henry and Graham.

                               Discussion

    Chairwoman Giffords. Thank you, Mr. Stevens, and thank all 
of you. It is a very diverse group of witnesses, but there is 
one common thread which is competence and also commitment.
    It is always tough here in the Congress where you take 
experts who have dedicated their careers and decades to a 
certain area of interest and then to limit testimony to five 
minutes and then have to even cut that a little bit short. But 
we are glad that you are here and in particular these advisory 
panels on which you serve are voluntary, and the fact that with 
all the competing demands that you have on your time that you 
and your colleagues are willing and able to commit the time is 
vitally important to our nation and is something that this 
subcommittee plans to continue to utilize your expertise and 
your education to the commitment that we have toward future 
exploration.
    We do not have a lot of time. Just so everyone knows, the 
plan is to get a couple of quick questions in, and then I 
believe that most of our witnesses can reconvene at 1:30. And 
Mr. Olson, you are okay at 1:30 as well, correct? Okay. So with 
that, I am going to yield my five minutes to Mr. Griffith who 
will not be able to come back at 1:30. So Mr. Griffith, five 
minutes, please.
    Mr. Griffith. Madam Chair, thank you, and panel, thank you. 
We are obviously admirers of you all and human space flight, 
and we recognize that my district, which we consider in my 
district the birthplace of human space flight, Fifth of 
Alabama, we have a great interest in it. We believe that the 
Saturn V was the Eighth Wonder of the World. We think Ares-1 
and Ares-5 will be another wonder.
    Are we satisfied, Mr. Marshall, Dr. Ford, that NASA has 
done all it can to minimize the human space flight gap within 
its current budgetary constraints and mission requirements? And 
the second part of that is do we have an inventory of 
scientists who have worked on human space flight and where they 
are and how difficult might it be to reassemble them in a 
timely fashion?
    Dr. Ford. I will take it. Yes, I do think that NASA has 
done all that it can do given the budget environment that they 
work in to eliminate or shorten the gap as much as possible. 
There is going to be a gap, but I think they have done all that 
could reasonably be asked to do.
    In terms of an inventory of space scientists and rocket 
scientists, I presume, I am not sure if there is such a thing. 
I do know that folks that worked on earlier programs, including 
Apollo, are engaged in advising NASA with respect to Ares-1 and 
-5.
    Mr. Marshall. Let me add from a safety perspective, I also 
agree from a safety point of view they have done everything 
that they can with the resources that they have to minimize the 
gap. There is no question that there is a gap. It is a lengthy 
gap. It appears to be getting bigger, not smaller, but there is 
only so much that you can do with the resources that have been 
allocated.
    The second issue is on workforce management. I will take a 
little bit of a different stand. I think that we have work to 
do, the Agency has work to do to catalog and make sure that 
there is clear understanding of where those resources will be 
available if they need to be at a later date. While we think 
the Agency has done a great job of putting time and effort into 
there, we also think from a safety perspective that there is 
more work to be done if the Shuttle program were to be extended 
or expanded.
    Mr. Griffith. Generally to the entire panel, do we as a 
nation, believe that the Chinese would like to get to the Moon 
before we do, and if so, do we believe as a nation that they 
are working diligently to do that? Anyone like to take that 
one?
    Mr. Stevens. I will go ahead and take it. I believe they 
definitely are, and I think if you take a look at their 
progress so far and compare it to what we did in the Gemini and 
Apollo missions, they are making significant progress, and they 
are using technology that is obviously a lot better than we had 
back in those days. And I think their goal is set on that, and 
I think if we don't move along, fund our human space program, 
we are going to be watching them land for us.
    Mr. Griffith. I couldn't agree more, and I think that our 
committee and those in the audience, our worst nightmare is to 
be at home in our living room watching the evening news and as 
the landing occurs, it occurs to everyone in the world that it 
is the Chinese and not America. And we have an opportunity 
here, but we have got to keep ourselves focused and we have got 
to realize we cannot do this on the cheap. This is not 
something we can do in an inexpensive way. But we appreciate 
each and every one of you for being here. Thank you.
    Chairwoman Giffords. Thank you, Mr. Griffith. Mr. Olson.
    Mr. Olson. Thank you very much, Madam Chairwoman. And I 
have got a question sort of like my colleague, Mr. Griffith, 
just for all of you to answer, but later today, you heard the 
buzzers, but we are expected to pass the fiscal year 2010 
appropriations bill for NASA, and as you all know, that 
proposes to cut funding $670 million for the Constellation 
Program. And the sponsors of the bill, we have had numerous 
discussions with them, and I appreciate the Chairwoman's role 
in that as well, they have promised us that they will work to 
restore that funding pending the decision of the Augustine 
Commission. And my concern there, and what I would like to get 
your opinion on from a program perspective, what management 
challenges does this approach impose on the program and the 
contractors and can we avoid layoffs if the report comes out in 
the September, October timeframe? Anybody wants to fire up?
    Dr. Ford. I think it is very unfortunate and is likely to 
indeed lead to layoffs. The exact number is unclear. I would 
hope that that provision would not stick, but if it did it 
would be problematic. Also, the language about one-year money 
is highly problematic.
    Mr. Marshall. Let me----
    Mr. Olson. Mr. Marshall, go ahead, sir.
    Mr. Marshall. Let me add again from a safety perspective 
when you see turbulence within the budget process that creates 
an on-again, off-again, it always creates a threat to the 
safety, stability. We have seen that in numerous programs 
before. We have documented that repeatedly, and this particular 
cut we believe will have significant consequences to the Agency 
and being able to stabilize. And in fact, if there was any one 
theme that I heard from this panel this morning, it was the 
need to stabilize, to balance, and to provide financial 
supportability to be able to do all of those things, and it 
just can't fit right now.
    Mr. Olson. Dr. Colladay, did you want to respond?
    Dr. Colladay. I was actually going to say exactly the same 
thing. Stability is----
    Mr. Olson. Stole your thunder.
    Dr. Colladay. Stability is so critical to the endeavors 
that NASA pursues, and the turmoil caused in the workforce and 
by schedules being disrupted by reductions when there aren't 
enough resources in the first place to do what I think is on 
NASA's plate is terribly disruptive. And I hope that it can be 
restored and then some.
    Mr. Olson. I share your optimism as well. Dr. Ford was kind 
of reading my mind by getting ahead, but I just wanted to talk 
to all of you about the conversion in the appropriation account 
from a two-year account to a one-year account. I mean, do any 
of you feel that that is going to be a positive development for 
NASA, or do we need to stay on a two-year accounting? Everybody 
is nodding their heads.
    Dr. Ford. It is a very, very bad idea.
    Dr. Colladay. Absolutely.
    Mr. Marshall. I think that is essential.
    Mr. Olson. I agree with that. And with that, those are all 
my questions, Madam Chairwoman. I would like to yield the rest 
of my time to my colleague from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and I would just like 
to pose a question that I will be coming back to at 1:30, and I 
would give you this time to think about it and then to answer 
when I get back because it is a very simple question. When we 
are trying to figure out what to do with the NASA budget, it is 
always very easy to come in and say, well, we are lacking this 
much money. We are $3 billion short of what we need. Maybe you 
could give us some specific guidance. What are your areas in 
the NASA budget that are of highest priority to you? What are 
your areas of the NASA budget that are the least priority? And 
I would expect an answer to both of those questions because it 
is very easy to say what you want to spend the money on, but 
where should we look, what areas of the NASA budget has your 
least support? Should we be losing centers? What center should 
be closed? Or what program should we bolster? But we need some 
guidance on both of those issues, and if you could give me a 
very quick answer when we return, that would be very helpful to 
us. Thank you very much.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher and Ranking 
Member Olson. We have two minutes and 23 seconds left to vote, 
so we are going to run out of here. We are going to recess 
until 1:30, and we look forward to the Members rejoining and 
our witnesses as well. So until 1:30.
    [Recess.]
    Chairwoman Giffords. This hearing will come to order. We 
will submit my opening statement and Mr. Olson's opening 
statement for the record, and the record will remain open for 
two weeks for any additional statements from the Members and 
for any questions the Subcommittee may ask of the witnesses.
    The hearing is now adjourned.
    [Whereupon, the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by John C. Marshall, Member, Aerospace Safety Advisory Panel, 
        National Aeronautics and Space Administration (NASA)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  At the hearing, in response to a question regarding either staying 
on a two-year accounting scheme or converting to a one-year account as 
is being proposed by the House Appropriations Committee, you indicated 
that it was essential that NASA stay on the two-year scheme. Please 
elaborate on why you believe this is essential, especially as it 
relates to safety.

A1. As noted previously, the ASAP believes that changing NASA's 
accounting from a two-year scheme to a one-year scheme has the 
possibility of causing financial turbulence, thereby challenging the 
Agency's stability. Two-year accounting allows for a program to have 
more continuity, year to year, than a one-year budget cycle. Research 
and Development (R&D) programs need longer wavelength budget cycles in 
order to be effective.
    In an R&D environment, requirements are not sufficiently defined at 
the beginning of each fiscal year to contract for all services in 
advance, nor are development cycles uniform or predictable across 
program elements. In this regard, it is critical to retain flexibility 
to contract for new activities only after the requirements have been 
fully identified and properly scoped, a process that occurs 
incrementally throughout the year as projects develop. More 
importantly, maintaining a critically robust and timely safety program 
necessitates sufficient budget flexibility to provide for rapid 
response to risks as they are identified and test failures as they 
occur.
    Maintaining the two-year appropriations accounts provides the 
foundation for NASA to best manage costs, while successfully executing 
its programs and projects to achieve mission success.

Q2.  Two consecutive Soyuz off-nominal re-entries prompted your annual 
report to indicate that the Panel remains concerned about the safety of 
Russian Soyuz spacecraft. NASA has acknowledged that the separation 
failures ``are still unexplained anomalies.'' Since we plan to use the 
Soyuz spacecraft until 2015, do we need closure on these anomalies?

A2. Even though the root cause for these anomalies cannot be proven, 
the Russians have instituted several changes to correct the known 
potential causes of the observed failures. These changes include: 
adding pyro wire separation; additional grounding and electromagnetic 
interference protection; additional instrumentation to try to isolate 
the failure; and installing improved pyrotechnic bolts. These new bolts 
are a more modern design and have improved electrical performance. Just 
as important, the Soyuz design is inherently stable during reentry, 
even with anomalies such as were experienced.
    NASA has participated in many of the investigations and performed 
analysis that supports the general approach that the Russians are using 
to mitigate concerns from these anomalies. Likewise, the Russians have 
approached this problem in a similar manner to which NASA would 
approach such an unexplained anomaly. Based on NASA reports on the 
Russian corrective actions, the ASAP believes that the mitigation 
efforts, plus the robust design margins built into the Soyuz vehicle, 
can support safe recovery operations.

Q3.  In his response to ASAP questions, Mr. Scolese, commented that 
``ISS--NASA's best kept secret is just how hard it is, and will be, to 
keep station operating safely for the long run without a major adverse 
event.'' What, from a safety standpoint, is needed to ensure long-term 
safe operations and utilization of the ISS?

A3. Safety is a unique combination of good equipment, good training, 
and good execution. NASA and its ISS partners need to be constantly 
vigilant that all the equipment in the ISS works per design and any 
unusual incidents are investigated, studied fully, and adjustments are 
made quickly. The training of the ISS crews is also ongoing, and this 
is a strength. Lastly, it is important to never become complacent. The 
primary constraint for executing such a balanced approach is having 
sufficient budget flexibility to maintain a robust response capability.

Q4.  The ASAP report identifies the need for NASA facility maintenance 
and upgrading as a critical issue for the Agency. How serious is the 
problem of aging NASA infrastructure and what is needed to address the 
issue? What are the implications of not addressing these issues with 
NASA's infrastructure?

A4. The agenda for each ASAP meeting held at NASA Centers includes a 
walk-around to view first hand activities provided by the Center. 
During these walk-grounds we are seeing facilities of the Apollo and 
NACA era used in the early days of Shuttle testing again being used for 
Constellation projects. Evidence of years of neglect in water main 
breaks, burst pipes, roof leaks, HVAC system failures, electrical 
substation or other feeder system failures are common. There likewise 
is a very serious problem associated with maintenance of supporting 
institutional facilities and the infrastructure for utility systems, 
including high pressure gases, steam, water, electrical systems and 
high voltage, etc. The impact of such failures can range from short-
term work disruption and delay to damage to flight hardware and threats 
to safety.
    Reacting to unplanned, emergency repairs is very expensive, and 
further depletes NASA's ability to perform preventive maintenance and 
facility renewal. Direct programmatic funds are being expended to take 
care of major maintenance and upgrades needed in facilities where 
flight hardware may be at risk.
    The ASAP's visit to Glenn Research Center (GRC) provides an 
excellent example of the implications of not addressing the maintenance 
and upgrading issues with NASA's infrastructure. Glenn is one of NASA's 
older centers, and there had been plans, not long ago, to close the 
facility. As a result, maintenance programs were dropped. Therefore, 
the challenge now is to rejuvenate aging buildings and roadways, while 
at the same time undertaking new construction. An example of older 
equipment now in need of attention and for which there are safety-of-
personnel issues are pressure vessels at the Center, some of which 
require engineering for proper maintenance and pressure re-
certification. Further complicating these efforts is that engineering 
documentation for a large portion of the pressure system infrastructure 
has been lost over the years, and it needs to be re-developed. Another 
example of the institutional infrastructure problem at GRC was a break 
in a major water main that caused the entire Center to be closed down 
because of the loss of fire protection systems. This shutdown resulted 
in considerable loss of productivity and a significant cost to the 
Center.
    Since most of NASA facilities are more than 40 years old, they are 
becoming increasingly more expensive to operate as well as maintain. 
Also, NASA's initiative to remove unneeded and aged facilities is one 
that the ASAP supports, but to reduce operating costs in the long term, 
incurred demolition costs can be very expensive. The result is that 
deferred facility maintenance associated with the institutional 
infrastructure continues to increase to offset increasing costs in 
facility operation and demolition in NASA's operating budget. In lieu 
of a budget increase to fund these deferred costs, NASA personnel, 
valued facilities, and productivity may be placed in jeopardy without 
careful scrutiny of the overall risks.
    Significant additional resources are needed to address this serious 
problem. The implication of not addressing the issue is a steadily 
increasing risk of failure of major facility systems.

Q5.  The FY 2010 Commerce, Justice, Science, and Related Agencies 
spending bill recommends the consolidation of all institutional and 
programmatic construction. In your opinion, is that a good idea or 
would it have unintended consequences. What impact would the proposed 
funding account consolidation have on the ability to ensure that 
facilities receive needed improvements in an expeditious manner? Is 
there a need for a targeted agency initiative on facility maintenance 
and modernization?

A5. The ASAP has no basis on which to provide counsel on this question 
as it is outside the panel's focus.

Q6.  The Panel's annual report lists, among NASA accomplishments in 
2008, ``the emergence of more cohesive and cooperative relationships 
among Centers.'' Was it the Panel's assessment that NASA's policy of 10 
Healthy Centers is working well? Can you provide examples of such 
improvement and what NASA is doing to maintain that level of 
cooperation? Do you have any concerns that need to be addressed?

A6. It is the panel's opinion that NASA has made substantive, positive 
progress in the direction of 10 healthy centers. Work being performed 
by the NESC at Langley for all Centers and better cooperation between 
Marshall and Johnson are just two examples. The ongoing effort around 
technical authority is keeping the communication flowing, so the new 
NASA structure and work processes are helping to promote the ``10 
Healthy Center Concept.''
    The panel has raised the question--``Could NASA more efficiently 
and economically operate with fewer centers?'' We appreciate the 
political and public challenges of rationalizing government facilities; 
however, fewer, stronger centers could possibly relieve ongoing funding 
shortfalls and ease needed improvements to infrastructure.
    This said, the ASAP believes there is more work yet to be done on 
this, particularly in standardizing practices common among the centers, 
and the ASAP will be looking for continued efforts in this area. One 
current example is that we are asking for safety data from all centers 
be reviewed in public at our meetings for leanings that can be 
leveraged.

Questions submitted by Representative Pete Olson

Q1.  During our June 18 hearing, witnesses were in general agreement 
that converting NASA's spending authority to one-year money would 
create new hardships for the Agency. Could you elaborate on the 
consequences of such a change, and perhaps provide an illustrative 
example?

A1. As noted in the response to Chairwoman Giffords first question, the 
ASAP does not agree that this proposed change helps NASA, but in fact 
will cause financial turbulence at a time when stability is required.

Q2.  Re-establishing Advanced Technology Development as an 
independently funded and managed program has been cited as an important 
reform if NASA is to enhance its capability to develop new and perhaps 
paradigm-shifting technologies. What caused the Agency to abandon this 
approach? Was it simply budget; was the return on investment in 
question? How much annual funding would be required to re-establish a 
credible program?

A2. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.

Q3.  The International Space Station will, in all likelihood, be 
utilized by NASA for some years beyond 2015 but at present the Agency 
appears unwilling to make such a commitment. Our international partner 
space-agencies have been looking for a firm signal from NASA for such a 
commitment, as it helps them deal with their governments to lie in 
long-term funding programs. What's preventing NASA from making such a 
commitment now?

A3. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.

Q4.  What are your thoughts and concerns about engaging more 
intensively with international partners to fly joint missions? What are 
the primary disadvantages against joint international missions, and in 
your view, would U.S. science research priorities likely be jeopardized 
if we were to aggressively engage in joint missions? To what degree do 
export control restrictions make joint missions unwieldy and difficult 
to manage?

A4. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.

Q5.  Re-invigorating NASA's workforce is especially critical given the 
average age of the Agency's employees. How would you describe the 
attractiveness of NASA as a prospective employer, especially from the 
perspective of a young `fresh-out'? Would they tend to look at NASA as 
a career choice? How can NASA best ensure that the knowledge and 
`lessons learned' will be passed from the current generation of 
scientists and engineers to the next?

A5. From all indications, NASA still is successful at attracting co-op 
students, interns, fresh-outs, and other early-career individuals when 
vacancies are available. During the past year the Agency has been 
receiving, on average, over fifty applications for every advertised 
position; that number has risen to almost 120 during each of the past 
two months. The ASAP has thus far not heard of indications from hiring 
managers that sufficiently skilled candidates are missing from those 
applicant pools. We believe that this stems from several factors, 
including:

        <bullet>  NASA's unique programs and associated facilities that 
        provide opportunities in aeronautics, science and engineering 
        that are not found (or rarely found) in any other parts of the 
        government--or even the private sector;

        <bullet>  The opportunity to be part of an organization that 
        has a focus on the future, as well as contributing to improving 
        the quality of life on our planet right now;

        <bullet>  Working in an agency recognized across the government 
        as an employer-of-choice (as demonstrated in successive Federal 
        Human Capital Surveys), with particular focus on recognizing 
        and rewarding talent and establishing an excellent work-life 
        balance; and, more recently,

        <bullet>  The security of government service during an 
        uncertain economic period.

    That said, the ASAP believes there are several factors at work that 
potentially discourage qualified candidates from seeking NASA 
positions, including: relatively few positions are available given 
constrained civil servant ceilings and low rates of attrition among the 
current workforce; concern about adequate opportunities for meaningful, 
hands-on work early in their careers (a combination of a relatively 
small number of new programs and low attrition); and uncertainty over 
the sustainability of major programs across multiple administrations.
    We concur that passing along knowledge to the next generation of 
NASA employees is a critical concern. There are multiple mechanisms for 
doing so, and from our observations NASA is taking advantage of many of 
those. For example, the Agency has taken steps to increase formal and 
informal mentoring programs throughout the Agency. Although focused 
primarily on enhancing leadership skills, such programs also serve to 
pass along technical knowledge. A recent ``career pathing'' program has 
also been successful in capturing and documenting the developmental 
experiences of senior Agency personnel from multiple disciplines in 
order to guide newer employees along similar (or different) paths. One 
of the most successful mechanisms, however, is working side-by-side 
with more experienced personnel, and one of the objectives of the 
Agency's new Early Career Hiring Initiative is to bring substantial 
numbers of new employees into the Agency far enough in advance of 
anticipated retirements so that a period of overlap is available for 
the more experienced employees to pass along what they know before 
leaving.
    Another NASA activity that focuses on knowledge sharing and lessons 
learned is the Office of the Chief Engineer's Academy for Program/
Project/Engineering Leadership (APPEL) program. APPEL places a great 
deal of emphasis on lessons-learned and mentoring programs designed to 
pass knowledge to successive generations of engineers and program/
project managers. This is done with two primary training activities: 
courses and performance enhancement. For example, APPEL has recently 
added a two-day ``Space Systems Development: Lessons Learned'' course 
to the curriculum that reviews numerous NASA case studies involving 
designing and building space flight hardware.

Q6.  Over the last decade, NASA has employed several different 
financial management schemes that directly affect managers and the 
manner in which they account for--and control--costs within their 
programs and missions. How effective, and how transparent, is the 
current system, especially from the perspective of program and mission 
managers?

A6. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.

Q7.  You recommend that NASA needs to take a more aggressive role 
articulating human rating requirements for the COTS (Commercial Orbital 
Transportation System) program. Could you elaborate? Has NASA not yet 
developed a set of specific standards for potential commercial 
providers? Will commercial providers be held to a lesser standard than 
exists today for Orion/Ares?

A7. No, NASA has not yet developed any specific information for COTS 
providers for human rating requirements, other than those required 
while delivering and docking with the ISS during cargo missions. In 
this regard, the ASAP believes NASA is late in developing these 
important requirements.
    The scope of the COTS project and demonstrations involve the 
development and operation of an end-to-end space transportation system 
of services including ground operations and integration, launch, 
rendezvous, proximity operations, docking or berthing, orbital 
operations, reentry, and safe disposal or return. For the Phase 1, 
Technical Development/Demonstration funded Space Act Agreements (SAAs), 
the objective has focused on the qualification of the launch vehicle 
for cargo delivery and return, including rendezvous and berthing with 
the International Space Station (ISS). As part of these demonstrations, 
NASA's approach has been to review Safety and Mission Assurance 
products, including the safety and mission assurance plan, hazard 
analysis, safety assessments, risk assessments, probabilistic risk 
assessments, software assurance and the human-rating plan, during 
partner design reviews to assure that safety is build into the design 
and development process--all for the cargo mission.
    With respect to a set of specific NASA standards for the potential 
commercial providers, at the present time the agreements only impose 
the applicable ISS visiting vehicle requirements as a condition for 
using the ISS as an orbital destination and active test bed. Space 
Station Safety Review Panel's (SRP) phased safety reviews will address 
rendezvous, approach, docking, undocking, and separation, and 
compliance with ISS safety requirements. The SRP's approval will be 
required before being allowed to rendezvous and berth or dock with the 
ISS--again for the cargo mission.
    Launch and re-entry requirements are imposed by the Federal 
Aviation Administration's Office of Commercial Space Transportation 
(FAA/AST), through their licensing of all of the COTS demonstration 
missions. The FAA/AST licensing and regulatory authority does not 
extend to orbital operations. FAA/AST has the authority to issue 
licenses for launch and re-entry operations with humans aboard with the 
licensee responsible for crew and space flight participants' safety to 
assure the safety of the public and the protection of property.
    The FAA licensing involving human space flight will proceed in a 
multi-step process, starting with experimental operations handled on a 
case-by-case basis, thus allowing for the regulation to mature as the 
industry gains relevant flight experience. As directed by Congress, the 
FAA's final rule for Human Space Flight Requirements for Crew and Space 
Flight Participants, which became effective on February 13, 2007 
expressly addresses requirements for space flight participants (SFP) 
(the presumed role of an NASA astronaut) to be one of written consent 
and oral questioning of the operator so as to achieve some type of 
``affirmation that the space flight participant understands what he or 
she is getting into before embarking on a mission.'' The rule indicates 
that the operator must inform each SFP in writing about the risks of 
the launch and reentry vehicle type; the known hazards and risk that 
could result in death, serious injury, or total or partial loss of 
physical or mental function; and also that there are unknown hazards. 
The rule indicates that an operator must inform each SFP that the 
``United States Government has not certified the launch vehicle and any 
re-entry vehicle as safe for carrying crew or space flight 
participant.''
    Therefore, in order to assure that the level of safety for the NASA 
astronaut on a COTS vehicle be equivalent to that for a NASA astronaut 
on a NASA-developed vehicle (which NASA has indicated to the ASAP to be 
their objective), NASA acknowledges its responsibility to define human 
rating requirements that are required to certify the COTS vehicle as 
``human-rated,'' but thus far NASA has not done so. Because the Phase 1 
SAAB include an option for crew transportation demonstrations pending 
successful cargo demonstrations and additional funding, there has been 
no delineation of the specific human-rating requirements in the SAAB to 
date.
    In addition, in further questioning by the ASAP, NASA had given 
little thought as to what their approach will be in establishing human 
rating requirements for the COTS program and how they will accept 
alternative designs, testing, or concepts of operation, etc. This then 
provided the rationale for the ASAP to press NASA to take a more 
aggressive role in articulating human rating requirements for the COTS 
program early on. As a minimum, the ASAP believes that NASA should 
begin a dialogue with the funded COTS partners now to address this 
issue. Further impetus for this action has been provided recently by 
plans to spend economic stimulus package funding for COTS D to provide, 
among other things, better definition of what it will take to human-
rate a vehicle originally built to deliver cargo to the ISS.
    The ASAP concern to some extent has been exacerbated further by 
media reports about the funded COTS partners' and other commercial 
launch providers' ease or readiness in being able to comply with the 
NASA human-rating requirements when the ASAP has several 
recommendations relating to the new standard NPR 8705.2B, Human Rating 
Requirements for Space Systems, issued May 2008, and our perceived 
problems associated with its implementation within NASA.

Q8.  You recommend that the Office of Personnel Management grant NASA 
the authority to re-employ retired NASA civil servants without penalty, 
and you specifically cite Marshall Space Flight Center as compelling 
case where such a change would be welcomed. Why Marshall, and why not 
other NASA centers?

A8. The ASAP believes that the ability to re-employ retired NASA civil 
servants would be of benefit to all NASA Centers in cases where they 
are experiencing difficulty with recruitment and retention, or meeting 
an unusual temporary hiring need.
    Marshall Space Flight Center (MSFC) was used as an example only 
because of the large numbers of Department of Defense (DOD) components 
scheduled to move (or that have already moved) to the Huntsville area 
as a result of recent Base Realignment and Closure (BRAC) activities. 
The DOD currently enjoys its own specific authority to re-employ 
federal retirees without penalty; the concern is that this gives them 
an edge over MSFC when competing for local talent. Additionally, 
retirement eligible NASA employees can retire and be hired by DOD 
without losing a significant portion of their retirement pay. This puts 
centers like Marshall at a disadvantage. This is especially troubling 
during the early stages of a new, major program.
    NASA like most other federal agencies has to seek OPM approval to 
waive the salary offset. Thus far, their experience has been that this 
is an arduous and time consuming process and puts the Agency at risk of 
failing to obtain critical personnel on a timely basis.
    NASA is using the legislative process to seek NASA-specific 
authority to reemploy retired NASA civil servants without penalty. If 
adopted, the legislation would authorize the Administrator to set the 
pay of re-employed annuitants throughout the Agency without a reduction 
in their federal salary. Such authority would provide the Administrator 
the ability to hire annuitants with expertise and corporate knowledge 
to address short-term critical program needs and mentor the next 
generation of NASA employees in support of the transition of the 
Shuttle to Constellation program. If received, such authority would be 
Agency-wide.

Questions submitted by Representative Dana Rohrabacher

Q1.  It is always easy to advocate for more money for NASA. Assuming 
however, a relatively flat budget, especially for the years following 
2010, what guidance can you offer regarding areas in NASA's budget: 
what areas are of highest priority to you, and what areas are the 
lowest priorities? What can NASA or Congress do to maximize the science 
return on its budget? For instance, do you believe it would be prudent 
to consider closing one or more Centers? If so, which ones? Are there 
programs that need bolstering? Please offer your best guidance.

A1. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.

Q2.  We're all familiar with the large and growing threat that orbital 
debris poses to our people and assets in space. This subcommittee 
recently held a hearing on the topic. AIA recently hosted a briefing on 
this critical issue. And I think we would all agree that it is critical 
for us to get working on some form of remediation effort.

        a.  First--do you all agree on that?

        b.  Second--is NASA the right agency to head this up?

        c.  Third--what are the hurdles we need to overcome to create 
        an international effort to get rid of all this debris up there?

        d.  Fourth--what are the proper roles for commercial entities 
        to play in this?

A2. The ASAP agrees that the space debris issue is a matter of growing 
concern for all space-faring nations, both in terms of current space 
operations and future planning exercises. The threat posed by orbital 
debris to the reliable operation of space systems will continue to grow 
unless the sources of debris are mitigated. NASA clearly has a role to 
play in protecting its operations from orbital debris and in not 
contributing to the orbital debris problem. It is beyond the scope of 
the ASAP to evaluate the roles and missions that might be assigned to 
the various federal agencies involved.

Q3.  The recent Aerospace Safety Advisory Panel (ASAP) Annual report 
stated: ``From a safety standpoint, the ASAP strongly endorses the NASA 
position on not extending Shuttle operations beyond successful 
execution of the December 2008 manifest, completing the ISS.'' As you 
know, this leaves us with a significant gap in our domestic access to 
space. The ASAP report goes on to say ``[we] are not convinced that the 
Ares I and Orion initial operating capability (IOC) date can be 
improved appreciably by additional resources.'' So if we can't extend 
the Shuttle for safety reasons, and we can't move up the Ares I/Orion 
date, how could we best spend resources in trying to minimize this gap 
in space access?

        a.  The report also states ``There is no evidence that 
        Commercial Orbital Transportation Services (COTS) vehicles will 
        be completed in time to minimize the gap.'' Except for the fact 
        that there is inadequate funding to fulfill COTS-D, is there 
        evidence that COTS couldn't be available in time to minimize 
        this space gap? Or reduce it? If NASA were to immediately fund 
        these commercial efforts to modify existing launch vehicles 
        and/or develop new ones, what is the best case scenario for 
        their availability?

A3. The difficulty of safely and reliably placing humans into earth 
orbit and returning them is an immense challenge that is not fully 
appreciated by many. While the future is bright and our hopes are high 
for the potential of COTS providers, based on the data available to us 
at this time the ASAP believes that the chances of COTS being able to 
advance its own schedule, develop its methodologies, and have 
successful launches and missions to prove its ``space worthiness'' in 
the short time frame before Shuttle shutdown are remote. Further, NASA 
has not yet provided COTS contractors with the requirements that must 
be met to enable transport of Government Astronauts.

Q4.  There is a renewed focus on NASA looking back at planet Earth, 
either for climate change research, or weather patterns, or other 
important roles. But I have always thought NASA did its best work when 
it was looking outward--when it was a team of true explorers. It's 
impossible to go over the next hill if you refuse to leave the front 
porch. Isn't it time that we shifted some of these roles over to other 
agencies more fully so that NASA can focus on looking out, rather than 
looking in?

A4. The ASAP has no basis to provide counsel on this question as it is 
outside the panel's focus.
                   Answers to Post-Hearing Questions
Responses by Kenneth M. Ford, Chairman, National Aeronautics and Space 
        Administration Advisory Council (NAC)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  At the hearing, in response to a question regarding either staying 
on a two-year accounting scheme or converting to a one-year account as 
is being proposed by the House Appropriations Committee, you indicated 
that it was a very bad idea to change to a one-year account. Please 
elaborate on why you believe this is such a bad idea.

A1. NASA is predominately a research and development (R&D) 
organization. Due to the duration and complexity of R&D programs, 
virtually all federal R&D is subject to a two-year period of 
availability. It is hard to understand why NASA should be different and 
enjoy less flexibility than other R&D agencies given that its programs 
are among the most challenging tasks assigned to any federal agency.
    If aimed at correcting perceived shortfalls in obligation 
performance, the House Appropriations Committee proposal would not 
rectify any shortfalls in NASA budget planning or execution. As Mr. 
Robert Hanisee, Chairman of the Audit & Finance Committee of the NASA 
Advisory Council, stressed in his testimony--NASA has greatly improved 
its financial performance. In FY 2008, NASA obligated 98 percent of its 
funds in their first year of availability and is on track for similar 
performance in FY 2009. As noted here and elsewhere, NASA does an 
excellent job in obligating its funding within the first 12 months of 
the period of availability. However, the nature of NASA's programs 
(including the development of unique and extremely complex systems) 
requires flexibility and funding stability. For example, by late summer 
in 2006, NASA had committed to Lockheed to build the Orion crew 
exploration vehicle. NASA had two-year money from '05 and was able to 
use that money to put Orion on contract, once definitized. If NASA had 
been restricted to one-year money, the '05 appropriation would have 
vanished, and more would have been necessary in '06. It is important to 
appreciate that reducing NASA's already limited flexibility will have 
no positive effects and will in fact reduce its ability to effectively 
manage its programs.
    The House Appropriations recommendation to allow 10 percent of 
NASA's R&D appropriations to have two-year availability, on an ad hoc 
basis, would create an exceptional level of complexity and only 
increase costs. As with other federal R&D agencies, the longstanding 
policy of two-year R&D appropriations for NASA should be continued.

Q2.  NASA now estimates that Shuttle transition and retirement costs 
will total about $400 million, a far cry from the $2-$3 billion 
initially projected. How much confidence do you have in NASA's new 
estimate?

A2. Although the NAC has not reviewed this issue, I would have more 
confidence in the current projections of Shuttle transition and 
retirement (T&R) costs than in previous preliminary estimates, as they 
represent a higher fidelity assessment of the T&R process than did the 
earlier estimates.

Q3.  Following its February 2009 meeting, the NAC recommended that NASA 
``Communicate lessons learned on large mission cost drivers to the 
Science Committee and to decadal survey committees.'' Could you 
elaborate on why the NAC made this recommendation? What is your 
reaction to NASA's efforts to manage cost growth through the use of 
independent cost estimates and budgeting at a 70 percent confidence 
level?

A3. The NAC is concerned by cost growth in NASA's large missions and 
believes that this issue should be examined at all stages of a 
project's life cycle, starting with a mission's inclusion in one of the 
National Research Council's (NRC's) decadal surveys. In the past, the 
estimated costs for missions referenced in past decadal surveys have 
often turned out to be unrealistically low.
    NASA has conducted a number of internal studies and has 
commissioned outside groups (including the NRC) to do independent 
analyses of cost growth in large programs. The NAC believes that the 
consolidated results of these studies should be shared with the NAC 
members, as well as the decadal survey committees convened by the NRC, 
to ensure the proper dissemination of the lessons learned.
    The decadal survey committees need this information to better 
inform their future reports (two of which are now underway--Planetary 
Science, Astronomy & Astrophysics--and a third on Heliophysics should 
start next year) and to ensure that their cost estimates for future 
missions are as realistic as possible. The NAC's Science Committee 
needs this information to better inform its recommendations to NASA on 
how to deal with cost growth to date and how to reduce cost growth on 
future missions.
    NASA has made a number of relatively recent changes in its cost 
estimation and cost containment activities. Budgeting at the 70 percent 
confidence level makes sense, and the NAC endorses this change; 
however, these reforms need time to work, and it will be a number of 
years before we can fully assess the impact of these recent changes on 
NASA's cost performance.
    At our most recent NAC meeting, we were presented with a detailed 
history and potentially important lessons learned from the Planetary 
Science Division on the Mars Science Laboratory (MSL) program. This 
presentation is being converted into a white paper that will be 
publicly available in the next few months.

Q4.  The NAC makes formal recommendations to the NASA Administrator 
based on its evaluations of the Agency's activities and operations. How 
satisfied are you with NASA's responsiveness to and implementation of 
the NAC's recommendations?

A4. We on the NAC are generally very satisfied with NASA's 
responsiveness to our recommendations. In most cases, NASA concurs with 
the recommendations and acts on them. In the instances where they have 
not concurred, a thoughtful explanation has been provided. I have 
served on several other FACA advisory committees, and I can say with 
confidence that NASA has been the most responsive agency that I have 
had the pleasure to serve.

Q5.  From your perspective, what are the pros and cons of NASA's 10 
Healthy Centers policy? What changes, if any, are needed in that 
policy? What would improve the interactions among NASA centers?

A5. It is my sense that this policy is generally a good one and has had 
more positive impacts than negative. It is a useful step toward NASA 
acting more like a single agency. In recent times, NASA has 
consistently had more facilities than budget to support them. Another 
way to say this is that the Agency is ``over-facilitized'' but not 
over-staffed. In the past, financially stronger centers were not 
required to place work, whenever possible, at those centers with 
unfunded civil servants. As result, in 2005 more than 2,500 FTE-
equivalents were charging to overhead, while at the same time JSC, KSC, 
and MSFC were clamoring for people. Requiring program managers at 
strong centers to ``call NASA'' first, before hiring support contracts, 
essentially solved this problem. By 2008, NASA had only 300 FTE on 
overhead. Requiring program managers to place work outside their host 
center also brings in an enormously healthy diversity of views and 
affords the programs access to the best relevant talent no matter where 
it is located.
    Another advantage of this policy is that it utilizes, supports, and 
reaffirms the matrix management structure, wherein the chain of command 
for program work and the chain of command for institutional work and 
technical authority are different. When ``lead centers'' did everything 
internally, the Center Director often thought, with some justification, 
that he was the ``Program Manager-in-Chief'' of all programs at that 
center. With program managers not only allowed but required to place 
work where it can best be done, individual Center Directors are not 
under the impression that they are ``in charge'' of programs, and 
technical authority is maintained separate from programmatic authority. 
When program managers of large programs are required to work across the 
Agency, more decisions are made on a ``what's good for the program'' or 
``what's good for the Agency'' basis, rather than ``what's good for my 
center.'' Of course, another approach to alleviating the center centric 
perspective is to locate the top-level program management of the 
largest programs at Headquarters rather than at specific field centers.
    Although the ``ten healthy centers'' policy is sound and sensible, 
there have reportedly (and not surprisingly) been difficulties in its 
execution. Current implementation of ``10 healthy centers'' has divided 
the field centers into two major classes: the large operations centers 
which receive the lion's share of program leadership (and resources), 
while the smaller centers (mostly the research centers) are relegated 
to a lesser status scrambling to compete for work apportioned by the 
large centers with the resources. The research centers are at risk of 
becoming, at least partially, job shops for the large centers. This 
arrangement can cause a situation where a less financially healthy 
center must place otherwise uncovered people on projects to which they 
are at best marginally suited. Program managers also sometimes feel 
they are not getting the best product for their money under these 
circumstances. It is also the case that geographically distributed work 
is harder to manage: however, this is a relatively minor weakness.
    Some centers have embraced the ``ten healthy centers policy,'' some 
have only tolerated it, and some remain unreconstructed. In my opinion, 
under the current funding framework, the pros probably outweigh the 
cons. Perhaps a better approach would be to provide adequate funding to 
the underfunded research centers . . . or to consider down-sizing some 
centers to fit the existing funding profile. Stability of funding, 
mission, and policies are critically important in making the right 
decisions about staffing and facility needs.

Questions submitted by Representative Pete Olson

Q1.  During our June 18 hearing, witnesses were in general agreement 
that converting NASA's spending authority to one-year money would 
create new hardships for the Agency. Could you elaborate on the 
consequences of such a change, and perhaps provide an illustrative 
example?

A1. NASA is predominately a research and development (R&D) 
organization. Due to the duration and complexity of R&D programs, 
virtually all federal R&D is subject to a two-year period of 
availability. It is hard to understand why NASA should be different and 
enjoy less flexibility than other R&D agencies given that its programs 
are among the most challenging tasks assigned to any federal agency.
    If aimed at correcting perceived shortfalls in obligation 
performance, the House Appropriations Committee proposal would not 
rectify any shortfalls in NASA budget planning or execution. As Mr. 
Robert Hanisee, Chairman of the Audit & Finance Committee of the NASA 
Advisory Council, stressed in his testimony--NASA has greatly improved 
its financial performance. In FY 2008, NASA obligated 98 percent of its 
funds in their first year of availability, and is on track for similar 
performance in FY 2009. As noted here and elsewhere, NASA does an 
excellent job in obligating its funding within the first 12 months of 
the period of availability. However, the nature of NASA's programs 
(including the development of unique and extremely complex systems) 
requires flexibility and funding stability. For example, by late summer 
in 2006, NASA had committed to Lockheed to build the Orion crew 
exploration vehicle. NASA had two-year money from '05 and was able to 
use that money to put Orion on contract, once definitized. If NASA had 
been restricted to one-year money, the '05 appropriation would have 
vanished, and more would have been necessary in '06. It is important to 
appreciate that reducing NASA's already limited flexibility will have 
no positive effects and will in fact reduce its ability to effectively 
manage its programs.
    The House Appropriations recommendation to allow 10 percent of 
NASA's R&D appropriations to have two-year availability, on an ad hoc 
basis, would create an exceptional level of complexity and only 
increase costs. As with other federal R&D agencies, the longstanding 
policy of two-year R&D appropriations for NASA should be continued.

Q2.  Re-establishing Advanced Technology Development as an 
independently funded and managed program has been cited as an important 
reform if NASA is to enhance its capability to develop new and perhaps 
paradigm-shifting technologies. What caused the Agency to abandon this 
approach? Was it simply budget: was the return on investment in 
question? How much annual funding would be required to re-establish a 
credible program?

A2. NASA has long enjoyed a reputation as a technology innovator whose 
stressing applications in space and aeronautics have led to an 
incredible range of broadly useful technologies. Several years ago, the 
decision was made to divert a large fraction of the Agency's technology 
investment into the Constellation Program. Unfortunately, technology 
research programs are easily stopped and terribly hard to restart. 
Technology research programs often serve as ``the bank'' or 
``reserves'' to be sacrificed when more visible and near-term 
objectives are short on funding. Also, in the past some of NASA's 
technology programs were accused of looking like ``sandboxes'' not 
clearly tied to the most critical Agency needs.
    A robust and useful technology program at NASA would be dedicated 
to stimulating innovation and developing new capabilities not tied to 
existing mission requirements. Currently, for example, NASA's science 
missions must carry all the technology risk in the program itself. This 
makes missions such as MSL particularly vulnerable to the uncertainties 
and risks associated with the development of fundamentally new 
technology within the mission itself. Additionally, in the human space 
flight side of the house, the lack of a robust technology program has 
naturally driven program managers toward relatively conservative 
designs and limited technology infusion. A much broader technology 
focus would likely enable game-changing solutions that could open up 
entirely new opportunities.
    In addition to advanced technology programs in the mission 
directorates, NASA would be well served by the establishment of a more 
independent technology R&D organization, perhaps modeled loosely after 
DARPA. It has been estimated that NASA could re-establish a credible 
technology program with approximately $500M-$800M in additional 
funding. This level of funding would restore NASA's technology research 
efforts to rough equivalence with its previous level of effort.
    At the July meeting of the NASA Advisory Council, NASA briefed the 
Council on the activities of its Innovation and Technology Initiative. 
This internal working group is in the process of conducting an 
assessment of advanced technology development at NASA and will soon 
produce a report on this topic. The Council was very pleased by this 
initiative and will discuss the forthcoming report at our next meeting 
(October).

Q3.  The International Space Station will, in all likelihood, be 
utilized by NASA for some years beyond 2015 but at present the Agency 
appears unwilling to make such a commitment. Our international partner 
space agencies have been looking for a firm signal from NASA for such a 
commitment, as it helps them deal with their governments to lay in 
long-term funding programs. What's preventing NASA from making such a 
commitment now?

A3. NASA is not taking any action that would preclude a decision to 
extend ISS operations and utilization beyond 2015. The Administration 
will have to determine whether to continue U.S. participation in the 
International Space Station (ISS) Program beyond 2015, and that issue 
is one of those currently being examined by the Review of U.S. Human 
Space Flight Plans Committee (Augustine Committee). The Augustine 
Committee is scheduled to report out options to NASA and to the Office 
of Science and Technology Policy (OSTP) this August. I would anticipate 
that the Administration's decision would follow soon thereafter, and 
NASA would then be able to provide the clarity and commitment that its 
international partners are seeking.

Q4.  What are your thoughts and concerns about engaging more 
intensively with international partners to fly joint missions? What are 
the primary disadvantages against joint international missions, and in 
your view, would U.S. science research priorities likely be jeopardized 
if we were to aggressively engage in joint missions? To what degree do 
export control restrictions make joint missions unwieldy and difficult 
to manage?

A4. International cooperation has long played an important role in 
NASA's exploration and science activities. In spite of the many obvious 
potential advantages of pursuing joint international missions, there 
are also some significant disadvantages, including increased management 
complexity, technical and programmatic risk, and political risk. One 
particularly notable disadvantage that hinders the pursuit of joint 
international missions is that various export control restrictions make 
such international collaborations unnecessarily cumbersome. It has 
become evident that improvements in export control policies are 
necessary to ensure that our foreign partners remain interested in 
working with NASA and our contractors on future joint programs. Any 
assistance that this committee could give to reduce the barriers to 
effective collaboration while maintaining the intended goals of export 
control regulations would greatly enhance the productivity of 
international partnerships in space exploration and science.
    With specific regard to U.S. science priorities, working more 
closely with international partners offers a mix of advantages and 
challenges. As noted above, close cooperation with international 
partners does indeed add complexity to some missions, including 
difficulties arising from the aforementioned export control 
regulations. However, the benefits of increased international 
cooperation, especially in an era of tightened budgets, will likely 
outweigh the potential disadvantages. NASA's Science Mission 
Directorate (SMD) is working closely with the European Space Agency 
(ESA) to forge a new joint Mars architecture that will likely enable 
more science than either space agency could achieve on its own given 
available budgets. That potential cooperation is driven by shared 
science research priorities. This suggests that a joint NASA-ESA Mars 
architecture incorporating shared access to the scientific data may 
actually quicken the pace at which our national science priorities in 
planetary science are achieved. At our most recent meeting (July 2009), 
the NAC recommended that SMD build on the progress to date and expand 
its relationship with ESA to include cooperative Earth science 
missions.

Q5.  Re-invigorating NASA's workforce is especially critical given the 
average age of the Agency's employees. How would you describe the 
attractiveness of NASA as a prospective employer, especially from the 
perspective of a young `fresh-out'? Would they tend to look at NASA as 
a career choice? How can NASA best ensure that the knowledge and 
`lessons learned' will be passed from the current generation of 
scientists and engineers to the next?

A5. From all indications, NASA is still successful at attracting co-op 
students, interns, fresh-outs, and other early-career individuals. 
Every year the research firm, Universum, ranks the most desirable 
employers in the world, based on where undergraduate students say 
they'd most like to work. NASA was ranked as the #1 ideal employer by 
engineering students. Additionally, NASA was ranked as #2 by Natural 
Science students, #5 by Information Technology students, and #12 by 
Liberal Arts students. In my view there is little doubt that NASA is 
generally considered a desirable place to work. That said, I do hope 
that NASA will focus on hiring the very best fresh-outs that our great 
country can produce rather than settling for less.
    Passing along knowledge to the next generation of NASA employees is 
a critical concern. NASA is involved in several efforts specifically 
aimed at enhancing knowledge management and transfer. The Office of the 
Chief Engineer's Academy for Program/Project/Engineering Leadership 
(APPEL) program places a great deal of emphasis on lessons-learned and 
mentoring programs designed to pass knowledge to successive generations 
of engineers and program/project managers. For example, APPEL has 
recently added a two-day ``Space Systems Development: Lessons Learned'' 
course to the curriculum that reviews numerous NASA case studies 
involving designing and building space flight hardware. APPEL is also 
collaborating with the Lessons Learned organizations at each center to 
develop similar offerings. APPEL offers several other courses that 
similarly focus on lessons learned. APPEL also employs numerous former 
NASA ``grey beards'' from past projects such as Hubble Space Telescope, 
Shuttle, and Viking to bring their experience and knowledge to a new 
generation of managers in order to develop strong program teams. NASA 
also encourages knowledge transfer through formal and informal 
mentoring programs.
    However, the success of such efforts rests heavily on NASA's 
ability to hire adequate numbers of new employees of the highest 
caliber. I understand that NASA is developing a hiring initiative 
focused on securing the ``best and brightest'' talent for the future. 
Although this initiative is still in the early stages, I am confident 
that the Agency is progressing toward securing the ``next generation'' 
of scientists and engineers who will ensure NASA's success in the 
future. Close attention must be paid to not just the number of new 
hires but to their quality. If NASA is to inspire the Nation . . . it 
must be staffed by the best our country has to offer.

Q6.  Over the last decade, NASA has employed several different 
financial management schemes that directly affect managers and the 
manner in which the account for--and control--costs within their 
programs and missions. How effective, and how transparent, is the 
current system, especially from the perspective of program and mission 
managers?

A6. The NAC Audit & Finance Committee has assessed the many financial 
systems NASA has employed over recent years, so I defer to Mr. Bob 
Hanisee's response, as follows: Over the past decade, NASA has 
implemented many financial control systems; many of these were 
ineffective. The current suite of controls, which include the 
Integrated Enterprise Management System (IEMP), the Core Accounting 
System, the Continuous Monitoring System, the Phasing and Planning 
System and the Enterprise Value Management System are all working 
effectively now. There are still issues that come up with these 
systems, but it is fair to say that they are working effectively . . . 
and with transparency. We will of course have a better read on their 
efficacy following the conclusion of the 2009 financial audit. The 
Audit and Finance Committee believes that the timeliness and accuracy 
of financial information provided to Program Managers, Center Directors 
and to the Administrator are much improved which should result in more 
effective program management.

Questions submitted by Representative Dana Rohrabacher

Q1.  It is always easy to advocate for more money for NASA. Assuming, 
however, a relatively flat budget, especially for the years following 
2010, what guidance can you offer regarding areas in NASA's budget: 
what areas are of highest priority to you, and what areas are the 
lowest priority? What can NASA or Congress do to maximize the science 
return on its budget? For instance, do you believe it would be prudent 
to consider closing one or more centers? If so, which ones? Are there 
programs that need bolstering? Please offer your best guidance.

A1. In my view, the highest budget priority is to develop a capable and 
flexible space transportation architecture as quickly as feasible. In 
particular, the key element in the exploration architecture is the 
development of a heavy lift launch vehicle. I urge Congress to 
accelerate and prioritize development of this capability as it is the 
lynchpin to everything we will do in human space flight beyond low-
Earth orbit.
    Maximizing the science return of NASA's budget requires a number of 
coordinated steps. First, NASA needs to retain scientific peer review 
and the National Research Council's decadal surveys as important 
components of its decision-making processes. The use of scientific peer 
review and the priority-setting processes of the decadal surveys are 
crucial to ensuring that the highest priority science remains at the 
forefront of NASA planning. Second, NASA's science portfolio needs to 
maintain a balance among small, medium, and large programs. Each class 
of mission contributes to the advance of science and to the health of 
America's scientific and technological base in different ways. 
Maintaining a balance among the size of missions helps to smooth out 
science opportunities over time and allows the larger scientific 
community to plan appropriately. Third, NASA needs to continue to 
involve the larger scientific community in decisions on how to control 
cost growth. The steps underway to improve the cost estimates 
associated with the decadal surveys (especially the use of independent 
cost reviews) and budgeting at the 70 percent confidence level are 
important first steps. Finally, NASA would benefit from greater 
stability in its funding, including funding for science. Funding 
stability from year to year and receiving appropriated funds at the 
beginning of each fiscal year would reduce the cost of changes to 
programs and their industrial contracts and the uncertainty of the 
annual planning and implementation cycle, freeing up more funds earlier 
for scientific research. Further, it is important that NASA not be 
shifted to one-year funding--which would be unique amongst U.S. R&D 
agencies.
    The NAC has not reviewed the question of whether it would be 
prudent to consider closing one or more centers. With respect to 
programs needing bolstering, I would advocate re-establishing a robust 
technology research program at NASA.

Q2.  We're all familiar with the large and growing threat that orbital 
debris poses to our people and assets in space. This subcommittee 
recently held a hearing on the topic. AIA recently hosted a briefing on 
this critical issue. And I think we would all agree that it is critical 
for us to get working on some form of remediation effort.

Q2a.  First--do you all agree on that?

A2a. I absolutely agree that the space debris issue is a matter of 
significant concern that will only worsen if nothing is done to address 
the problem.

Q2b.  Second--is NASA the right agency to head this up?

A2b. As I understand it, NASA does not have the authority to head up a 
space debris removal effort and that the United States Air Force would 
likely lead any such effort. NASA can provide technical assistance, and 
the NASA Orbital Debris Program Office has evaluated a wide range of 
concepts for the removal of orbital debris. Also the Defense Advanced 
Research Projects Agency (DARPA) is playing an important role in the 
search for a cost-effective means of removing hazardous orbital debris.

Q2c.  Third--what are the hurdles we need to overcome to create an 
international effort to get rid of all this debris up there?

A2c. Although there are economic and legal hurdles, the primary 
challenges associated with creating an international debris remediation 
effort remain technical in nature. That is, a practical and affordable 
means of removing orbital debris has yet to be identified.

Q2d.  Fourth--what are the proper roles for commercial entities to play 
in this?

A2d. As major operators of orbital space systems, commercial users 
certainly have a significant stake in development of a method for space 
debris remediation. I understand that NASA and DARPA are in dialogue 
with commercial entities as they investigate various means of removing 
hazardous orbital debris.

Q3.  The recent Aerospace Safety Advisory Panel (ASAP) Annual report 
stated: ``From a safety standpoint, the ASAP strongly endorses the NASA 
position on not extending Shuttle operations beyond successful 
execution of the December 2008 manifest, completing the ISS.'' As you 
know, this leaves us with a significant gap in our domestic access to 
space. The ASAP report goes on to say ``[we] are not convinced that the 
Ares I and Orion initial operating capability (lOC) date can be 
improved appreciably by additional resources.'' So if we can't extend 
the Shuttle for safety reasons, and we can't move up the Ares I/Orion 
date, how could we best spend resources in trying to minimize this gap 
in space access?

A3. NASA believes that the best way forward is to remain focused on 
flying out the remaining seven Space Shuttle missions safely, even if 
the manifest slips and continuing the development of the Orion and Ares 
I vehicles. Meanwhile, the U.S. Human Space Flight Review Committee is 
reviewing options to address the gap as part of their broader mandate.
    NASA is promoting the commercial space economy by relying on 
industry to provide cargo resupply services to the International Space 
Station (ISS) through the two Commercial Resupply Services contracts 
signed last December. It is important that NASA's industry partners 
concentrate on developing the technologies and techniques required to 
deliver uncrewed vehicles to orbit and conduct proximity operations and 
docking maneuvers with the Station before they move on to developing 
crew transportation systems. The need for commercial resupply is 
critical to the continued operation and conduct of research aboard ISS, 
and lessons learned in the development and operation of the cargo 
vehicles will help the development of later crewed systems. The 
approach of demonstrating cargo first and then stepping up to crew 
transportation is the best way forward. It is also important to note 
that NASA is planning to codify human space flight vehicle requirements 
in order to assist in the development of those capabilities.
    At this point, there is not any viable option that will eliminate 
the gap in U.S. crew transportation to space. That said, by providing 
NASA with adequate funding and allowing it the freedom to manage these 
projects without extensive external guidance and constraints this gap 
could be minimized. There will be issues with the technical 
development, and these issues will need to be worked by the technical 
experts. Continuing to change plans will only delay the development 
process.

Q3a.  The report also states ``There is no evidence that Commercial 
Orbital Transportation Services (COTS) vehicles will be completed in 
time to minimize the gap.'' Except for the fact that there is 
inadequate funding to fulfill COTS-D, is there evidence that COTS 
couldn't be available in time to minimize this space gap? Or reduce it? 
If NASA were to immediately fund these commercial efforts to modify 
existing launch vehicles and/or develop new ones, what is the best case 
scenario for their availability?

A3a. As noted in the question, NASA currently does not have funding to 
initiate crew transportation demonstrations and, therefore, cannot 
accelerate COTS Capability D, nor is funding currently identified in 
the FY 2010 budget. Therefore, if NASA was to be directed to conduct a 
competition for a crew transportation capability, additional funds 
beyond the President's budget submit would be required to avoid impacts 
to other critical programs.
    Even if funding were to be received in FY 2010, NASA does not 
believe that providing additional Government funds to the COTS 
partners--SpaceX and Orbital--would significantly advance the current 
development plans for either partner prior to their currently 
negotiated operational dates for commercial cargo transportation of 
late 2010 and early 2011, respectively. It is important to remember 
that from the beginning, NASA was only intended to be an investor in 
these commercial efforts and that the commercial entities were required 
to provide the remaining funding themselves or through other financing 
efforts.
    Finally, in the event that NASA were to receive substantial new 
funding or be directed to shift funding from other critical programs to 
the development of commercial crew transportation, it would likely take 
vendors from three to four years to develop and qualify a crew 
transportation system.

Q4.  There is a renewed focus on NASA looking back at planet Earth, 
either for climate change research, or weather patterns, or other 
important roles. But I have always thought NASA did its best work when 
it was looking outward--when it was a team of true explorers. It's 
impossible to go over the next hill if you refuse to leave the front 
porch. Isn't it time that we shifted some of these roles over to other 
agencies more fully so that NASA can focus on looking out, rather than 
looking in?

A4. The NAC believes that NASA's leadership role in Earth science 
research should be maintained. Since its establishment 50 years ago, 
NASA has been at the forefront of Earth science research and 
maintaining that expertise should be a national priority. NASA's Earth 
science research program should be strengthened, and its cooperation 
and coordination with other nations, as well as other domestic agencies 
and departments, should be increased.
    A better scientific understanding of the Earth enhances our 
understanding of the solar system and of extra-solar planets . . . and 
vice versa. Earth science and space science have important symmetries 
that argue against moving Earth science research out of NASA. Likewise, 
NASA should continue its traditional role in the development and 
initial on-orbit check-out of operational satellites for other 
agencies.
    NASA is working with domestic agencies to transition operational 
responsibilities where it makes sense. Finding ways to reduce the 
administrative and budgetary complications will likely increase the 
number of successful transitions from research to operations.
    NASA is the Nation's civil space agency, and recent experience has 
shown that other agencies requiring the view from space need the 
expertise of NASA's space systems development centers to achieve their 
goals.

                   Answers to Post-Hearing Questions

Responses by Robert M. Hanisee, Chairman, Audit and Finance Committee, 
        NASA Advisory Council (NAC)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What would be the impact of the one-year funding limitation 
proposed in the House Commerce, Justice, Science, and Related Agencies 
Appropriations Committee bill for FY 2010 on the ability of NASA to 
effectively manage its programs within budget?

A1. NASA is predominately a research and development (R&D) 
organization, and due to the duration and complexity of R&D programs, 
virtually all federal R&D is subject to a two-year period of 
availability. It is hard to understand why NASA should be different and 
enjoy less flexibility than other R&D agencies given that its programs 
are among the most challenging tasks assigned to any federal agency.
    If aimed at correcting perceived shortfalls in obligation 
performance, the House Appropriations Committee proposal would not 
rectify any shortfalls in NASA budget planning or execution. As I 
stressed in my testimony--NASA has greatly improved its financial 
performance. In FY 2008, NASA obligated 98 percent of its funds in 
their first year of availability and is on track for similar 
performance in FY 2009. As noted here and elsewhere, NASA does an 
excellent job in obligating its funding within the first 12 months of 
the period of availability. However, the nature of NASA's programs 
(including the development of unique and extremely complex systems) 
requires flexibility and funding stability. For example, by late summer 
of 2006, NASA had committed to Lockheed to build the Orion crew 
exploration vehicle. NASA had two-year money from '05 and was able to 
use that money to put Orion on contract, once definitized. If NASA had 
been restricted to one-year money, the '05 appropriation would have 
vanished, and more would have been necessary in '06. It is important to 
appreciate that reducing NASA's already limited flexibility will have 
no positive effects and will in fact reduce its ability to effectively 
manage its programs.
    As with other federal R&D agencies, the longstanding policy of two-
year R&D appropriations for NASA should be continued.

Q2.  That same one-year funding limitation provides an allowance of ten 
percent in each operational account as two-year funding. Is that 
proposed allowance of ten percent sufficient, based on your knowledge 
of the Agency's obligation rates and the uncertainty surrounding 
research?

A2. No, ten percent is not sufficient. The House Appropriations 
recommendation to allow ten percent of NASA's R&D appropriations to 
have two-year availability, on an ad hoc basis, would create an 
exceptional level of complexity and only increase costs. As with other 
federal R&D agencies, the longstanding policy of two-year R&D 
appropriations for NASA should be continued.

Q3.  Your prepared statement identifies several steps that NASA has 
taken to address the financial problems that have ``plagued the Agency 
for almost all of this decade.'' Are there any issues in the FY 2010 
budget request and agency plans for the five-year planning horizon that 
could interfere with NASA's progress on financial management?

A3. I do not see any issues in the FY 2010 budget request or Agency 
plans for the five-year planning horizon that would interfere with 
NASA's progress on financial management. That said, however, if 
budgetary constraints necessitated a significant cutback in finance 
department personnel, the result would likely have a negative impact on 
the financial management progress. Aside from such a cutback, the major 
issues keeping the Agency from obtaining a clean external audit opinion 
are technical issues having to do with property accounting and Unfunded 
Environmental Liabilities. We believe that each of these issues will 
yield to time and efforts already underway.

Q4.  While I understand from your testimony that NASA has instituted 
several software packages to facilitate effective financial management, 
I am interested in your perspectives on the role the workforce plays in 
NASA's financial management practices. To what extent has NASA engaged 
its workforce in facilitating effective financial management through 
training, awareness, or other measures?

A4. NASA's workforce does play a key role in facilitating effective 
financial management. Under the direction of the Office of the Chief 
Financial Officer (OCFO), the Agency has undertaken a number of 
training programs for accounting and financial personnel at both 
Headquarters and at the centers. This included training in the use of 
the Integrated Enterprise Management System (IEMP), the Core Accounting 
System, and the Continuous Monitoring Program. Within the Environmental 
Department, training in the use of the IDEAL software package has been 
required, and under the guidance of the Office of the Chief Engineer, 
over 1,600 participants from all NASA Centers have attended 62 NASA-
tailored courses on Earned Value Management to improve program/project 
cost, schedule and performance management.

Q5.  The Subcommittee held a hearing in March to examine cost 
management issues in NASA's acquisitions and programs. To what extent 
does the financial management system enable effective cost management 
of NASA programs?

A5. In addition to the regular financial reports provided to the 
Administrator and to Center and Mission Directors, the Phasing Plan 
developed by the OCFO provides regular input on costs incurred versus 
budget for Themes, Centers, Mission Directorates, and Full Cost 
Elements. The newest tool, which is being deployed by the Office of the 
Chief Engineer, is the Earned Value Management system which integrates 
budgeted costs, incurred costs, time, and progress to date on each 
project. As this system is proliferated throughout the Agency, program 
cost management should improve.

Q6.  In your prepared remarks, you state that ``The NASA Shared 
Services Center (NSSC) is up and running with performance metrics close 
to or above the goal levels. Unfortunately, NSSC is unlikely to ever 
achieve the $100 million cost savings that was the original 
justification for its creation because of persistent low-transaction 
volumes.'' Could you elaborate on the purpose of the Shared Services 
Center and your concerns about low-transaction volumes? What needs to 
be done to address those concerns?

A6. Concerns about a loss of control as financial and other functions 
(travel, grants, etc.) were transferred from the various centers to the 
NASA Shared Service Center (NSSC) at Stennis Space Center, the OCFO 
decided to stage the transfer of these function over time. The Wave 4 
transfers occurred in August of 2008. In early 2009, accounting for 
grants was transferred in. The original justification for establishment 
of the NSSC was that, by relieving the centers of most of their high-
volume accounting and financial systems to a central location, cost 
savings could be realized at the centers. Now, having already 
transferred most of the high-transaction volume functions into the 
NSSC, there is not enough volume flowing through the center to realize 
the cost savings originally projected. To address these concerns, NASA 
will need to find even more high-volume transactions to transfer to 
Stennis or, alternatively, Stennis will need to offer its transaction 
processing services to other (non-NASA) agencies of the U.S. 
Government.

Questions submitted by Representative Pete Olson

Q1.  During our June 18 hearing, witnesses were in general agreement 
that converting NASA's spending authority to one-year money would 
create new hardships for the Agency. Could you elaborate on the 
consequences of such a change and perhaps provide an illustrative 
example?

A1. NASA is predominately a research and development (R&D) 
organization, and due to the duration and complexity of R&D programs, 
virtually all federal R&D is subject to a two-year period of 
availability. It is hard to understand why NASA should be different and 
enjoy less flexibility than other R&D agencies given that its programs 
are among the most challenging tasks assigned to any federal agency.
    If aimed at correcting perceived shortfalls in obligation 
performance, the House Appropriations Committee proposal would not 
rectify any shortfalls in NASA budget planning or execution. As Mr. 
Robert Hanisee, Chairman of the Audit & Finance Committee of the NASA 
Advisory Council (NAC or Council), stressed in his testimony--NASA has 
greatly improved its financial performance. In FY 2008, NASA obligated 
98 percent of its funds in their first year of availability, and is on 
track for similar performance in FY 2009. As noted here and elsewhere, 
NASA does an excellent job in obligating its funding within the first 
12 months of the period of availability. However, the nature of NASA's 
programs (including the development of unique and extremely complex 
systems) requires flexibility and funding stability. For example, by 
late summer in 2006, NASA had committed to Lockheed to build the Orion 
crew exploration vehicle. NASA had two-year money from '05 and was able 
to use that money to put Orion on contract, once definitized. If NASA 
had been restricted to one-year money, the '05 appropriation would have 
vanished, and more would have been necessary in '06. It is important to 
appreciate that reducing NASA's already limited flexibility will have 
no positive effects and will in fact reduce its ability to effectively 
manage its programs.
    The House Appropriations recommendation to allow 10 percent of 
NASA's R&D appropriations to have a two-year availability, on an ad hoc 
basis, would create an exceptional level of complexity and only 
increase costs. As with other federal R&D agencies, the longstanding 
policy of two-year R&D appropriations for NASA should be continued.
    Mr. Hanisee defers to the expertise and insights of the NAC 
Chairman, Dr. Kenneth Ford, to provide the responses to questions 2 
through 5.

Q2.  Re-establishing Advanced Technology Development as an 
independently funded and managed program has been cited as an important 
reform if NASA is to enhance its capability to develop new and perhaps 
paradigm-shifting technologies. What caused the Agency to abandon this 
approach? Was it simply budget: was the return on investment in 
question? How much annual funding would be required to re-establish a 
credible program?

A2. NASA has long enjoyed a reputation as a technology innovator whose 
stressing applications in space and aeronautics have led to an 
incredible range of broadly useful technologies. Several years ago, the 
decision was made to divert a large fraction of the Agency's technology 
investment into the Constellation Program. Unfortunately, technology 
research programs are easily stopped and terribly hard to restart. 
Technology research programs often serve as ``the bank'' or 
``reserves'' to be sacrificed when more visible and near-term 
objectives are short on funding. Also, in the past some of NASA's 
technology programs were accused of looking like ``sandboxes'' not 
clearly tied to the most critical Agency needs.
    A robust and useful technology program at NASA would be dedicated 
to stimulating innovation and developing new capabilities not tied to 
existing mission requirements. Currently, for example, NASA's science 
missions must carry all the technology risk in the program itself. This 
makes missions such as MSL particularly vulnerable to the uncertainties 
and risks associated with the development of fundamentally new 
technology within the mission itself. Additionally, in the human space 
flight side of the house, the lack of a robust technology program has 
naturally driven program managers toward relatively conservative 
designs and limited technology infusion. A much broader technology 
focus would likely enable game-changing solutions that could open up 
entirely new opportunities.
    In addition to advanced technology programs in the mission 
directorates, NASA would be well served by the establishment of a more 
independent technology R&D organization, perhaps modeled loosely after 
DARPA. It has been estimated that NASA could re-establish a credible 
technology program with approximately $500M-$800M in additional 
funding. This level of funding would restore NASA's technology research 
efforts to rough equivalence with its previous level of effort.
    At the July meeting of the NASA Advisory Council, NASA briefed the 
Council on the activities of its Innovation and Technology Initiative. 
This internal working group is in the process of conducting an 
assessment of advanced technology development at NASA and will soon 
produce a report on this topic. The Council was very pleased by this 
initiative and will discuss the forthcoming report at our next meeting 
(October).

Q3.  The International Space Station will, in all likelihood, be 
utilized by NASA for some years beyond 2015 but at present the Agency 
appears unwilling to make such a commitment. Our international partner 
space agencies have been looking for a firm signal from NASA for such a 
commitment, as it helps them deal with their governments to lay in 
long-term funding programs. What's preventing NASA from making such a 
commitment now?

A3. NASA is not taking any action that would preclude a decision to 
extend ISS operations and utilization beyond 2015. The Administration 
will have to determine whether to continue U.S. participation in the 
International Space Station (ISS) Program beyond 2015, and that issue 
is one of those currently being examined by the Review of U.S. Human 
Space Flight Plans Committee (Augustine Committee). The Augustine 
Committee is scheduled to report out options to NASA and to the Office 
of Science and Technology Policy (OSTP) this August. I would anticipate 
that the Administration's decision would follow soon thereafter, and 
NASA would then be able to provide the clarity and commitment that its 
international partners are seeking.

Q4.  What are your thoughts and concerns about engaging more 
intensively with international partners to fly joint missions? What are 
the primary disadvantages against joint international missions, and in 
your view, would U.S. science research priorities likely be jeopardized 
if we were to aggressively engage in joint missions? To what degree do 
export control restrictions make joint missions unwieldy and difficult 
to manage?

A4. International cooperation has long played an important role in 
NASA's exploration and science activities. In spite of the many obvious 
potential advantages of pursuing joint international missions, there 
are also some significant disadvantages, including increased management 
complexity, technical and programmatic risk, and political risk. One 
particularly notable disadvantage that hinders the pursuit of joint 
international missions is that various export control restrictions make 
such international collaborations unnecessarily cumbersome. It has 
become evident that improvements in export control policies are 
necessary to ensure that our foreign partners remain interested in 
working with NASA and our contractors on future joint programs. Any 
assistance that this committee could give to reduce the barriers to 
effective collaboration while maintaining the intended goals of export 
control regulations would greatly enhance the productivity of 
international partnerships in space exploration and science.
    With specific regard to U.S. science priorities, working more 
closely with international partners offers a mix of advantages and 
challenges. As noted above, close cooperation with international 
partners does indeed add complexity to some missions, including 
difficulties arising from the aforementioned export control 
regulations. However, the benefits of increased international 
cooperation, especially in an era of tightened budgets, will likely 
outweigh the potential disadvantages. NASA's Science Mission 
Directorate (SMD) is working closely with the European Space Agency 
(ESA) to forge a new joint Mars architecture that will likely enable 
more science than either space agency could achieve on its own given 
available budgets. That potential cooperation is driven by shared 
science research priorities. This suggests that a joint NASA-ESA Mars 
architecture incorporating shared access to the scientific data may 
actually quicken the pace at which our national science priorities in 
planetary science are achieved. At our most recent meeting (July 2009), 
the NAC recommended that SMD build on the progress to date and expand 
its relationship with ESA to include cooperative Earth science 
missions.

Q5.  Re-invigorating NASA's workforce is especially critical given the 
average age of the Agency's employees. How would you describe the 
attractiveness of NASA as a prospective employer, especially from the 
perspective of a young `fresh-out'? Would they tend to look at NASA as 
a career choice? How can NASA best ensure that the knowledge and 
`lessons learned' will be passed from the current generation of 
scientists and engineers to the next?

A5. From all indications, NASA is still successful at attracting co-op 
students, interns, fresh-outs, and other early-career individuals. 
Every year the research firm, Universum, ranks the most desirable 
employers in the world, based on where undergraduate students say 
they'd most like to work. NASA was ranked as the #1 ideal employer by 
engineering students. Additionally, NASA was ranked as #2 by Natural 
Science students, #5 by Information Technology students, and #12 by 
Liberal Arts students. In my view there is little doubt that NASA is 
generally considered a desirable place to work. That said, I do hope 
that NASA will focus on hiring the very best fresh-outs that our great 
country can produce rather than settling for less.
    Passing along knowledge to the next generation of NASA employees is 
a critical concern. NASA is involved in several efforts specifically 
aimed at enhancing knowledge management and transfer. The Office of the 
Chief Engineer's Academy for Program/Project/Engineering Leadership 
(APPEL) program places a great deal of emphasis on lessons-learned and 
mentoring programs designed to pass knowledge to successive generations 
of engineers and program/project managers. For example, APPEL has 
recently added a two-day ``Space Systems Development: Lessons Learned'' 
course to the curriculum that reviews numerous NASA case studies 
involving designing and building space flight hardware. APPEL is also 
collaborating with the Lessons Learned organizations at each center to 
develop similar offerings. APPEL offers several other courses that 
similarly focus on lessons learned. APPEL also employs numerous former 
NASA ``grey beards'' from past projects such as Hubble Space Telescope, 
Shuttle, and Viking to bring their experience and knowledge to a new 
generation of managers in order to develop strong program teams. NASA 
also encourages knowledge transfer through formal and informal 
mentoring programs.
    However, the success of such efforts rests heavily on NASA's 
ability to hire adequate numbers of new employees of the highest 
caliber. I understand that NASA is developing a hiring initiative 
focused on securing the ``best and brightest'' talent for the future. 
Although this initiative is still in the early stages, I am confident 
that the Agency is progressing toward securing the ``next generation'' 
of scientists and engineers who will ensure NASA's success in the 
future. Close attention must be paid to not just the number of new 
hires but to their quality. If NASA is to inspire the Nation . . . it 
must be staffed by the best our country has to offer.

Q6.  Over the last decade, NASA has employed several different 
financial management schemes that directly affect managers and the 
manner in which the account for--and control--costs within their 
programs and missions. How effective, and how transparent, is the 
current system, especially from the perspective of program and mission 
managers?

A6. Over the past decade, NASA has implemented many financial control 
systems; many of these were ineffective. The current suite of controls, 
which include the Integrated Enterprise Management System (IEMP), the 
Core Accounting System, the Continuous Monitoring System, the Phasing 
and Planning System, and the Enterprise Value Management System are all 
working effectively now. There are still issues that come up with these 
systems, but it is fair to say that they are working effectively . . . 
and with transparency. We will, of course, have a better read on their 
efficacy following the conclusion of the 2009 financial audit. The NAC 
Audit and Finance Committee believes that the timeliness and accuracy 
of financial information provided to Program Managers, Center 
Directors, and to the Administrator are much improved which should 
result in more effective program management.

Q7.  You state that NASA's environmental liability is estimated to be 
$943 million. What are the largest sources of this liability, and at 
$45 million a year, is NASA prudently managing its environmental 
obligations in the communities in which it operates?

A7. As noted in my testimony, at the end of FY 2008, the total unfunded 
environmental liability was $943 million. Within this number were 134 
different projects at 15 NASA sites. The projects range from $12 
thousand to $168 million. The largest of these is the White Sands Test 
Facility (39% of the total) which will take 50 years to complete. There 
are two other sites that could take as long as 100 years to complete. 
The current spend rate on remediation is $45 million per year. The NAC 
Audit and Finance committee does not have an opinion as to whether this 
amount is adequate to manage its environmental obligations in the 
communities in which it operates.

Questions submitted by Representative Dana Rohrabacher

Q1.  It is always easy to advocate for more money for NASA. Assuming, 
however, a relatively flat budget, especially for the years following 
2010, what guidance can you offer regarding areas in NASA's budget: 
what areas are of highest priority to you, and what areas are the 
lowest priority? What can NASA or Congress do to maximize the science 
return on its budget? For instance, do you believe it would be prudent 
to consider closing one or more centers? If so, which ones? Are there 
programs that need bolstering? Please offer your best guidance.

A1. In my view, the highest budget priority is to develop a capable and 
flexible space transportation architecture as quickly as feasible. In 
particular, the key element in the exploration architecture is the 
development of a heavy lift launch vehicle. I urge Congress to 
accelerate and prioritize development of this capability as it is the 
lynchpin to everything we will do in human space flight beyond low-
Earth orbit.
    Maximizing the science return of NASA's budget requires a number of 
coordinated steps. First, NASA needs to retain scientific peer review 
and the National Research Council's decadal surveys as important 
components of its decision-making processes. The use of scientific peer 
review and the priority-setting processes of the decadal surveys are 
crucial to ensuring that the highest priority science remains at the 
forefront of NASA planning. Second, NASA's science portfolio needs to 
maintain a balance among small, medium, and large programs. Each class 
of mission contributes to the advance of science and to the health of 
American's scientific and technological base in different ways. 
Maintaining a balance among the size of missions helps to smooth out 
science opportunities over time and allows the larger scientific 
community to plan appropriately. Third, NASA needs to continue to 
involve the larger scientific community in decisions on how to control 
cost growth. The steps underway to improve the cost estimates 
associated with the decadal surveys (especially the use of independent 
cost reviews) and budgeting at the 70 percent confidence level are 
important first steps. Finally, NASA would benefit from greater 
stability in its funding, including funding for science. Funding 
stability from year to year and receiving appropriated funds at the 
beginning of each fiscal year would reduce the cost of changes to 
programs and their industrial contracts and the uncertainty of the 
annual planning and implementation cycle, freeing up more funds earlier 
for scientific research. Further, it is important that NASA not be 
shifted to one-year funding--which would be unique amongst U.S. R&D 
agencies.
    The NAC has not reviewed the question of whether it would be 
prudent to consider closing one or more centers. With respect to 
programs needing bolstering, I would advocate re-establishing a robust 
technology research program at NASA.

Q2.  We're all familiar with the large and growing threat that orbital 
debris poses to our people and assets in space. This subcommittee 
recently held a hearing on the topic. AIA recently hosted a briefing on 
this critical issue. And I think we would all agree that it is critical 
for us to get working on some form of remediation effort.

Q2a.  First--do you all agree on that?

A2a. I absolutely agree that the space debris issue is a matter of 
significant concern that will only worsen if nothing is done to address 
the problem.

Q2b.  Second--is NASA the right agency to head this up?

A2b. As I understand it, NASA does not have the authority to head up a 
space debris removal effort and that the United States Air Force would 
likely lead any such effort. NASA can provide technical assistance, and 
the NASA Orbital Debris Program Office has evaluated a wide range of 
concepts for the removal of orbital debris. Also the Defense Advanced 
Research Projects Agency (DARPA) is playing an important role in the 
search for a cost-effective means of removing hazardous orbital debris.

Q2c.  Third--what are the hurdles we need to overcome to create an 
international effort to get rid of all this debris up there?

A2c. Although there are economic and legal hurdles, the primary 
challenges associated with creating an international debris remediation 
effort remain technical in nature. That is, a practical and affordable 
means of removing orbital debris has yet to be identified.

Q2d.  Fourth--what are the proper roles for commercial entities to play 
in this?

A2d. As major operators of orbital space systems, commercial users 
certainly have a significant stake in development of a method for space 
debris remediation. I understand that NASA and DARPA are in dialogue 
with commercial entities as they investigate various means of removing 
hazardous orbital debris.

Q3.  The recent Aerospace Safety Advisory Panel (ASAP) Annual report 
stated: ``From a safety standpoint, the ASAP strongly endorses the NASA 
position on not extending Shuttle operations beyond successful 
execution of the December 2008 manifest, completing the ISS.'' As you 
know, this leaves us with a significant gap in our domestic access to 
space. The ASAP report goes on to say ``[we] are not convinced that the 
Ares I and Orion initial operating capability (lOC) date can be 
improved appreciably by additional resources.'' So if we can't extend 
the Shuttle for safety reasons, and we can't move up the Ares I/Orion 
date, how could we best spend resources in trying to minimize this gap 
in space access?

A3. NASA believes that the best way forward is to remain focused on 
flying out the remaining seven Space Shuttle missions safely, even if 
the manifest slips--and continuing the development of the NASA is 
promoting the commercial space economy by relying on industry to 
provide cargo resupply services to the International Space Station 
(ISS) through the two Commercial Resupply Services contracts signed 
last December. It is important that NASA's industry partners 
concentrate on developing the technologies and techniques required to 
deliver uncrewed vehicles to orbit and conduct proximity operations and 
docking maneuvers with the Station before they move on to developing 
crew transportation systems. The need for commercial resupply is 
critical to the continued operation and conduct of research aboard ISS, 
and lessons learned in the development and operation of the cargo 
vehicles will help the development of later crewed systems. The 
approach of demonstrating cargo first and then stepping up to crew 
transportation is the best way forward. It is also important to note 
that NASA is planning to codify human space flight vehicle requirements 
in order to assist in the development of those capabilities.
    At this point, there is not any viable option that will eliminate 
the gap in U.S. crew transportation to space. That said, by providing 
NASA with adequate funding and allowing it the freedom to manage these 
projects without extensive external guidance and constraints this gap 
could be minimized. There will be issues with the technical 
development, and these issues will need to be worked by the technical 
experts. Continuing to change plans will only delay the development 
process.

Q3a.  The report also states ``There is no evidence that Commercial 
Orbital Transportation Services (COTS) vehicles will be completed in 
time to minimize the gap.'' Except for the fact that there is 
inadequate funding to fulfill COTS-D, is there evidence that COTS 
couldn't be available in time to minimize this space gap? Or reduce it? 
If NASA were to immediately fund these commercial efforts to modify 
existing launch vehicles and/or develop new ones, what is the best case 
scenario for their availability?

A3a. As noted in the question, NASA currently does not have funding to 
initiate crew transportation demonstrations and, therefore, cannot 
accelerate COTS Capability D, nor is funding currently identified in 
the FY 2010 budget. Therefore, if NASA was to be directed to conduct a 
competition for a crew transportation capability, additional funds 
beyond the President's budget submit would be required to avoid impacts 
to other critical programs.
    Even if funding were to be received in FY 2010, NASA does not 
believe that providing additional government funds to the COTS 
partners--SpaceX and Orbital--would significantly advance the current 
development plans for either partner prior to their currently 
negotiated operational dates for commercial cargo transportation of 
late 2010 and early 2011, respectively. It is important to remember 
that from the beginning, NASA was only intended to be an investor in 
these commercial efforts and that the commercial entities were required 
to provide the remaining funding themselves or through other financing 
efforts.
    Finally, in the event that NASA were to receive substantial new 
funding or be directed to shift funding from other critical programs to 
the development of commercial crew transportation, it would likely take 
vendors from three to four years to develop and qualify a crew 
transportation system.

Q4.  There is a renewed focus on NASA looking back at planet Earth, 
either for climate change research, or weather patterns, or other 
important roles. But I have always thought NASA did its best work when 
it was looking outward--when it was a team of true explorers. It's 
impossible to go over the next hill if you refuse to leave the front 
porch. Isn't it time that we shifted some of these roles over to other 
agencies more fully so that NASA can focus on looking out, rather than 
looking in?

A4. The NAC believes that NASA's leadership role in Earth science 
research should be maintained. Since its establishment 50 years ago, 
NASA has been at the forefront of Earth science research and 
maintaining that expertise should be a national priority. NASA's Earth 
science research program should be strengthened, and its cooperation 
and coordination with other nations, as well as other domestic agencies 
and departments, should be increased.
    A better scientific understanding of the Earth enhances our 
understanding of the solar system and of extra-solar planets . . . and 
vice versa. Earth science and space science have important symmetries 
that argue against moving Earth science research out of NASA. Likewise, 
NASA should continue its traditional role in the development and 
initial on-orbit check-out of operational satellites for other 
agencies.
    NASA is working with domestic agencies to transition operational 
responsibilities where it makes sense. Finding ways to reduce the 
administrative and budgetary complications will likely increase the 
number of successful transitions from research to operations.
    NASA is the Nation's civil space agency, and recent experience has 
shown that other agencies requiring the view from space need the 
expertise of NASA's space systems development centers to achieve their 
goals.
                   Answers to Post-Hearing Questions
Responses by Berrien Moore III, Member, National Academies' Space 
        Studies Board (SSB)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  While the Administration has requested increases for NASA in the 
FY10 budget and Congress has provided additional funding through the 
Recovery Act, the outyear projections for NASA's budget are essentially 
flat. What are your biggest concerns about the projected budget for 
NASA over the next five years?

A1. I share the concerns, which are well understood by this committee, 
that NASA is being tasked to do too much with too little. The ``Review 
of United States Human Space Flight Plans Committee'' (also known as 
the HSF Committee or the Augustine Commission) concluded that the 
United States could conduct a ``meaningful'' human space flight program 
only by adding at least $3 billion annually to NASA's budget. Our 
ability to execute the high priority Earth observation programs 
recommended in the 2007 NRC decadal survey that I co-chaired, ``Earth 
Science and Application from Space,'' also requires a budget 
enhancement. The funding needs that the Decadal Study projected were to 
return the Earth science budget to the dollar equivalent that was 
available in FY 2000. Unfortunately, this budget growth has not 
materialized and mission costs have exceeded assumptions. With a flat 
top line budget and tremendous pressures coming from the human space 
flight side of the agency, I am greatly concerned about the viability 
of the Earth observation programs in general and our ability to provide 
decision-makers with critical data related to the pace, magnitude, and 
impacts of climate change in particular. In a recent (December 14 2009) 
issue of Space News, I also set forth the important role of space 
observation in improving climate models.

Q2.  Global climate change is one of the major issues facing the Nation 
and the world, and NASA's Earth observation data and research have 
contributed significantly to the understanding of climate change. 
However, there are other nations with Earth observation systems that 
are also collecting climate change data and information. What is the 
status of international cooperation on global climate change 
monitoring? What, if anything, is needed to ensure that effective 
mechanisms are in place to facilitate international collaboration on 
global climate research and monitoring?

A2. The Group on Earth Observations is a reasonably effective 
international coordination mechanism; however, it does not bring 
``new'' money to the table. NASA actively pursues collaborations with 
other space-faring nations. However, the budgets of many space agencies 
are under pressure, and as a consequence, there is both a national and 
an international inadequacy of Earth observing capabilities. The one 
additional element that I could foresee as making a fundamental 
difference would be, in effect, a U.S.-led international initiative on 
climate monitoring and research. In this regards, let me note that in 
July 2009 the National Research Council released a new report, 
``America's Future in Space: Aligning the Civil Space Program with 
National Needs,'' which set forth six strategic goals for guiding 
program choices and resource planning for U.S. civil space activities. 
The first of these is: ``To re-establish leadership for the protection 
of Earth and its inhabitants through the use of space research and 
technology.''

Q3.  As a Co-Chair of the National Academies' Earth science decadal 
survey study, what is your perspective on the difference between the 
decadal survey committee's cost estimate and NASA's current estimate to 
develop the first two decadal missions--SMAP and ICESat-II?

A3. Absent the resources to contract for rigorous independent cost 
estimates, the Decadal Survey relied mostly on scientists and engineers 
at various NASA centers to validate internally-derived estimates, or 
more typically to provide a NASA-derived cost estimate. For missions 
that did not have strong traceability to past development, the 
estimates were understandably very rough; further, cost estimates for 
these comparatively immature missions were more likely to suffer from 
overly optimistic views on the technical challenges for implementation. 
In contrast, we believed our estimates of the cost of SMAP and ICESat-
II would be on firmer ground.
    SMAP was effectively the reincarnation of Hydros, a mission first 
proposed in response to NASA's third solicitation for the cost-capped 
Earth System Science Pathfinder Program (ESSP). Hydros was selected as 
an alternate ESSP mission in 2002, and selected for mission formulation 
in December 2003. However, in 2005, as part of NASA's response to a 
$3.1 billion shortfall in flight-related programs, Hydros was not 
funded and the mission was effectively canceled. With an identical 
instrument suite to Hydros, SMAP cost estimates were thought to be well 
understood. ICESat-II was envisioned by the survey as effectively a re-
flight of the existing ICESat mission; again, the survey team believed 
it understood its costs very well.
    Estimates for the cost of both of these missions have risen 
dramatically. In February 2007, NASA presented cost estimates for the 
SMAP mission that were $350-$400 million,\1\ which are consistent with 
the Decadal Survey's estimate of $300 million  30 percent (FY 2006 
dollars). Estimates for SMAP are reportedly now closer to $700 million. 
Some of this increase is the result of recent changes in launch vehicle 
costs, new requirements for NASA to budget missions with higher 
reserves (so that target costs will not be exceeded to a 70 percent 
confidence level), and a stretching of the schedule for mission 
completion.
---------------------------------------------------------------------------
    \1\ Stephen Volz, Associate Director, Flight Projects, NASA Earth 
Science Division, ``New Mission Concepts for the Future, February 7, 
2008. Available at: http://tinyurl.com/y8sjjsv
---------------------------------------------------------------------------
    However, I believe a significant fraction of the cost increase is 
associated with the mission being executed ``in-house'' at the NASA Jet 
Propulsion Laboratory, versus execution in the ``Principal-Investigator 
Mode'' envisioned by the Decadal Survey. Executing missions in-house 
has proven to incur several penalties: 1) it eliminates any competition 
and cost controlling mechanisms; 2) it eliminates any programmatic view 
of the importance of the whole rather than of a particular missions, 
which has lead to increasing the mission requirements of each mission 
at a penalty to our ability to accomplish the whole, and 3) it 
eliminates the potential innovation of the university or private sector 
communities. Finally, in missions executed in-house by NASA are 
incurring higher costs as a result of supposedly revenue neutral change 
to ``full-cost'' accounting. The Decadal Survey missions SMAP, ICESat-
II and CLARREO are being developed in-house at NASA's Jet Propulsion 
Laboratory, Goddard Space Flight Center, and Langley Research Center, 
respectively.
    Estimates for the cost of ICESat-II have also increased 
dramatically from survey estimates. Some of the increases are the 
result of the mission being executed in-house at NASA's Goddard Space 
Flight Center as well as the accounting and budgetary changes noted 
above. In addition, ICESat-II is now being designed with a longer 
lifetime (five years vs. the survey's estimate of three years), which 
has significant impact on the cost of the laser and other components. 
In addition, the collection optics for ICESat-II are larger than ICESat 
and the resulting instrument package has had to move to a larger, more 
expensive launch vehicle.\2\
---------------------------------------------------------------------------
    \2\ The Decadal Survey assumed availability of Delta-II class 
launch vehicles for medium-lift needs. It should also be noted that the 
Delta-II line, first introduced some 20 years ago, is being 
discontinued. Until replacements are developed (Falcon 9 and Taurus 2), 
missions requiring only medium-class launchers may be forced to use 
more expensive, larger-class launch vehicles.
---------------------------------------------------------------------------
    ICESat-II will also carry a multi-beam laser versus the single beam 
on ICESat to meet science requirements of annually and seasonally 
resolved elevation and mass changes, particularly in areas with larger 
surface slopes or with slopes changing with time.
    Finally, I note that the CLARREO mission has experienced a larger 
percentage growth in cost than either SMAP or ICESat-II. In addition to 
being executed in-house and being subject to the budgetary and 
accounting changes already noted, NASA concluded that the baseline 
mission envisioned by the survey would not meet mission objectives. 
Changes in the number of spacecraft and instrument capabilities account 
for a sizable fraction of the increase in CLARREO's estimated costs, 
which are now some $800 million.

Q3a.  What is your reaction to NASA's efforts to manage cost growth 
through the use of independent cost estimates and budgeting at a 70 
percent confidence level?

A3a. I support both approaches; however, I am not certain that they 
would prevent the problems of ``assignment to Centers'' (noted above).

Q3b.  What are the most critical issues on cost management that this 
Subcommittee should consider as it prepares to reauthorize NASA?

A3b. Mission cost caps might be of use to control a science 
requirements generation process that otherwise has a natural tendency 
to push capabilities beyond what might be analogous to a ``sweet spot'' 
in cost versus capabilities. We should recognize that even with 
improved cost management, the NASA budget is not adequate to support 
implementation of the Decadal Survey in anything like that envisioned 
and, more importantly, what is needed. I believe that the ``wedge'' 
that is described in the Decadal Study was adequate, but under current 
cost estimates and performance, this wedge (even though aggressive) 
falls far short of being adequate to meet current and future NASA costs 
for vitally-needed Earth observing missions.

Q4.  The Orbiting Carbon Observatory (OCO) satellite was unfortunately 
lost in a launch failure earlier this year. NASA's budget request does 
not include funds for a replacement satellite yet NASA has indicated 
that it is looking at options for re-flying OCO or a similar sensor. 
How important is an OCO-like satellite for climate change research and 
for verification and validation of potential climate policies and/or 
agreements?

A4. I begin by noting that the specific measurements needed to support 
a treaty monitoring/verification regime, or notional market-based 
carbon dioxide (CO<INF>2</INF>) trading schemes, will vary according to 
the specific mechanism proposed (e.g., sectors covered, time scale for 
compliance, size of projects/sources considered). Most proposed 
mechanisms require knowledge of how much is being emitted and by whom 
(i.e., magnitude and attribution). Some require knowledge of where the 
carbon is going or where it is stored (e.g., offset mechanisms). The 
degree of acceptable uncertainty in any of these factors will determine 
which specific measurements are needed.
    A National Research Council committee is conducting a study on how 
well greenhouse gas emissions can be measured for treaty monitoring and 
verification. The committee's initial analysis suggested that NASA's 
Orbiting Carbon Observatory (OCO), which failed on launch in February 
2009, would have provided proof of concept for space-borne technologies 
to monitor greenhouse gas emissions, as well as some baseline emissions 
data. However, it is important to recognize that OCO was designed to 
meet science requirements that called for the capability to measure 
atmospheric carbon dioxide with the precision, resolution, and coverage 
needed to characterize regional scale CO<INF>2</INF> sources and sinks 
and quantify their variability over the seasonal cycle. The orbital 
path, viewing geometry, and observing strategy that results from 
consideration of these requirements is less than ideal from that 
desired for treaty monitoring and verification. It is especially 
important to recognize that the instrument on OCO that detects CO<INF>2</INF> 
makes measurements using reflected sunlight (more precisely, an 
instrument on OCO detects changes in reflected sunlight in known near-
infrared absorption bands of CO<INF>2</INF>); therefore, OCO can only 
operate in the daytime. Further, in the wintertime at high latitudes, 
there is too little sunlight to make these measurements.
    Nevertheless, as clearly explained in a letter report on OCO dated 
July 28, 2009 (http://www.nap.edu/
openbook.php?record<INF>-</INF>id=12723&page=1), the currently deployed 
suite of ground and space-based sensors--both U.S. and foreign--are not 
adequate for monitoring of prospective treaties. A re-flight of OCO is 
also advantageous as it could occur relatively quickly and at lower 
cost compared to alternatives.
    For the issues of verification and validation of potential climate 
policies and/or agreements, we will eventually need a separate carbon 
monitoring system that employs multiple platforms deployed on the 
ground, from aircraft, over the oceans, and in space. The ASCENDS 
mission that was recommended in the Decadal Study could play an 
important role in the space-based component of an overall system. 
ASCENDS would use an active sensor (lidar), which would allow 
measurements at night and at very high latitudes, where reflected 
sunlight techniques cannot make observations. (Over areas with 
reflected sunlight, passive techniques are currently more precise and 
have higher down-track spatial resolution.)

Q4a.  What is the impact to the overall Earth science program if NASA 
launches an OCO-like replacement without receiving additional funds?

A4a. It will simply be a tax on an inadequate budget, and therefore 
will result in further delay of the missions in the Decadal Study 
queue. It is important to note that NASA's Earth Science programs are 
already being impacted by a large unfunded mandate of some $140 million 
to incorporate a thermal infrared sensor on the Landsat Data Continuity 
Mission.

Q5.  You have been involved, in some way, in science and engineering 
education and with developing the workforce of America's space program. 
What are your thoughts on the most critical issues and priorities that 
NASA should address as part of its educational activities and workforce 
programs going forward? What, if anything, in NASA's education programs 
and portfolio would you change, and why?

A5. NASA should become a focal point for creativity and innovation. It 
must become again an agent that embraces and accelerates change. It has 
lost touch with young people because it is seen as being backward 
focused (going back to the Moon is hardly a step-forward).
    I would expand significantly the educational programs and 
responsibilities within the science and exploration lines and not leave 
education to an Education Office. This said, there must be 
accountability for these educational programs within the exploration 
and science lines and these programs must not be allowed to be ``slush 
funds'' to use against cost overruns.

Q6.  What, in your view, should be the criteria for determining whether 
technology, instruments, or other project activities should be 
developed at NASA Centers or externally through competitive bidding? 
What, if anything, does Congress need to consider regarding the balance 
and diversity of institutions supporting NASA's programs?

A6. The primary criterion for any activity for a NASA Center is the 
issue of national capability vs. industrial and/or university 
capabilities. NASA should be doing tasks that are primarily tasks that 
no university or industry (or collections thereof) can do.
    Regarding the balance and diversity of institutions supporting NASA 
programs: There are many aspects to this question, but a key issue is 
finding the appropriate balance between programs executed inside or 
outside of the NASA Centers. As I noted in my response to Question 3, 
above, executing missions in-house has proven to incur several 
penalties; I believe competition from industry and university-based 
researchers is both fiscally responsible and desirable from a 
scientific perspective.

Questions submitted by Representative Pete Olson

Q1.  During our June 18 hearing, witnesses were in general agreement 
that converting NASA's spending authority to one-year money would 
create new hardships for the agency. Could you elaborate on the 
consequences of such a change, and perhaps provide an illustrative 
example?

A1. Most of NASA's research and development activities are inherently 
multi-year. To force-fit annual commitments on what is fundamentally 
multi-year will only lead to ineffective (or worse) actions. By way of 
examples: Consider the very simple task of granting a fellowship for 
graduate education, or the complicated contractual efforts to build a 
Shuttle replacement, and assume that you can only make a commitment 
(even if monies are available) for one year. Clearly, such an 
arrangement would be cumbersome at best.

Q2.  Re-establishing Advanced Technology Development as an 
independently funded and managed program has been cited as an important 
reform if NASA is to enhance its capability to develop new and perhaps 
paradigm-shifting technologies. What caused the agency to abandon this 
approach? Was it simply budget; was the return on investment in 
question? How much annual funding would be required to re-establish a 
credible program?

A2. Although my knowledge of this area is limited, it should be noted 
that the Space Studies Board recently completed a report, ``Fostering 
Visions for the Future: A Review of the NASA Institute for Advanced 
Concepts,'' that addresses aspects of these questions. The report is 
available from the Board, or it can be download at: http://www.nap.edu/
catalog.php?record<INF>-</INF>id=12702

Q3.  The International Space Station will, in all likelihood, be 
utilized by NASA for some years beyond 2015 but at present the agency 
appears unwilling to make such a commitment. Our international partner 
space agencies have been looking for a firm signal from NASA for such a 
commitment, as it helps them deal with their governments to lay in 
long-term funding programs. What's preventing NASA from making such a 
commitment now?

A3. My assumption is that NASA is still ``digesting'' the report from 
the Augustine Commission, but clearly this digestion needs to be 
accomplished soon.

Q4.  What are your thoughts and concerns about engaging more 
intensively with international partners to fly joint missions? What are 
the primary disadvantages against joint international missions, and in 
your view, would U.S. science research priorities likely be jeopardized 
if we were to aggressively engage in joint missions? To what degree do 
export control restrictions make joint missions unwieldy and difficult 
to manage?

A4. I am a strong supporter of international collaboration as a way to 
leverage scarce resources and to advance non-scientific national 
objectives. The obvious disadvantages of working with international 
partners include the additional complexity of mission management and an 
increased vulnerability to ``failure'' should one of the partners fail 
to provide promised resources. It should be noted, however, that in the 
past we have found our partners to be highly reliable. Collaboration 
also ensures that often knotty problems related to data availability 
and compatibility are worked out in advance.
    The U.S. Government mechanism for controlling dual-use items--items 
in commerce that have potential military use--is the Export 
Administration Regulations (EAR) administered by the Department of 
Commerce; items defined in law as defense articles fall under the 
jurisdiction of the Department of State and the International Traffic 
in Arms Regulations (ITAR). Because of the potential military 
implications of the export of defense articles, the ITAR regime imposes 
much greater burdens (on both the applicant and the government) than 
does the EAR regime during the process of applying for, and 
implementing the provisions of, licenses and technical assistance 
agreements.
    Until the early 1990s export control activity related to all space 
satellites (commercial and scientific) was handled under ITAR. Between 
1992 and 1996 the George H.W. Bush and the Clinton Administrations 
transferred jurisdiction over the licensing of civilian communications 
satellites to the Commerce Department under EAR. In 1999, however, in 
response to broad concerns about Chinese attempts to acquire U.S. high 
technology, the U.S. House of Representatives convened the Select 
Committee on U.S. National Security and Military/Commercial Concerns 
with the People's Republic of China, also known as the Cox Committee.
    One of the many consequences of the Cox Committee's report was 
Congress's mandate that jurisdiction over export and licensing of 
satellites and related equipment and services, irrespective of military 
utility, be transferred from the Department of Commerce to the State 
Department and that such equipment and services be covered as defense 
articles under ITAR. Scientific satellites were explicitly included 
despite their use for decades in peaceful internationally conducted 
cooperative scientific research. It is widely recognized that the shift 
in regulatory regime from EAR to ITAR has had major deleterious effects 
on international scientific research activities that depend on 
satellites, space flight hardware, and other items that are now 
controlled by ITAR. Furthermore, contravening U.S. interests in 
attracting foreign students to U.S. universities, the capture of space 
technology by ITAR has caused serious problems in the teaching of 
university space science and engineering classes, virtually all of 
which include non-U.S. students.

Q5.  Reinvigorating NASA's workforce is especially critical given the 
average age of the Agency's employees. How would you describe the 
attractiveness of NASA as a prospective employer, especially from the 
perspective of a young `fresh-out'? Would they tend to look at NASA as 
a career choice? How can NASA best ensure that the knowledge and 
`lessons learned' will be passed from the current generation of 
scientists and engineers to the next?

A5. I find NASA to still be an exciting and inviting place to work and 
its post-Apollo achievements from the Hubble Space Telescope to 
planetary probes to the Earth Observing System demonstrate that the 
Agency is more than capable of carrying out world-class and 
transformative research. Regrettably, NASA is now being asked to do 
``too much with too little'' and its capabilities across the board are 
suffering. Regarding specific workforce issues, I recommend to the 
Committee the recent Space Studies Board report, ``Building a Better 
NASA Workforce: Meeting the Workforce Needs for the National Vision for 
Space Exploration'' (available at: http://books.nap.edu/
catalog.php?record<INF>-</INF>id=11916). Although this report focuses 
on the needs of the human space flight program, much of its discussion 
to the broader questions that are posed above.

Q6.  Over the last decade, NASA has employed several different 
financial management schemes that directly affect managers and the 
manner in which the account for--and control--costs within their 
programs and missions. How effective, and how transparent, is the 
current system, especially from the perspective of program and mission 
managers?

A6. In my view, the current system (including ``full cost accounting'') 
is neither effective or transparent, but I am not a ``program and 
mission manager.''

Questions submitted by Representative Dana Rohrabacher

Q1.  It is always easy to advocate for more money for NASA. Assuming 
however, a relatively flat budget, especially for the years following 
2010, what guidance can you offer regarding areas in NASA's budget, 
what areas are of highest priority to you, and what areas are the 
lowest priority? What can NASA or Congress do to maximize the science 
return on its budget? For instance, do you believe it would be prudent 
to consider closing one or more Centers? If so, which ones? Are there 
programs that need bolstering? Please offer your best guidance.

A1. I believe that NASA's highest priorities are in the areas of Earth 
observations and the support of science and exploration. In order to 
rank the lowest priorities, I would need additional information 
regarding the parts of NASA with which I am less familiar.
    To maximize our science return, we must begin by increasing our 
ability to control costs--this will free up precious dollars that are 
required to support research and analysis programs.
    Closing Centers: The previous NASA Administrator committed the 
agency to a strategy to maintain, ``10 healthy centers.'' I believe the 
consolidation of one or more NASA Centers could be accomplished without 
a deleterious impact on NASA's core capabilities.
    Which one? I would recommend that the Committee consider an 
approach similar to that adopted by DOD (the Brac Commission: (http://
www.brac.gov/).
    What programs need bolstering? My view is well know: The Decadal 
Survey, Earth Science and Applications from Space, presented an 
integrated program to advance Earth system science and deliver 
information and data products of vital importance to the health of our 
nation. Especially as we confront a multitude of rapidly changing 
environmental forces, there can be no higher priority within NASA than 
robust support for these programs.

Q2.  Cost growth in missions, especially flagship, is seriously 
challenging the Agency's ability to sustain a broad portfolio of 
science missions. No matter recent efforts to use more realistic 
estimates, there continues to be evidence that the phenomenon exists 
today among missions now going through the earliest stages of pre-
formulation planning. What is the largest source of cost growth, and 
going forward, what structural changes would you recommend to guard 
against exorbitant, unanticipated increases?

A2. I do not know the largest ``source of cost growth,'' but among the 
problems are: a) maintaining the size of the Agency and full cost 
accounting, b) selling missions at a low cost when the reality is 
otherwise, and c) using (and being forced to use) an inefficient cost 
profile; for example, by stretching out missions as they encounter 
funding or technical delays.
    A National Research Council study, ``Cost Growth in NASA Earth and 
Space Science Missions,'' is nearing completion. This study is charged 
with identifying the primary causes of cost growth in NASA Earth and 
space science missions involving large, medium, and small spacecraft. 
The study will also recommend what changes, if any, should be made to 
contain costs and ensure frequent mission opportunities in NASA's Earth 
and space science programs. In particular, the committee was asked to:

        <bullet>  Review existing cost growth studies related to NASA 
        space and Earth science missions and identify their key causes 
        of cost growth and strategies for mitigating cost growth.

        <bullet>  Assess whether those key causes remain applicable in 
        the current environment and identify any new major causes.

        <bullet>  Evaluate the effectiveness of current and planned 
        NASA cost growth mitigation strategies and, as appropriate, 
        recommend new strategies to ensure frequent mission 
        opportunities.

Q3.  We're all familiar with the large and growing threat that orbital 
debris poses to our people and assets in space. This subcommittee 
recently held a hearing on the topic. AIA recently hosted a briefing on 
this critical issue. And I think we would all agree that it is critical 
for us to get working on some form of remediation effort.

        a.  First--do you all agree on that?

        b.  Second--is NASA the right agency to head this up?

        c.  Third--what are the hurdles we need to overcome to create 
        an international effort to get rid of all this debris up there?

        d.  Fourth--what are the proper roles for commercial entities 
        to play in this?

A3. The problem of orbital debris is indeed one that is growing in 
importance. I am not sufficiently expert to usefully comment on the 
questions raised here. I do note that a number of authoritative reports 
on the technical issues are available (including a 1995 report from the 
NRC: http://www.nap.edu/catalog.php?record<INF>-</INF>id=4765).

Q4.  The recent Aerospace Safety Advisory Panel (ASAP) Annual report 
stated: ``From a safety standpoint, the ASAP strongly endorses the NASA 
position on not extending Shuttle operations beyond successful 
execution of the December 2008 manifest, completing the ISS.'' As you 
know, this leaves us with a significant gap in our domestic access to 
space. The ASAP report goes on to say ``[we] are not convinced that the 
Ares I and Orion initial operating capability (IOC) date can be 
improved appreciably by additional resources.'' So if we can't extend 
the Shuttle for safety reasons, and we can't move up the Ares I/Orion 
date, how could we best spend resources in trying to minimize this gap 
in space access?

        a.  (Follow-up): The report also states ``There is no evidence 
        that Commercial Orbital Transportation Services (COTS) vehicles 
        will be completed in time to minimize the gap.'' Except for the 
        fact that there is inadequate funding to fulfill COTS-D, is 
        there evidence that COTS couldn't be available in time to 
        minimize this space gap? Or reduce it? If NASA were to 
        immediately fund these commercial efforts to modify existing 
        launch vehicles and/or develop new ones, what is the best case 
        scenario for their availability?

A4. I do not believe that I can offer any advice that is better than 
what the Augustine Commission provided.

Q5.  There is a renewed focus on NASA looking back at planet Earth, 
either for climate change research, or weather patterns, or other 
important roles. But I have always thought NASA did its best work when 
it was looking outward--when it was a team of true explorers. It's 
impossible to go over the next hill if you refuse to leave the front 
porch. Isn't it time that we shifted some of these roles over to other 
agencies more fully so that NASA can focus on looking out, rather than 
looking in?

A5. ``Looking back'' at planet Earth is one of the best ways to look 
forward into the nature of tomorrow's climate, which will have profound 
implications that range from the availability of fresh water in the 
western regions of the United States to the agricultural productivity 
of the Midwest to the vulnerability of our coastal regions to sea-level 
rise and potentially more intense severe weather events. Indeed, the 
entire U.S. economy and our national security will be affected by 
changes in global climate. The question of whether NASA is engaged in 
activities that are better suited to other agencies is embedded in a 
larger problem: The Nation lacks a coherent strategy for Earth 
observations that provides for operational climate monitoring and 
prediction, scientific advances, and the continuation of long-term 
measurements.
                   Answers to Post-Hearing Questions
Responses by J.P. Stevens, Vice President for Space Systems, Aerospace 
        Industries Association (AIA)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  While the Administration has requested increases for NASA in the 
FY10 budget and Congress has provided additional funding through the 
Recovery Act, the out year projections for NASA's budget are 
essentially flat. What are your biggest concerns about the projected 
budget for NASA over the next five years?

A1. Inadequate funding could lead to the postponement of projects in 
the Constellation Program and other programs which would harm our 
aerospace workforce. Our civil and contractor space Shuttle workforce 
has unique skills and history at NASA that will be valuable to later 
projects. If they cannot transition to new projects as the Shuttle 
retires, we are in danger of losing those workers to other jobs outside 
of the space community from which they may not return.
    A second concern is the need for additional funding to operate the 
International Space Station through 2020. (In April the CBO projected 
these costs at $1.4B annually.) These funds should be in addition to 
current funding projections so ISS operation does not impact other NASA 
projects.

Q2.  Now that the ISS is nearly complete, there is ongoing dialogue 
about the need to fully utilize the ISS laboratory. What is the 
significance of the ISS for NASA's future research and exploration 
activities and for society? What is needed, and when, to make full use 
of the ISS asset? Aside from the results of the Augustine committee's 
review, what are the decisions that will determine the extent and 
longevity of ISS utilization?

A2. The ISS is the only system in place to study long-term effects on 
humans in space. It also is a good model or test bed for understanding 
the demands of critical systems crew will need for longer journeys 
beyond low-Earth orbit.
    For full use of the ISS there will need to be appropriate 
transportation to take equipment up to the ISS and to return samples to 
Earth. There are several options for delivery to the ISS during the 
gap, such as Soyuz, Progress, ATV, HTV, and Commercial Resupply 
Services (CRS). However, the only solutions for down-mass needs are 
Soyuz--which has very limited space--and a CRS system capable of re-
entry that is currently under development.
    Furthermore, as mentioned above, the ISS will need funding to 
operate through 2020. These funds should be in addition to current NASA 
funding projections so ISS operation does not impact other NASA 
projects.

Q3.  The AIA report, ``The Role of Space in Addressing America's 
National Priorities,'' recommends that ``The Administration should 
establish, fund, and implement a U.S. Earth Observation architecture as 
a national priority.'' Has AIA given any guidance on what such an 
architecture should look like. What questions need to be asked and what 
decisions need to be made in planning an Earth Observation 
architecture?

A3. The U.S. needs a robust Earth Observation capability to sustain our 
collection of critical global data. Currently, there is no overarching 
architecture to serve as the basis for research, development, 
applications and integration plans. A national long-range architecture 
is needed to guide plans that cross federal agency boundaries and 
leverage the contributions of academia and industry for effectively 
collecting and managing this important information.
    The national Earth Observation systems architecture should be 
developed with input provided by experts from government, academia, 
industry, and the private sector and should reflect the interests and 
needs of the supply and demand sides of the market architectural 
blueprint should take a long view, with horizons out for at least two 
generations, as well as provide guidance in transitioning new 
technology research sensors and systems into the next generation of 
operational observing systems.
    The Office of Science & Technology Policy (OSTP) is currently 
working on a policy related to this subject (United States Group on 
Earth Observations policy). AIA supplied approximately 25 pages of 
input to the OSTP which can be accessed at: http://www.aia-
aerospace.org/industry<INF>-</INF>information/
reports<INF>-</INF>white<INF>-</INF>papers/.

Q4.  The AIA and its members have been active in science and 
engineering education and with developing the workforce of America's 
space program. What are your thoughts on the most critical issues and 
priorities that NASA should address as part of its educational 
activities and workforce programs going forward? What, if anything, in 
NASA's educational programs and portfolio would you change, and why?

A4. AIA is a strong supporter of NASA's education efforts and looks to 
NASA in a spirit of collaboration to help address critical issues that 
we share: an aging workforce and a sparse selection of domestic 
students who are well-prepared and interested in science and 
engineering careers, particularly in the aerospace sector.
    Three suggestions AIA would contribute to NASA's K-12 education 
program and portfolio are: 1) make career ``pathways'' more obvious to 
young people, including the involvement of school counselors and on-
line social networking; 2) formal involvement and collaboration with 
local school districts/communities where NASA facilities are present; 
and 3) place more emphasis on teacher development. All three of these 
suggestions aim to make a ``larger impact.''
    1) NASA's overall education framework very thoughtfully organizes 
its education programs into four categories: inspire, engage, educate, 
and employ, with each category referring to a different point in the 
``pipeline'' (i.e., informal education, elementary and secondary 
education and higher education, respectively). However, the programs 
themselves are not executed in a way that is holistic. For example, a 
young person may participate in a NASA program in eighth grade, but 
when she gets to high school that support may not longer be there 
resulting in: a) the student losing interest or b) the student not 
having the right support for her career path. Thus suggestion one aims 
to have these support systems in place for young people at each stage 
of their educational journey. A further evolution of this suggestion is 
for NASA to develop a system where there is a NASA educational 
component throughout a young person's education from K through post-
secondary.
    2) Since education happens at the local level, each NASA education 
office should have strong relationships with their school districts, 
local industry and other stakeholders. Throughout the nation such 
``innovation networks'' are already taking place and having an 
`Education Community Liaison' at each center would take existing 
partnerships and elevate them to a level where centers aren't just 
doing a field trip here, or a classroom program there, but are really 
part of the local dialogue with the goal of using their very finite 
government resources as effectively as possible.
    3) Research points to well-trained teachers as the single most 
important factor in a student's success in STEM. We support and stress 
that NASA emphasize efforts on professional development for current and 
aspiring teachers.
    For post-secondary education (two- and four-year institutions) AIA 
suggests: 1) increase money/in-kind support for hands-on/R&D projects 
for students and teachers, 2) develop cohort programs that make career 
paths obvious and include pathways into federal service or into private 
industry. Both of these suggestions aim to develop young people who 
have actual work experience and have the propensity for a career in 
aerospace.

Q5.  The AIA's report, ``Launch into Aerospace: Industry's Response to 
the Workforce Challenge,'' discussed the goal of pursuing ``legislative 
incentives to encourage skilled retirees to become STEM teachers.'' 
Could you elaborate on what legislative approach the AIA believes would 
be effective?

A5. As we face the need for over 200,000 STEM teachers within the next 
decade, employing the skills of our nation's retiring STEM workforce is 
obvious and logical.
    A major barrier for an individual to work as a teacher after 
retirement is the penalty on their retirement benefits. Consequently, 
legislation that would reduce the burden on retirees who elect to go 
back as science and math teachers should be explored. Right now, social 
security benefits are such that if a retiree goes back to work as a 
teacher, they may no longer receive retirement benefits because of 
their teaching income.
    One suggestion is a federal program that would not penalize 
retirees who become math and science teachers, similar to a loan 
forgiveness program for service, but in reverse. Criteria for 
participants could include: degree in STEM discipline, 10 years of work 
in a STEM field, successfully completion of state-approved requirements 
to become a teacher, and service in a high-need school for at least 
three years.
    A model that this program could be based on is the U.S. Department 
of Education's ``Transition to Teaching'' program that supports the 
recruitment and retention of mid-career professionals. In addition to 
supporting alternative routes for credentialing for professionals to 
become teachers, this program provides grants and other financial 
incentives. Financial support for teaching training may be another way 
the Federal Government can help retirees into the classroom.
    A private effort worth mentioning is the IBM Transition to Teaching 
program. The government could help to replicate that model by providing 
tax breaks and other financial incentives for a company to implement a 
similar program.

Q6.  What, in your view, should be the criteria for determining whether 
technology, instruments, or other project activities should be 
developed at NASA Centers or externally through competitive bidding?

A6. NASA Centers should focus upon technology that is of high value to 
NASA, but is too risky for industry to develop or of little or no 
commercial value. Much of this work will be for early development 
stages of a technology or instrument--low Technology Readiness Levels 
(TRLs)--where the focus is the development of the technology's basic 
capabilities (i.e., long before any set of requirements can be 
produced). Even at this stage collaboration with industry should be 
strongly encouraged. Once past this early stage, further development 
(mid-TRLs) is best accomplished through a fully integrated government/
industry team where needs and requirements can be balanced with the 
ability of industry to build the product at a known and affordable 
cost. The final stage of development and the transition to a flight 
system (higher TRLs) is best accomplished by an industry led effort 
with government oversight.

Questions submitted by Representative Pete Olson

Q1.  During our June 18 hearing, witnesses were in general agreement 
that converting NASA's spending authority to one-year money would 
create new hardships for the Agency. Could you elaborate on the 
consequences of such a change, and perhaps provide an illustrative 
example?

A1. One-year funds are not a cost-effective approach to the planning or 
implementation of multi-year programs. Limiting these funds leaves 
doubt regarding program continuation and provides little flexibility 
for the most efficient planning of program resources. The unintended 
effect of such a change would likely result in higher costs due to 
unknowns associated with program continuation.

Q2.  Re-establishing Advanced Technology Development as an 
independently funded and managed program has been cited as an important 
reform if NASA is to enhance its capability to develop new and perhaps 
paradigm-shifting technologies. What caused the Agency to abandon this 
approach? Was it simply budget; was the return on investment in 
question? How much annual funding would be required to re-establish a 
credible program?

A2. An important part of NASA's charter has been to perform aerospace 
research which benefits its own future programs and the needs of 
industry. It would appear that the constraints on the Agency's budget 
caused more funds to be diverted and restricted the dollars available 
for basic research. This is a mistake and diminishes long-term research 
benefits. ATD is very important as it funds low-TRL technologies 
focused on NASA's needs, which are essential to the success of future 
missions. In addition, with regard to NASA aviation aeronautics, we 
believe that NASA should address the R&D needs of NextGen Air Traffic 
Modernization which involves both fundamental and higher-level in-close 
coordination with FAA.

Q3.  The International Space Station will, in all likelihood, be 
utilized by NASA for some years beyond 2015 but at present the Agency 
appears unwilling to make such a commitment. Our international partner 
space-agencies have been looking for a firm signal from NASA for such a 
commitment, as it helps them deal with their governments to lay in 
long-term funding programs. What's preventing NASA from making such a 
commitment now?

A3. For NASA to commit to the ISS, the Agency needs presidential 
direction to continue the program. Later this summer the report by the 
Augustine Committee is expected to make recommendations on the 
extension of the ISS. It is likely that the White House will be able to 
confirm the extension of the ISS after the Augustine report is issued.
    It would be helpful to have Congressional support for both an ISS 
extension to at least 2020 and additional ISS funding in a 2009 NASA 
Authorization bill.

Q4.  What are your thoughts and concerns about engaging more 
intensively with international partners to fly joint missions? What are 
the primary disadvantages against joint missions, and in your view, 
would US science priorities likely be jeopardized if we aggressively 
engage in joint missions? To what degree do export control restrictions 
make joint missions unwieldy and difficult to manage?

A4. Joint missions would allow us to share costs and benefit from the 
talent of other nations. Such missions also allow for sharing of data 
and increased information sharing between nations and partners. Joint 
missions are also a valuable tool for maintaining or improving 
international relations. The disadvantage is that portions of missions 
that go overseas will not benefit our domestic industrial capacity, 
which in turn provides no benefit to our domestic industrial base in 
terms of workforce employed or R&D performed. This is a critical issue 
now for the United States if we want to sustain and lead in aerospace 
technology and capability. However, having additional partners does not 
preclude the potential for additional missions and ultimately more 
industrial and scientific productivity. Joint projects will have to be 
carefully planned, ideally with public-private-partnership approaches, 
and funded so that American tax dollars can stimulate the American 
economy and our domestic industrial base.
    ITAR continues to complicate joint missions. Even when the U.S. and 
other nations have signed government to government agreements of 
cooperation, ITAR regulations still impact and delay support activities 
contracted to U.S. industry by NASA involving our foreign partners.

Q5.  Re-invigorating NASA's workforce is especially critical given the 
average age of the Agency's employees. How would you describe the 
attractiveness of NASA as a prospective employer, especially from the 
perspective of a young `fresh-out'? Would they tend to look at NASA as 
a career choice? How can NASA best ensure that the knowledge and 
`lessons learned' will be passed from the current generation of 
scientists and engineers to the next?

A5. Public perception surveys of NASA (for example, see Dittmar 
Associates, ``The Market Study for Space Exploration,'' 2004 report) 
have found that young people, between ages 18-25, find very little 
excitement or interest in NASA or its activities--citing reasons such 
as general confusion about NASA's purpose and lack of relevancy.
    Our industry also faces similar challenges with ``fresh-outs.'' 
Recent surveys conducted by Aviation Week find that those with zero to 
five years experience are leaving our companies at higher rates than 
any other experience groups--especially those with an engineering or 
production laborer function.
    The National Academies reported in 2006 that other factors in the 
near future will complicate NASA's workforce challenges, such as 
uncertainties about the future pace and scope of some program areas, 
program volatility and NASA's immediate needs for workers who already 
have significant experience, rather than more junior people who require 
training. These issues will very likely affect the perceptions of young 
people seeking careers at NASA and the industry.
    With respect to `passing knowledge down,' the aerospace industry 
does incorporate different knowledge management practices that NASA may 
consider. These tools include: apprenticeships, intranet portals, 
knowledge and content management systems, knowledge blogs, mentoring, 
information sharing events and aligning employee goals to knowledge 
management goals.
    Additionally, many companies keep track of alumni--NASA may 
consider tracking an alumni's personal contact information, areas of 
expertise, work competencies, work history and current activities. NASA 
may also consider programs to connect with alumni such as: alumni 
association events, retiree consulting and extended work with reduced 
hours for alumni.
    One thing that NASA appears to be doing well is in the area of 
social-networking. Use of these tools may be an effective way to 
communicate and pass knowledge to younger workers.

Q6.  Over the last decade, NASA has employed several different 
financial management schemes that directly affect managers and the 
manner in which they account for and control--costs within their 
programs and missions. How effective, and how transparent, is the 
current system, especially from the perspective of program and mission 
managers?

A6. This question falls outside AIA's area of expertise.

Q7.  NASA's aeronautics research and development program has beet 
severely reduced over the last decade, today only accounting for about 
three percent of the Agency's total budget. I find this alarming, 
considering NASA's origins as an outgrowth of NACA existed for more 
than 40 years prior to NASA's establishment. Two questions: (1) is the 
FY10 budget request sufficient to meet NASA's commitment to NextGen; 
and (2) if given an additional dollar for aeronautics R&D how would you 
spend it--what new activity or research would you pursue?

A7. Funding for NASA aeronautics R&D at the higher TRLs--4, 5, 6--has 
been in decline for years and that is exactly the kind of funding 
NextGen R&D needs. Now that President Obama has identified the fielding 
of NextGen as a national priority and Secretary LaHood and Presidential 
economic advisor Larry Summers have both asked government and industry 
to accelerate NextGen implementation by ten years, we really need 
additional research funding for key NextGen initiatives like aircraft 
self-separation and Unmanned Aerial Systems (UAS) integration. If we 
had an additional dollar to spend on aeronautics R&D, we would 
recommend spending 33 cents on aircraft self-separation, 33 cents on 
UAS integration and 34 cents on sustainable aviation biofuels.

Questions submitted by Representative Dana Rohrabacher

Q1.  It is always easy to advocate for money for NASA. Assuming 
however, a relatively flat budget, especially for the years following 
2010, what guidance can you offer regarding areas in NASA's budget: 
What areas are the highest priority to you, and what areas are the 
lowest priority? What can NASA or Congress do to maximize the science 
return on its budget?

A1. AIA represents almost all the companies that provide products or 
services to NASA, including all the mission directorates, making it 
difficult, if not impossible, for AIA to provide specific priorities. 
Clearly the work that NASA does is extremely important, difficult to 
categorize and. vital to our economy, national security and our future. 
AIA does believe, as stated in our recent report, ``The Role of Space 
in Addressing America's National Priorities'' that space should be 
coordinated at the highest level as a singular enterprise. Such a 
coordination body could help identify areas of overlap among all the 
federal agencies that deal with space issues, leading to significant 
cost savings. To help NASA in its critical projects, our nation should 
ensure that policy choices drive the budget rather than allowing the 
budget to shape and limit the scope of important policies.

Q2.  We're all familiar with the large and growing threat that orbital 
debris poses to our people and assets in space. This subcommittee 
recently held a hearing on the topic. AIA recently hosted a briefing on 
this critical issue. I think you all would agree that it is critical 
for us to get working on some form of remediation effort.

Q2a.  First--do you all agree on that?

A2a. AIA agrees that space debris is a serious issue that needs to be 
addressed.

Q2b.  Second--is NASA the right agency to head this up?

A2b. NASA certainly has many of the critical skills needed to be a 
participant in solving this problem, but DOD currently tracks debris. 
Who takes the lead on this effort is a decision for the Administration 
and Congress. Industry is ready to work with the government on 
mitigating the impact of debris.

Q2c.  Third--what are the hurdles we need to overcome to create an 
international effort to get rid of all this debris up there?

A2c. First, we need to improve the fidelity of our own space 
situational awareness to prevent conjunctions. We also need to work 
with our friends and allies in sharing information. Currently, the U.S. 
Government does not have the ability to remove debris from our space 
environment, although industry is investing in ways to ``clean up'' 
space. Additional support should be provided to the joint Air Force and 
National Reconnaissance Office Space Protection Program to assist their 
efforts to not only prevent the creation of additional space debris, 
but also look into ways to remove debris.

Q2d.  Fourth--what are the proper roles for commercial entities to play 
in this?

A2d. We believe the aerospace industry has existing tools that can be 
employed in managing the data needed to mitigate space debris 
conjunctions and can also be a leader in future efforts to mitigate the 
effects of debris. We encourage government to include industry in 
discussions and plans for debris mitigation.

Q3.  The recent Aerospace Safety Advisory Panel (ASAP) Annual report 
stated ``From a safety standpoint the ASAP endorses the NASA position 
on not extending Shuttle operations . . . completing the ISS.'' This 
leaves us with a gap in our domestic access to space. The ASAP report 
goes on to say ``we are not convinced that the Ares-I and Orion initial 
Operating Capacity date can be improved appreciably by additional 
resources. If we can't extend the Shuttle or move up Ares I how can we 
best spend resources trying to minimize this gap?'' The report also 
states ``There is no evidence that COTS vehicles will be completed in 
time to minimize the gap. Except for inadequate funding is there 
evidence that COTS-D couldn't be available in time to reduce the gap?'' 
If NASA were to immediately fund these commercial efforts to modify 
existing launch vehicles and/or develop new ones what is the best case 
scenario for their availability?

A3. Its clear NASA has a great deal of confidence in its Commercial 
Orbital Transportation Services (COTS) program, as it should, and we're 
very glad it is moving forward. However, only NASA can say when those 
systems will be ready to start human transport.

Q4.  There is a renewed focus on NASA looking back at planet Earth. I 
have always thought that NASA did its best work looking outward. Isn't 
it time to shift some of these roles over to other agencies more fully 
so NASA can focus on looking out rather than looking in?

A4. The U.S. needs a robust Earth Observation capability to sustain our 
collection of critical global data. However, while Earth Observations 
are implemented through many agencies across the government, there is 
no overarching architecture to serve as the basis for research, 
development, applications and integration plans. A national long-range 
architecture is needed to guide plans that cross federal agency 
boundaries and leverage the contributions of academia and industry for 
effectively collecting and managing this important information.
    Development of a national Earth Observation systems architecture 
can benefit from high-level directives with input provided by experts 
from government, academia, industry, and the private sector and reflect 
the interests and needs of the supply and demand sides of the market. 
The architectural blueprint should take a long view, with horizons out 
for at least two generations, as well as provide guidance in 
transitioning new technology research sensors and systems into the next 
generation of operational observing systems.
    The Office of Science & Technology Policy (OSTP) is currently 
working on a policy related to this subject (United States Group on 
Earth Observations policy). AIA supplied approximately 25 pages of 
input to the OSTP which can be accessed at: 
http://www.aia-aerospace.org/industry<INF>-</INF>information/
reports<INF>-</INF>white<INF>-</INF>papers/.

                                   

</pre></body></html>
